<html>
<title> - OCEAN SCIENCE AND DATA LIMITS IN A TIME OF CRISIS: DO NOAA AND THE FISH AND WILDLIFE SERVICE (FWS) HAVE THE RESOURCES TO RESPOND? (PART 2 OF 3)</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                        OCEAN SCIENCE AND DATA 
                      LIMITS IN A TIME OF CRISIS: 
                       DO NOAA AND THE FISH AND 
                      WILDLIFE SERVICE (FWS) HAVE 
                       THE RESOURCES TO RESPOND? 
                             (PART 2 OF 3)

=======================================================================

                           OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON INSULAR AFFAIRS,
                          OCEANS AND WILDLIFE

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                         Tuesday, June 15, 2010

                               __________

                           Serial No. 111-57

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
      
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

56-978 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 















                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Frank Pallone, Jr., New Jersey       Jeff Flake, Arizona
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Madeleine Z. Bordallo, Guam          Louie Gohmert, Texas
Jim Costa, California                Rob Bishop, Utah
Dan Boren, Oklahoma                  Bill Shuster, Pennsylvania
Gregorio Sablan, Northern Marianas   Doug Lamborn, Colorado
Martin T. Heinrich, New Mexico       Adrian Smith, Nebraska
Ben Ray Lujan, New Mexico            Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

          SUBCOMMITTEE ON INSULAR AFFAIRS, OCEANS AND WILDLIFE

                MADELEINE Z. BORDALLO, Guam, Chairwoman
     HENRY E. BROWN, JR., South Carolina, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Jeff Flake, Arizona
    Samoa                            Doug Lamborn, Colorado
Frank Pallone, Jr., New Jersey       Robert J. Wittman, Virginia
Gregorio Sablan, Northern Marianas   John Fleming, Louisiana
Donna M. Christensen, Virgin         Jason Chaffetz, Utah
    Islands                          Bill Cassidy, Louisiana
Diana DeGette, Colorado              Doc Hastings, Washington, ex 
Ron Kind, Wisconsin                      officio
Lois Capps, California
Carol Shea-Porter, New Hampshire
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Ben Ray Lujan, New Mexico
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                


















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, June 15, 2010...........................     1

Statement of Members:
    Bordallo, Hon. Madeleine Z., a Delegate in Congress from Guam     1
        Prepared statement of....................................     2
    Cassidy, Hon. Bill, a Representative in Congress from the 
      State of Louisiana.........................................     2

Statement of Witnesses:
    Coddington, Jonathan A., Ph.D., Associate Director of 
      Research and Collections, National Museum of Natural 
      History, Smithsonian Institution...........................    30
        Prepared statement of....................................    32
        Response to questions submitted for the record...........    36
    D'Elia, Christopher F., Ph.D., Professor and Dean, School of 
      the Coast and Environment, Louisiana State University, 
      Baton Rouge, Louisiana.....................................    96
        Prepared statement of....................................    98
        Response to questions submitted for the record...........   103
    Fingas, Merv, Ph.D., Committee on Oil in the Sea, National 
      Research Council...........................................    37
        Prepared statement of....................................    38
        Response to questions submitted for the record...........    47
    Kennedy, David M., Acting Assistant Administrator, National 
      Ocean Service, National Oceanic and Atmospheric 
      Administration, U.S. Department of Commerce................     5
        Prepared statement of....................................     7
        Response to questions submitted for the record...........    12
    Lee, Valerie Ann, Senior Vice President, Environment 
      International Government Ltd., Seattle, Washington.........    84
        Prepared statement of....................................    85
    McNutt, Marcia K., Ph.D., Director, U.S. Geological Survey, 
      U.S. Department of the Interior............................    22
        Prepared statement of....................................    24
    Reddy, Christopher M., Ph.D., Associate Scientist, Director, 
      Coastal Ocean Institute, Woods Hole Oceanographic 
      Institution, Woods Hole, Massachusetts.....................    68
        Prepared statement of....................................    70
    Reed, Denise J., Ph.D., Interim Director, Pontchartrain 
      Institute for Environmental Sciences, and Professor, 
      Department of Earth and Environmental Sciences, University 
      of New Orleans, New Orleans, Louisiana.....................    91
        Prepared statement of....................................    93
    Weisberg, Robert H., Ph.D., Distinguished University 
      Professor, Professor of Physical Oceanography, College of 
      Marine Science, University of South Florida, St. 
      Petersburg, Florida........................................    73
        Prepared statement of....................................    74
        Response to questions submitted for the record...........    80

Additional materials supplied:
    Brown, William Y., President, Natural Science Collections 
      Alliance, Letter submitted for the record..................   118
    Tjeerdema, Ronald S., Ph.D., Professor and Chair, Diplomate, 
      American Board of Toxicology, University of California, 
      Davis, Letter submitted for the record.....................   119
                                     



OVERSIGHT HEARING ON OCEAN SCIENCE AND DATA LIMITS IN A TIME OF CRISIS: 
 DO NOAA AND THE FISH AND WILDLIFE SERVICE (FWS) HAVE THE RESOURCES TO 
                         RESPOND? (PART 2 OF 3)

                              ----------                              


                         Tuesday, June 15, 2010

                     U.S. House of Representatives

          Subcommittee on Insular Affairs, Oceans and Wildlife

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:02 a.m. in 
Room 1324, Longworth House Office Building, Hon. Madeleine Z. 
Bordallo presiding.
    Present: Representatives Bordallo, Kildee, Sablan, Shea-
Porter, Wittman, Fleming, and Cassidy.
    Also present: Representative Bilirakis

STATEMENT OF THE HONORABLE MADELINE Z. BORDALLO, A DELEGATE IN 
              CONGRESS FROM THE TERRITORY OF GUAM

    Ms. Bordallo. Good morning, everyone. The oversight hearing 
by the Subcommittee on Insular Affairs, Oceans, and Wildlife 
will now come to order.
    Today, day 57 of the Deepwater Horizon oil spill, the 
Subcommittee continues its inquiry into the largest 
environmental disaster in United States history. Last week, we 
heard from distinguished panelists about the short- and the 
long-term impacts of the oil spill on trust resources, 
including fisheries, birds and other wildlife, marine mammals, 
tribal resources, protected fish and wildlife habitat, beaches, 
our coasts, and other natural areas. It was abundantly clear 
from that hearing that the communities that depend on these 
resources, from fishermen and hunters to the tourism industry, 
will be reeling from the impacts of this oil spill for decades.
    Today's hearing will investigate both what we know and what 
we do not know about the environment to guide the oil spill 
response and recovery activities in the Gulf of Mexico. 
Clearly, there is so much that we do not know because of the 
unprecedented scale and complexity of this oil spill. But some 
of these unknowns can be eliminated through transparent access 
to data and information, and adequate deployment of assets to 
measure and monitor the spill.
    We need to know how much oil has spilled and continues to 
spill into the Gulf. We need to know the fate of this oil and 
dispersant at the surface and in the water column. We need to 
collect and integrate baseline environmental data to properly 
assess natural resource damages.
    This information is critical to our response and recovery 
activities because what gets measured gets managed. Sadly, 
there is so much that will not be managed because of the gaps 
and the limits in our understanding of the complex estuary, 
coastal, and marine environments in the Gulf. We have made such 
limited investments in coastal science programs and ocean 
observation systems that it has proven difficult to provide 
timely and accurate scientific information to target response 
activities and to assess damages to natural resources.
    Whether we know enough to mitigate the impacts of this oil 
spill, to properly compensate the public for damages to natural 
resources and to prevent catastrophic oil spills in the future, 
remains to be seen. But we must strive to make the public whole 
and to take every protection to never let a disaster like this 
happen again.
    I want to thank this morning all of the witnesses for being 
here during this very challenging and busy time, and I look 
forward to hearing your testimony. At this time, I would like 
to recognize Mr. Cassidy, the Acting Ranking Republican Member 
of this Subcommittee, for any statement that he may have.
    [The prepared statement of Chairwoman Bordallo follows:]

     Statement of The Honorable Madeleine Z. Bordallo, Chairwoman, 
          Subcommittee on Insular Affairs, Oceans and Wildlife

    Today, Day 57 of the Deepwater Horizon oil spill, the Subcommittee 
continues its inquiry into the largest environmental disaster in U.S. 
history. Last week we heard from distinguished panelists about the 
short and long-term impacts of the oil spill on trust resources, 
including fisheries, birds and other wildlife, marine mammals, tribal 
resources, protected fish and wildlife habitat, beaches, our coasts, 
and other natural areas. It was abundantly clear from that hearing that 
the communities that depend on these resources, from fishermen and 
hunters to the tourism industry, will be reeling from the impacts of 
this oil spill for decades.
    Today's hearing will investigate both what we know and what we do 
not know about the environment to guide the oil spill response and 
recovery activities in the Gulf of Mexico. Clearly, there is so much 
that we do not know because of the unprecedented scale and complexity 
of this oil spill, but some of these unknowns can be illuminated 
through transparent access to data and information and adequate 
deployment of assets to measure and monitor the spill.
    We need to know how much oil has spilled and continues to spill 
into the Gulf. We need to know the trajectory and fate of this oil and 
dispersant at the surface and in the water column. We need to collect 
and integrate baseline environmental data to properly assess natural 
resource damages. This information is critical to our response and 
recovery activities because what gets measured gets managed.
    Sadly, there is so much that will not be managed because of the 
gaps and limits in our understanding of the complex estuarine, coastal, 
and marine environments in the Gulf. We have made such limited 
investments in coastal science programs and ocean observation systems 
that it has proven difficult to provide timely and accurate scientific 
information to target response activities and to assess damages to 
natural resources.
    Whether we know enough to mitigate the impacts of this oil spill, 
to properly compensate the public for damages to natural resources, and 
to prevent catastrophic oil spills in the future remains to be seen, 
but we must strive to make the public whole and to take every 
precaution to never let a disaster like this happen again.
    I thank all the witnesses for being here today during this very 
challenging and busy time, and look forward to hearing your testimony.
                                 ______
                                 

 STATEMENT OF THE HONORABLE BILL CASSIDY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Cassidy. Thank you, Madame Chair. I appreciate your 
scheduling this hearing on the resources and knowledge 
available to the Federal Government, especially NOAA and the 
Fish and Wildlife Service, in responding to the Deepwater 
Horizon spill.
    It has been 57 days since the Deepwater Horizon exploded 
and sank some 42 miles off the coast of Louisiana. It is an 
ongoing disaster for the Gulf Coast region, its economy and 
environment, and the millions who live there, and it is a 
tragedy cut in stone for those who have lost loved ones. 
Particularly, it is an ongoing tragedy for those whose jobs are 
dependent upon the Gulf of Mexico, and a new tragedy is the 
President's moratorium on offshore drilling, which will 
effectively destroy the livelihoods of tens of thousands of 
Louisianians who rely upon well-paying jobs to support their 
family.
    At previous hearings, I have referred to the National 
Academy of Sciences' report, ``Oil in the Sea III.'' This 
report was released in 2003 and had many recommendations to 
Federal agencies regarding natural and man-made releases of oil 
and the research necessary to understand their effects. 
However, there are many recommendations in this report and 
other reports, such as the 2004 ``Spill of National 
Significance'' report, which have not been acted upon by these 
agencies.
    At last week's Subcommittee hearing, concerns were raised 
about the use of dispersants. Well, there seems to be some 
understanding of the impact of dispersants' use on the water 
surface, but there are concerns about the short- and long-term 
impact of their use within the water column. We also do not 
have much information on how oil degrades in the ultra-deep and 
deep waters, as well as in sensitive marine areas.
    Some of our witnesses today will discuss this and tell us 
where the science is limited. It is apparent that we do not 
have the knowledge necessary to address a spill this size. It 
is a disappointment that the Environmental Protection Agency, 
which was invited and has issued permits allowing the use of 
subsurface dispersants, apparently felt this hearing was not 
worth their time.
    At today's hearing, we will examine what information was 
available to the Federal Government prior to this spill. Did 
each agency have adequate baseline data available for the Gulf 
of Mexico region to understand the impacts of the oil? In an 
area where oil and gas exploration occurs daily, it would seem 
essential to have this information, but a lot of Federal 
efforts following the spill, particularly the responses of NOAA 
and EPA, have been to create baseline data from scratch rather 
than acting upon an existing set of knowledge and preparations. 
And why haven't we learned from the previous spills? I have 
asked in this Committee on numerous occasions about the 1979 
Ixtoc drilling accident in the Gulf of Mexico. How has it 
informed us? Why can't we do what the Norwegians did when they 
actually studied the effects of oil in the deepwater? Lake 
Barre was an oil spill in the Louisiana marshes. None of my 
witnesses, so far, have been able to tell us how clean-ups in 
that area could inform our clean-ups in this area. I look 
forward to these panels, and I am confident that you will be 
able to.
    Why are outside researchers and even private citizens able 
to tell the Federal Government things long before the Federal 
Government is able to come to the same conclusion? For 
instance, why are researchers able to tell from watching BP's 
spill cam over the Internet that more oil was being discharged 
than was being estimated? And then the Federal Government had 
to create a new committee before it could tell us that these 
researchers were right. And why have we not tested dispersant 
use in deepwater? What information is available in sensitive 
coastal areas?
    Did the Administration react quickly enough to protect 
these areas? Do we know how these coastal wetlands will respond 
and how long it will take them to recover? How can we be more 
innovative in our approach in dealing with disasters like this, 
including reducing the Federal red tape that seems to hamstring 
our efforts at creating new approaches?
    There are a great many outstanding scientists working at 
our universities, and especially in my state and other states 
affected by the spill, who should be consulted to understand 
these issues and find solutions. Instead, I have heard from 
academic professionals, in Louisiana and elsewhere, that they 
are not being offered the opportunity to engage with the 
Federal Government and share their wide-ranging expertise, and 
that even after the spill they have had little opportunity to 
provide input. And I have also been told by some researchers 
that they are being intimidated by BP to not go into the 
marshes, to publish their scientific findings, and if they do, 
they will risk legal action.
    The Federal Government should be actively seeking the input 
of the academic community and ensuring that the data collected 
is published so we can learn from this devastating event.
    Madame Chair, I look forward to hearing from our 
distinguished witnesses, who will give us their unique 
perspective on the impacts of this oil spill disaster.
    Ms. Bordallo. I thank the gentleman from Louisiana for his 
opening statement. And I would now like to recognize our first 
panel of witnesses to testify. Before we do that, I would like 
to ask those that are standing in the back, you can take the 
chairs up here on the lower dais if you would like to be 
seated. This may be a lengthy hearing, and I don't know that 
you can be able to stand through it all. Please feel welcome to 
sit here.
    Our witnesses this morning on panel one include Mr. David 
Kennedy, the Acting Assistant Administrator, National Ocean 
Service, National Oceanic and Atmospheric Administration; Dr. 
Marcia McNutt, Director, U.S. Geological Survey; Dr. Jonathan 
A. Coddington, Associate Director for Research and Collections, 
National Museum of Natural History, Smithsonian Institution; 
and Dr. Merv Fingas, Committee on Oil in the Sea, National 
Research Council.
    I would like to thank all of you for being here today. And 
as we begin, I would note that the red timing light on the 
table will indicate when your five minutes have passed and your 
time has concluded. We would very much appreciate your 
cooperation in complying with these limits. But be assured, 
ladies and gentlemen, that your full written statement will be 
submitted for the hearing record.
    And now, Mr. Kennedy, welcome back to our Subcommittee, and 
thank you for being here today. Please begin your testimony.

  STATEMENT OF DAVID KENNEDY, ACTING ASSISTANT ADMINISTRATOR, 
   NATIONAL OCEAN SERVICE, NATIONAL OCEANIC AND ATMOSPHERIC 
                         ADMINISTRATION

    Mr. Kennedy. Good morning. Thank you, Chairwoman Bordallo 
and members of the Subcommittee, for the opportunity to testify 
on the critical role of ocean observations and data in this 
time of crisis and areas for future emphasis. My name is David 
Kennedy, Acting Assistant Administrator, Ocean Service Coastal 
Zone Management, for NOAA. I have been deeply involved in this 
spill and many before.
    But before I move on--I want to discuss NOAA's efforts. I 
would like first to express my condolences to the families of 
the 11 people who lost their lives in the explosion and sinking 
of the Deepwater Horizon platform.
    The entire agency is deeply concerned about the immediate 
and long-term environmental, economic, and social impacts to 
the Gulf Coast and the Nation as a whole from this spill. NOAA 
is fully mobilized and working tirelessly to lessen impacts on 
the Gulf Coast, and will continue to do so until the spill is 
controlled, oil is cleaned up, natural resource injuries are 
assessed, and restoration is complete.
    Today, I am going to focus my comments on the importance of 
ocean observations in the Gulf of Mexico and future areas for 
enhancing oil spill response. Unfortunately, this oil spill is 
a grave reminder that spills of national significance can 
occur, despite the safeguards and improvements that have been 
put into place since the passage of the Oil Pollution Act of 
1990. If a spill does occur, responders must be equipped with 
the appropriate tools and information, and effective response 
based on solid science and smart decision-making resources, 
environmental and socioeconomic impacts, as well as clean-up 
costs.
    I am going to talk just briefly about surface observations, 
and then I will go to subsurface. One of NOAA's roles during 
the oil spill is to provide scientific information to the 
Federal on-scene coordinator. One of the products NOAA provides 
are spill trajectories. Real-time data on currents, tides, and 
winds, as well as sustained observations and physical and 
chemical parameters of the whole water column are important in 
driving the models that inform our understanding of the likely 
path of the spilled oil. The usefulness of NOAA's trajectory 
model depends in part on the accuracy of the input data.
    Observational data play a critical role in ensuring the 
most accurate trajectory forecast is provided. These forecasts 
ensure that local communities have advanced warning of 
potential impacts, and as a result that plans can be put in 
place to protect sensitive natural resources. For modeling the 
surface movement of oil, ocean observations such as high 
frequency radar play a critical role. High frequency radar is 
delivered near real-time surface current data 
24/7, covering thousands of square miles simultaneously. 
Surface currents of the ocean are key inputs to the models that 
generate estimates of the extent and trajectory of an oil 
spill.
    In the Gulf of Mexico, this information is provided from 
the Gulf of Mexico Coastal Ocean Observing System, GCOOS, and 
the Southeast Coastal Ocean Observing Regional Association, 
SECOORA. These regional associations are part of the U.S. 
Integrated Ocean Observing System, or IOOS, a Federal, 
regional, and private sector partnership working to enhance our 
ability to collect, deliver, and use ocean information.
    Because we cannot predict where a spill will occur, data 
delivery from high frequency radar is envisioned to be part of 
a seamless national system that will ensure information 24/7. 
As IOOS generates more data from technological advances like 
high frequency radar, the prediction of oil's location will be 
improved by pulling these observations into NOAA's trajectory 
models.
    Subsurface observations. As the Deepwater Horizon oil spill 
is demonstrating, our nation's existing capacity to deliver an 
accurate depiction of subsurface movement is limited. Although 
there is some capacity across the Federal and non-Federal 
oceanography community, ocean currents, oil density, and 
behavior in oil droplet size are all significant contributors 
to whether oil rises to the ocean surface or remains below the 
surface.
    The subsurface concentration of dissolved oil or oil 
droplets is of significant concern in understanding how 
fisheries, marine mammals, and other species in the water 
column will be affected. The broad oceanographic community has 
responded in remarkable fashion and made available the best of 
their expertise and technology to better inform our 
understanding of the subsurface movement of oil.
    However, to detect the presence of subsurface oil and 
estimate its movements beneath the surface, one needs a suite 
of observing assets combined with three-dimensional ocean 
circulation models. While ship surveys have been the 
conventional method for observing three-dimensional fields of 
temperature, salinity, and other properties, such as 
chlorophyll and nutrients, this method is slow and costly. A 
combination of profiling floats, moored buoys with profiling 
sensors, and gliders have the capability to deliver the 
information with the temporal and spatial parameters needed.
    In addition to enhancing observations in the Gulf of Mexico 
to produce more robust trajectory models of surface and 
subsurface oil, additional research, enhanced response 
capability, and improved tools and technological innovation by 
the public or private sector would greatly improve our ability 
to respond to the level expected by the nation.
    To mitigate environmental effects of future spills, 
responders must be equipped with sufficient capacity and 
capabilities to address the challenge. If another large spill 
were to occur simultaneously in another location elsewhere in 
the United States, NOAA would have difficulty responding to its 
complete ability. Strong science is critical to effective 
decision-making to minimize the ecological and economic impacts 
from, and mitigate the effects of, oil spills on coastal and 
marine resources in the associated communities.
    Existing research has resulted in the advance of some 
response technologies. More can be done, however, to strengthen 
our nation's response capability, and continued development of 
tools and strategies can only increase the effectiveness of oil 
spills.
    In closing, I assure you that NOAA will not relent in our 
efforts to protect the livelihoods of affected Gulf Coast 
residents and mitigate the environmental impacts of this spill. 
Thank you for allowing me the time. Thanks.
    [The prepared statement of Mr. Kennedy follows:]

Statement of David M. Kennedy, Acting Assistant Administrator, National 
 Ocean Service, National Oceanic and Atmospheric Administration, U.S. 
                         Department of Commerce

    Thank you, Chairwoman Bordallo and Members of the Subcommittee, for 
the opportunity to testify on the Department of Commerce's National 
Oceanic and Atmospheric Administration's (NOAA) role in the response to 
the Deepwater Horizon oil spill.
    My name is David Kennedy and I am the Acting Assistant 
Administrator for Ocean Services and Coastal Zone Management at NOAA. I 
appreciate the opportunity to discuss the critical roles NOAA serves 
during oil spills and the importance of our contributions to protect 
and restore the natural resources, communities, and economies affected 
by this tragic event. Before I move on to discuss NOAA's efforts, I 
would first like to express my condolences to the families of the 
eleven people who lost their lives in the explosion and sinking of the 
Deepwater Horizon platform.
    NOAA's mission is to understand and predict changes in the Earth's 
environment and conserve and manage coastal and marine resources to 
meet our Nation's economic, social, and environmental needs. NOAA is 
also a natural resource trustee and is one of the federal agencies 
responsible for protecting, assessing, and restoring the public's 
coastal natural resources when they are impacted by oil spills, 
hazardous substance releases, and impacts from vessel groundings on 
corals and seagrass beds. As such, the entire agency is deeply 
concerned about the immediate and long-term environmental, economic, 
and social impacts to the Gulf Coast and the Nation as a whole from 
this spill. NOAA is fully mobilized and working tirelessly to lessen 
impacts on the Gulf Coast and will continue to do so until the spill is 
controlled, oil is cleaned up, natural resource injuries are assessed, 
and restoration is complete.
    My testimony today will discuss NOAA's role in the Deepwater 
Horizon response and natural resource damage assessment process, 
observations related to the Gulf of Mexico, and future activities to 
improve response and resource assessment efforts.
NOAA'S RESPONSE AND DAMAGE ASSESSMENT EFFORTS
    NOAA has three critical roles mandated by the Oil Pollution Act of 
1990 and the National Contingency Plan:
        1.  During the emergency response, NOAA serves as a conduit for 
        scientific information to the Federal On-Scene Coordinator. 
        NOAA provides trajectory predictions for spilled oil, conducts 
        overflight observations of oil on water, identifies highly 
        valued or sensitive environmental areas, and conducts shoreline 
        surveys to determine clean-up priorities.
        2.  As a natural resource trustee, NOAA conducts a joint 
        Natural Resource Damage Assessment (NRDA) with co-trustees to 
        assess and restore natural resources injured by the oil spill. 
        NRDA also assesses the lost uses of those resources, such as 
        recreational fishing, canoeing, and swimming, with the goal of 
        implementing restoration projects to address these injuries.
        3.  Finally, NOAA represents the Department of Commerce in 
        spill response decision-making activities through the National 
        Response Team.
    NOAA's experts have been assisting with the response to the 
Deepwater Horizon oil spill from the beginning, providing coordinated 
scientific services when and where they are needed most. Support from 
NOAA has not stopped since the first requests for information by the 
U.S. Coast Guard (USCG). Over the past eight weeks, NOAA has provided 
scientific support, both on-scene and through our headquarters and 
regional offices. NOAA's support includes daily trajectories of the 
spilled oil, weather data to support short- and long-range forecasts, 
and hourly localized `spot' forecasts to determine the use of weather-
dependent mitigation techniques such as oil burns and chemical 
dispersant applications. We develop custom navigation products and 
updated charts to help keep mariners out of oiled areas. NOAA uses 
satellite imagery and real-time observational data on the tides and 
currents to predict and verify oil spill location and movement. To 
ensure the safety of fishermen and consumer seafood safety, NOAA has 
closed oil-impacted areas to commercial fishing. NOAA scientists are in 
the spill area taking water and seafood samples to determine which 
areas are safe for commercial fishing. NOAA will reopen these areas 
only if it is assured that fish products within the closed area meet 
the Food and Drug Administration (FDA) standards for public health and 
wholesomeness. To that end, NOAA, in conjunction with FDA, is 
continuing to refine a reopening protocol based on both chemical and 
sensory analysis of seafood within the closed area. In addition, NOAA's 
marine animal health experts are providing expertise and assistance 
with stranded sea turtles and marine mammals.
    To facilitate on-the-ground understanding of the spill's impacts, 
NOAA is awarding grants for rapid response projects to monitor the 
impacts of the oil spill on Louisiana's coastal marshes and fishery 
species through the Sea Grant Program. To support the local communities 
as they deal with the economic, social, and environmental impacts of 
the spill, the Gulf Coast Sea Grant Programs are hosting a series of 
open forums across the Gulf where citizens have the opportunity to 
interact with industry, government, and university representatives. In 
addition, NOAA helped organized volunteer beach clean-ups to remove 
pre-spill debris from state beaches, which eliminates obstacles and 
improves access, thereby helping to facilitate the identification and 
cleanup of oil along the shoreline.
    With multiple agencies supporting a diverse array of research 
projects in response to the Deepwater Horizon oil spill in the Gulf of 
Mexico, it is important to coordinate research activities to ensure the 
best use of limited resources. NOAA's Gulf Coast Sea Grant Programs are 
developing a website to serve as a central database listing ongoing 
research activities and identifying funding opportunities for oil-spill 
related research, whether conducted by government, academic, or 
privately-supported scientists. The database's intent is to provide a 
single, comprehensive view of research activities in the Gulf that are 
being undertaken in connection with the Deepwater Horizon oil spill and 
to foster coordination of these efforts.
    At the onset of this oil spill, NOAA quickly mobilized staff from 
its Damage Assessment Remediation and Restoration Program to begin 
coordinating with federal and state co-trustees and the responsible 
parties to collect a variety of data that are critical to help inform 
the NRDA process. NOAA is coordinating the NRDA effort with the 
Department of the Interior (another federal co-trustee), as well as co-
trustees in five states and representatives for at least one 
responsible party, BP.
    While it is still too early in the process to know what the full 
scope of the damage assessment will be, NOAA and co-trustees continue 
to collect data in the Gulf and across the five states. These data will 
be used to determine what natural resources have been injured and what 
human uses have been lost due to the spill. Several technical working 
groups comprising NOAA, federal and state co-trustees, and 
representatives from one responsible party (BP) are gathering existing 
scientific information and developing and implementing baseline (pre-
spill impact) and post-impact field studies for multiple resource 
categories. Hundreds of miles of coastal shoreline were surveyed by air 
and samples were taken to determine baseline conditions prior to the 
oil hitting land, to identify where the oil has made landfall to 
support clean-up activities. Resources being assessed include fish and 
shellfish, bottom-dwelling plant and animal life, birds, marine 
mammals, turtles, and sensitive habitats such as wetlands, submerged 
aquatic vegetation or seagrasses, beaches, mudflats, bottom sediments, 
deep and shallow corals, chemosynthetic organisms, and the water 
column. Some of these resources may be included within National 
Estuarine Research Reserves and National Marine Sanctuaries. In 
addition, NOAA and co-trustee field teams are determining how human 
uses, including cultural uses, and natural resource services are being 
impacted.
    Needless to say, for both the response and the NRDA, offices 
throughout NOAA are mobilized and hundreds of NOAA personnel are 
dedicating themselves to assist with this unprecedented effort.
ACTIVITIES TO IMPROVE FUTURE RESPONSE AND RESOURCE ASSESSMENT EFFORTS
    The Deepwater Horizon oil spill is a grave reminder that spills of 
national significance can occur despite the safeguards and improvements 
that have been put into place since the passage of Oil Pollution Act of 
1990. Although the best option is to prevent oil spills, the risk of 
oil spills remains a concern given the offshore and onshore oil 
infrastructure, pipes, and vessels that move huge volumes of oil 
through our waterways. If a spill does occur, responders must be 
equipped with the appropriate tools and information. An effective 
response, based on solid science and smart decision making reduces 
environmental and socioeconomic impacts, as well as clean-up costs. 
Research and development and technological innovation by the public or 
private sector in the following areas would greatly enhance the tools 
and technologies available in the event of a spill.
Surface Observations
    Real-time data on currents, tides, and winds, as well as sustained 
observations of physical and chemical parameters of the whole water 
column, are important in driving the models that inform our 
understanding of the likely trajectory of the spilled oil. The 
usefulness of NOAA's trajectory model depends in part on the accuracy 
of its input data. Observational data play a critical role in ensuring 
the most accurate trajectory forecast is provided. These forecasts 
ensure that local communities have advance warning of potential impacts 
and, as a result, that plans can be put in place to protect sensitive 
natural resources. Government, academic, and commercial entities are 
working together to provide the data needed to support these 
forecasting efforts. For example, several ocean current models are 
contributing to the trajectory analysis for the Deepwater Horizon oil 
spill, including those from NOAA, the Navy, the Department of the 
Interior's Minerals Management Service, the State of Texas, and 
academic partners. These models use satellite analysis, real-time and 
near real-time ocean observations, and long-term data.
    For modeling the surface movement of oil, ocean observations such 
as the high-frequency radar play a critical role. High-frequency radars 
deliver near real-time surface current data 24/7, covering thousands of 
square miles simultaneously. Surface currents of the ocean are key 
inputs to the models that generate estimates of the extent and 
trajectory of an oil spill. This information is provided from the Gulf 
of Mexico Coastal Ocean Observing System (GCOOS) and the Southeast 
Coastal Ocean Observing Regional Association (SECOORA). These regional 
associations are part of the U.S. Integrated Ocean Observing System 
(IOOS), a federal, regional, and private-sector partnership working to 
enhance our ability to collect, deliver, and use ocean information. 
GCOOS and SECOORA each have three high-frequency radars that are 
contributing valuable information to the spill response. These radars 
are part of a national network high-frequency radar data delivery 
system funded and managed by the NOAA IOOS Program. Because we cannot 
predict where a spill will occur, data delivery from high-frequency 
radars is envisioned to be part of a seamless national system that will 
ensure information 24/7. As the Integrated Ocean Observing System 
generates more data from technological advances like high frequency 
radar, the prediction of oil location can be improved by pulling these 
observations into trajectory models in real time.
    Efforts led by NOAA since 2007 to increase the coordination and 
interaction of various ocean observing centers of expertise into a 
cohesive community under the framework of the U.S. IOOS has built 
strong collaborative relationships across the community. As a result, 
the community has been able to quickly exchange information, identify 
assets and establish means of working together to meet the challenge 
the Nation faces with the Deepwater Horizon oil spill.
    In addition to in-situ sensors, data collected by space-based 
synthetic aperture radar can be used to produce high-resolution images 
of the Earth's lands and oceans and can also be used in all types of 
weather, as it can ``see through'' clouds and darkness. Current use of 
NOAA-generated experimental products suggests that data from space-
based synthetic aperture radar can assist in detecting and refining the 
areal extent of oil, which would provide valuable information to help 
determine where response efforts and resources should be deployed.
Subsurface Observations
    As the Deepwater Horizon oil spill is demonstrating, our Nation's 
existing capacity to deliver an accurate depiction of subsurface 
movement is limited; although, there is some capacity across the 
federal and non-federal oceanography community. Ocean currents, oil 
density and behavior, and oil droplet size are all significant 
contributors to whether oil rises to the ocean surface or remains below 
the surface. The subsurface concentration of dissolved oil or oil 
droplets is of significant concern to understanding how fisheries, 
marine mammals, and other species in the water column will be affected. 
To address these concerns, the federal response team established a 
formal Subsurface Monitoring Branch. In addition, the broad 
oceanographic community has responded in remarkable fashion and made 
available the best of their expertise and technology. In addition, 
federal agencies such as NOAA, U.S. Naval Oceanographic Office, and 
Environmental Protection Agency are all contributing capabilities to 
better inform our understanding of the subsurface movement of oil.
    The emerging advancement in modeling three-dimensionally can 
greatly enhance response operations and mitigation efficacy. This year, 
NOAA started an effort to begin to enhance three-dimensional models, 
which will improve our ability to predict the movement of oil at depth 
and allow us to direct precious resources to validate the models' 
trajectory.
    To detect the presence of subsurface oil and estimate its movement 
beneath the surface, one needs a suite of observing assets combined 
with three-dimensional ocean circulation models. In addition to the 
high-frequency radars to monitor the surface currents, one needs high-
resolution circulation models informed by three-dimensional fields of 
temperature and salinity. While ship surveys have been the conventional 
method for observing three-dimensional fields of temperature, salinity, 
and other properties, such as chlorophyll and nutrients, this method is 
slow and costly. Three-dimensional circulation models require synoptic 
measurements at sufficient time intervals to adequately capture the 
changing conditions in the water column. A combination of profiling 
floats, moored buoys with profiling sensors, and gliders have the 
capability to deliver the information at the temporal and spatial 
parameters needed.
    NOAA is currently involved in several sampling cruises to better 
characterize what is in the water column. A number of gliders, 
autonomous underwater vehicles (AUV), and other existing technologies 
are being applied in new ways, such as through the use of multi-beam 
echo sounders and fisheries echo sounders to help map the potential 
locations of oil that might be present in the water column.
    Current hydrographic surveys carry out sustained observations of 
the whole water column in the Gulf of Mexico, Florida Bay, and the 
Florida Keys, and will be extended if the oil or dispersant spreads 
through the Strait of Florida and into the Gulf Stream. These surveys, 
along with satellite observations and numerical models, allow 
monitoring of currents and features responsible for the transport of 
oil and dispersants.
    Whether provided by new technologies, or through re-examining the 
capabilities of current technologies, information on the locations of 
spilled oil is of significant benefit in spill response, such as the 
Deepwater Horizon oil spill. Timely understanding of the location of 
the spilled oil allows responders to position their activities and 
better utilize limited resources to maximize our contributions to 
protect and restore the resources, communities, and economies affected 
by this tragic event.
Activities to Improve Future Response and Resource Assessment Efforts
        <bullet>  Response capacity and capabilities
                To mitigate environmental effects of future spills, 
                responders must be equipped with sufficient capacity 
                and capabilities to address the challenge. NOAA's 
                Office of Response and Restoration is fully engaged in 
                responding to the Deepwater Horizon oil spill. Although 
                unlikely, if another large spill were to occur 
                simultaneously in another location elsewhere in the 
                United States, NOAA would have difficulty responding to 
                its complete ability.
                <all>  Expertise-- A diverse team of experts in 
                analytical chemistry, environmental chemistry, biology, 
                oceanography, natural resource damage assessment, 
                administrative functions, and information management 
                helps NOAA plan and prepare activities between spills, 
                including training, development of area plans and 
                response protocols, drafting and reviewing response job 
                aids, and coordinating with regional responders.
                <all>  Training-- Response training and exercises are 
                essential to maintaining capabilities. Continuous 
                training, improvement of our capabilities, maintenance 
                of our capacity, and investments in high-priority, 
                response-related research and development efforts help 
                to ensure that the Nation's response to these events 
                remains effective. Training and coordination with other 
                federal, state, and local agencies with response and 
                restoration responsibilities is critical to success in 
                mitigating effects of future spills.
        <bullet>  Response tools and technologies
                The continued development of tools and strategies can 
                only increase the effectiveness of oil spill response. 
                Specific activities that would increase response 
                effectiveness include:
                <all>  Natural Resource Protection Tools - 
                Environmental Sensitivity Index (ESI) database and map 
                products provide information that helps reduce the 
                environmental, economic, and social impacts from oil 
                and hazardous substance spills. ESI maps include 
                critical information on biological resources (such as 
                birds, shellfish beds, and endangered species), 
                sensitive shorelines (such as marshes, tidal flats, and 
                marine sanctuaries), and human-use resources (such as 
                public beaches, parks, and drinking water intakes). 
                Spill responders use NOAA's ESI maps--and maps prepared 
                by other federal and state trustees, including the 
                Department of the Interior (DOI)--as tools to identify 
                priority areas to protect from the spreading oil, 
                develop cleanup strategies to minimize impacts to the 
                environment and coastal communities, and reduce overall 
                cleanup costs. NOAA's goal is to update ESI maps 
                approximately every ten years so that responders have 
                the most accurate information; other agencies update 
                their maps according to their needs and schedules.
                <all>  Data Management Tools for Decision Making - The 
                key to effective emergency response is efficiently 
                integrating current science, information technology, 
                and real-time observational data into response decision 
                making. NOAA has developed the Emergency Response 
                Management Application (ERMA), a web-based information 
                management application, to facilitate preparedness and 
                response and restoration decision making for oil spills 
                and for other coastal hazards. ERMA integrates real-
                time observations (e.g., NOAA National Buoy Data Center 
                data, weather data, shoreline data, vessel traffic 
                information, etc.) with archived data sources (e.g., 
                NOAA's National Oceanographic Data Center's historical 
                data) in an easy to use, Google-based format to aid in 
                evaluating resources at risk, visualizing oil 
                trajectories, and planning rapid tactical response 
                operations, injury assessments, and habitat 
                restoration. Having access to retrospective data is 
                critical to bringing value to real-time observational 
                data being collected. NOAA is working with DOI and 
                state trustees to assure that data management tools can 
                be integrated.
                NOAA is currently using the Gulf of Mexico ERMA for the 
                Deepwater Horizon oil spill response to help manage the 
                common operational picture for all command posts. The 
                Gulf of Mexico ERMA is updated daily to provide a 
                dynamic and automated tool allowing for greater access, 
                more layers of data, and high-resolution photography. 
                ERMA allows users to navigate through different layers 
                of information to reveal actual data and magnify areas 
                of geographic interest - ultimately improving decision 
                making. For example, ERMA could provide a picture of 
                diverse shoreline development (e.g., industry, 
                residential, protected habitats, tourist/recreational 
                use), information on routine shipments of oil and 
                chemicals through the Gulf, and the proximity of 
                wildlife management areas and conservation easements. 
                In addition to the Gulf of Mexico, ERMA is operational 
                in the U.S. Caribbean and New England.
                Recently NOAA has worked with the U.S. Fish and 
                Wildlife Service to integrate their developing 
                Information, Planning, and Conservation decision 
                support system into ERMA. The result is the ability to 
                transfer information allowing users to seamlessly move 
                between the systems to obtain information about Fish 
                and Wildlife Service trust resources and recommended 
                best management practices. This system integration will 
                result in users only having to visit one location to 
                obtain information regarding both agencies' trust 
                resources. The ability to obtain natural resource 
                information in as few places as possible is vital to 
                effective emergency response efforts
 Research
    Strong science is critical to effective decision making to minimize 
the ecological and economic impacts from, and mitigate the effects of, 
oil spills on coastal and marine resources and associated communities. 
Existing research has resulted in the advancement of some response 
technologies. More can be done, however, to strengthen our Nation's 
response capabilities.
                <all>  Long-Term Effects on Species and Habitats--
                Spilled oil can remain on the shoreline and in wetlands 
                and other environments for years. More than twenty 
                years later, there is still oil in the sediments of 
                Prince William Sound from the Exxon Valdez spill. 
                Continued research is needed to improve our 
                understanding of the long-term effects of oil on 
                sensitive and economically important species and 
                habitats. Research is also needed to determine the 
                effects of oil and dispersants that are suspended in 
                the water column on mid-water and pelagic species, as 
                well as on deep-water corals, chemosynthetic 
                communities (animal communities living in the deep sea 
                on dissolved gases), and benthic habitats. Such studies 
                can provide valuable information on the sensitivity 
                and/or resilience of these deepwater communities and 
                can inform response actions and assessment work.
                <all>  Research to Improve Tools for Assessment and 
                Restoration--As our understanding of complex ecosystems 
                evolves, it is important that we continually update and 
                refine our techniques to assess and restore injured 
                natural resources. For example, research and tools to 
                better assess and quantify natural resource services--
                such as water filtration and capture, flood protection, 
                carbon sequestration, recreation, and education--across 
                a range of habitat types, can help ensure that the 
                public is fully compensated and that the environment is 
                fully restored.
                <all>  Research on behavior of surface and subsurface 
                plumes--The transport of chemical and biological 
                substances, and dilution and transformation thereof is 
                key to determining the concentrations that living 
                marine resources will encounter. This, in turn, 
                determines whether environmental impact will be 
                significant or not. Research and development on 
                observing systems and predictive models capable of 
                characterizing plumes will provide much needed 
                capability.
                <all>  Air Quality Impacts--In addition to its marine 
                responsibilities, NOAA is also responsible for 
                predicting the air-quality impacts from oil and 
                hazardous substance spills in cooperation with the 
                Environmental Protection Agency. The characteristics of 
                pollution released from large areas of burning oil and 
                the widespread evaporation of oil are significantly 
                different from routine atmospheric-dispersion 
                scenarios. Research and development of improved tools 
                to estimate the characteristics of compounds entering 
                the atmosphere, and integration of those tools with 
                NOAA's existing atmospheric modeling capabilities, 
                would significantly improve NOAA's ability to predict 
                smoke and chemical concentrations in the atmosphere 
                resulting from such incidents.
                <all>  Oil in Arctic Environments--Continued 
                acceleration of sea-ice decline in the Arctic Ocean as 
                a consequence of global warming may lead to increased 
                Arctic maritime transportation and energy exploration 
                that in turn may increase the potential for oil spills 
                occurring in the Arctic. Recent studies, such as the 
                Arctic Monitoring and Assessment Programme's Oil and 
                Gas Assessment, place emphasis on improving our 
                understanding of how oil will behave in icy 
                environments or when it sinks below the surface. 
                Acquiring a basic understanding of the current 
                environmental conditions is important for conducting 
                injury assessments and developing restoration 
                strategies. Research is needed to better understand the 
                challenges of spill response in Arctic waters and the 
                most effective tools and techniques to utilize in such 
                environments. There is also a need to identify site-
                specific protocols for assessing injuries to the 
                unique, high-value habitats found in the Arctic
                <all>  Human Dimensions--Research is needed on how to 
                incorporate impacted communities into the preparedness 
                and response processes to help address the human 
                dimensions of spills. Such research would consider 
                social issues, community effects, risk communication 
                methods, and valuation of natural resources. 
                Transparency and communications can be improved to 
                share information with impacted communities on how and 
                why decisions are made and the breadth of response and 
                NRDA activities that have been and will be undertaken 
                for the Deepwater Horizon oil spill.
CONCLUSION
    I would like to assure you that NOAA will not relent in our efforts 
to protect the livelihoods of affected Gulf Coast residents and 
mitigate the environmental impacts of this spill. In the wake of such 
an event, we are reminded of the fragility of our coastal ecosystems 
and the dependence of coastal economies on the health and prosperity of 
our seas. Thank you for allowing me to testify on NOAA's response, 
damage assessment efforts, collaboration with other trustees, and areas 
for future research. I am happy to answer any questions you may have.
                                 ______
                                 

Response to questions submitted for the record by David Kennedy, Acting 
 Assistant Administrator, National Ocean Service, National Oceanic and 
                   Atmospheric Administration (NOAA)

Questions from Chairwoman Madeline Z. Bordallo (D-GU)
1.  What is the status of efforts to map the underwater plumes?
    NOAA, federal partners, academics, and others in the research 
community have mobilized to research and quantify the location and 
concentration of subsurface oil from the spill. Since the beginning of 
May, NOAA has been conducting and coordinating sampling of the sub-
surface region around the Deepwater Horizon well-head and beyond to 
characterize the presence of subsurface oil. The sub-surface research 
involves the use of sonar, UV instruments called fluorometers, which 
can detect the presence of oil and other biological compounds, and 
collection of water samples from discrete depths using a series of 
bottles that can be closed around a discrete water sample.
    NOAA ships Gordon Gunter and Thomas Jefferson have both conducted 
missions to collect water samples from areas near the wellhead, as well 
as further from the wellhead and in the coastal zone. Water samples 
from many of these missions are still being analyzed and additional 
missions are in progress or being planned to continue the comprehensive 
effort to define the presence of oil below the surface and understand 
its impacts.
    Water samples taken by researchers on the R/V Weatherbird II have 
also been analyzed for the presence of subsurface oil. The samples from 
the R/V Weatherbird II confirmed low concentrations of surface oil from 
the Deepwater Horizon oil spill 40 nautical miles northeast of the 
wellhead. Additionally, hydrocarbons were found in samples 45 nautical 
miles northeast of the wellhead--at the surface, at 50 meters, and at 
400 meters--however, the concentrations were too low to confirm the 
source.
    In accordance with the National Incident Command (NIC) and 
Environmental Protection Agency (EPA) requirements for the use of 
subsurface dispersants, BP contracted ships, R/V Brooks McCall and the 
Ocean Veritas, have been collecting water samples in the area close to 
the wellhead. NOAA, EPA, and the White House Office of Science and 
Technology Policy (OSTP) released a summary report about the subsea 
monitoring in the vicinity of the Deepwater Horizon wellhead conducted 
from the R/V Brooks McCall from May 8 - 25, 2010. The report confirmed 
the existence of a previously discovered cloud of diffuse oil at depths 
of 3,300 to 4,600 feet near the wellhead. Preliminary findings indicate 
that total petroleum hydrocarbon concentrations at these depths are in 
concentrations of about 1-2 parts per million. Analysis shows this 
cloud is most concentrated near the source of the leak and decreases 
with distance from the wellhead. Beyond six miles from the wellhead, 
concentrations of this cloud drop to levels that are not detectable. 
Decreased droplet size is consistent with chemically dispersed oil. 
Dissolved oxygen levels in the water column are largely what are 
expected compared with historical data.
    The Unified Command has established an inter-agency Joint Analysis 
Group to aggregate and analyze all the relevant data from the many 
subsurface oil missions in order to develop a comprehensive picture of 
the situation. This group is made up of federal scientists from NOAA, 
EPA, and OSTP.
2.  What can NOAA do better to ensure a coordinated, effective, and 
        transparent data collection and research process to better 
        understand and respond to the spill? Are NOAA and other Federal 
        agencies utilizing the data coordination and management 
        framework which was developed as required under the National 
        Integrated Coastal and Ocean Observation System Act?
    We believe transparency is important and NOAA is working to share 
data with the public and scientists. We recognize the public's interest 
in the federal government's response to this crisis, and we are 
committed to providing answers with clarity and transparency. NOAA has 
launched a federal website meant to provide data and information -- 
http://www.geoplatform.gov/gulfresponse/ -- a central online location 
for detailed near real-time information about the response as well as 
data collection associated with the Natural Resource Damage Assessment. 
While access to and transparency of data to inform decision making is 
critical, it is also important that data be provided with appropriate 
quality assurance and context.
    NOAA is providing up-to-date information on its numerous ongoing 
science missions related to this historic spill at the following 
website: http://www.noaa.gov/sciencemissions/bpoilspill.html. In 
addition, NOAA--as a participating member in the Joint Analysis Group 
(JAG), an interagency panel created to coordinate information about 
subsurface sampling related to the Deepwater Horizon oil spill--has 
posted on its website a recently released JAG review of the R/V Brooks 
McCall mission to examine subsurface dispersant use concentrations and 
distribution of oil (http://www.noaa.gov/sciencemissions/PDFs/
JAG_Report_1_BrooksMcCall_
Final_June20.pdf).
    The data management and communications system envisioned in the 
Integrated Coastal and Ocean Observation System (ICOOS) Act of 2009 has 
not been fully implemented. NOAA continues to work to build and sustain 
this system and NOAA has made incremental progress on this front by 
engaging the data management community to develop web services that 
assist with data access and distribution, and continuing to apply this 
data architecture to meet user needs. Through initial efforts aimed at 
demonstrating the value of interoperable data, NOAA has built a solid 
foundation from which to further advance national availability and 
efficient access to ocean and coastal data.
3.  NOAA and the Fish and Wildlife Service are preparing Natural 
        Resource Damage Assessments required under the Oil Pollution 
        Act, in coordination with the States and BP. Neither agency has 
        provided much information on its processes or the information 
        it has gathered to this point. Why does NOAA appear to not be 
        conducting its NRDA process in a transparent manner that 
        incorporates public input and continuously updates the public 
        as new information is gathered? Are the agencies limited under 
        law from revealing information?
    NOAA and co-trustees (Department of the Interior and states of TX, 
LA, MS, AL, and FL) are collecting data across the Gulf of Mexico that 
will be useful to determine what natural resources have been injured 
and what human uses have been lost due to the oil spill. Several 
technical working groups composed of state and federal natural resource 
trustees and representatives from BP are gathering historical 
information and developing and implementing baseline (pre-spill) and 
post-impact field studies for multiple resource categories. Resources 
being assessed include fish and shellfish, bottom dwelling biota, 
birds, marine mammals, turtles, and sensitive habitats such as 
wetlands, submerged aquatic vegetation, beaches, mudflats, deep and 
shallow corals, and the water column, including bottom sediments. NOAA 
and the co-trustees are also collecting and reviewing relevant water 
column, shoreline, wildlife and other data being collected as part of 
the response and by other entities.
    We recognize the public's interest in the federal government's 
response to this crisis, and we are committed to providing answers with 
clarity and transparency. NOAA has launched a federal website meant to 
provide data and information with clarity and transparency --http://
www.geoplatform.gov/gulfresponse/-- a central online location for 
detailed near real-time information about the response as well as data 
collection associated with the Natural Resource Damage Assessment.
    NOAA is also providing up-to-date information on the numerous 
ongoing science missions related to this historic spill at the 
following website: http://www.noaa.gov/sciencemissions/bpoilspill.html. 
For example, NOAA--as a participating member in the Joint Analysis 
Group (JAG), an interagency panel created to coordinate information 
about subsurface sampling related to the Deepwater Horizon oil spill--
has posted on its website a recently released JAG review of the R/V 
Brooks McCall mission to examine subsurface dispersant use 
concentrations and distribution of oil (http://www.noaa.gov/
sciencemissions/PDFs/JAG_Report_1_BrooksMcCall_Final_June20.pdf).
4.  Under the Coastal Zone Management Act of 1972, coastal States are 
        required to have included in their Federally-approved coastal 
        management plans, a planning process for energy facilities in 
        the coastal zone, including a process for anticipating the 
        management of the impacts resulting from such facilities.
a.  Have these planning efforts been adequate to respond to an oil 
        spill of this scale and complexity? How can they be improved?
    The Coastal Zone Management Act (CZMA) energy planning process 
requirement was met by states many years ago and these plans are likely 
not adequate to respond to oil spills. Some states have amended their 
CZMA programs over the years to update energy-related enforceable 
policies, but these too are likely not adequate to respond to major oil 
spills. State agencies do participate in the development of Area 
Contingency Plans (ACP) under the Oil Pollution Act of 1990. State CZMA 
energy plans could be improved by re-evaluating what the plans should 
include and how the plans should apply to and be coordinated with the 
ACP process and other federal and state oil spill response activities.
    In addition, CZMA Sec. 315(e)(3)(c) makes an allowance for state 
National Estuarine Research Reserve System (NERRS) agencies to receive 
Natural Resource Damage Assessment (NRDA) funding without match but 
there is no analogous requirement for the development of response plans 
for either the state coastal management energy planning process or for 
NERRS. Therefore, another improvement would be greater integration of 
NERRS NRDA activities into state coastal management response planning.
b.  Should the Federal government provide additional technical or 
        financial resources to assist coastal States for oil spill 
        planning, logistics, response, and recovery?
    Response planning and coordination is accomplished at the federal 
level through the U.S. National Response Team (NRT), an interagency 
group responsible for three major activities related to managing 
responses: (1) information distribution; (2) emergency planning; and 
(3) emergency training. The NRT also supports the Regional Response 
Teams. There are thirteen Regional Response Teams (RRTs) in the U.S., 
each representing a particular geographic region (including the 
Caribbean and the Pacific Basin). RRTs are composed of representatives 
from field offices of the federal agencies that make up the National 
Response Team, including NOAA, U.S. Coast Guard, and the Environmental 
Protection Agency, as well as state representatives. The Deepwater 
Horizon oil spill has highlighted the longstanding need for more 
comprehensive preparedness strategies, training programs, and oil spill 
research and development. A strong state and federal partnership under 
the RRTs would help to ensure that federal and state agencies are 
exchanging information to plan for emergencies and conducting the 
proper training to prepare for future events.
    It is also important to note that a coastal community's ability to 
prepare for and withstand impacts of an event like the Deepwater 
Horizon oil spill can be critical to the efficacy of long-term 
ecological and socio-economic recovery efforts. NOAA stands ready to 
work directly with the States and fishing communities if and when there 
are Congressional appropriations to address the disasters as determined 
by the Secretary in April.
Questions from Ranking Republican Member Henry Brown, Jr. (R-SC)
1.  Can you provide the Committee with a breakout on how NOAA used 
        appropriated $6.6 million funds for the line item NOAA ocean 
        observation systems?
    The FY 2010 appropriation includes $21 million total for IOOS 
activities. This includes $14.5 million to develop the regional 
component of IOOS (IOOS - Regional Observations) through competitively 
awarded grants and cooperative agreements. The $6.5 million was 
appropriated to guide development of the national network (NOAA IOOS, 
also referred to as U.S. IOOS). U.S. IOOS is a national integrated 
system of ocean, coastal, and Great Lakes observing systems to address 
regional and national needs for ocean information, gather specific data 
on key coastal, ocean, and Great Lakes variables, and to ensure timely 
and sustained dissemination and availability of these data. As a 
collaboration of existing national and regional entities working 
together, IOOS will improve coordination of observation strategies and 
systems, identify gaps in the Nation's ocean observing capacity, and 
facilitate the exchange of information to help decision makers address 
pressing policy issues. As the lead federal agency for implementing 
IOOS, NOAA is developing the national partnership of 17 federal 
partners, 11 Regional Associations and Regional Coastal Ocean Observing 
Systems, and a validation and verification testing capability with a 
shared responsibility for the design, operation, and improvement of 
both the national and regional network of observations linking marine 
data in a compatible and easy-to use manner by the wide variety of U.S. 
IOOS customers.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
        In FY 2010, Congress appropriated funding to be used for:
        <bullet>  $2.85 million for U.S. IOOS Data Management and 
        Communications
        <bullet>  $2.54 million for IOOS Program Operations and 
        Management
        <bullet>  $0.73 million for Regional and External Affairs
        <bullet>  $0.44 million for IOOS Technical Support Contracts
2.  You mentioned at the hearing that there was a budget anomaly with 
        regard to the ocean observation line item. Specifically, that 
        the budget was stable even though the budget document showed a 
        decline. Can you provide further information to clarify your 
        comments?
    To clarify, from a funding perspective, regional observing 
capacities were developed primarily with congressionally directed 
funding until FY 2007. With the omnibus appropriation in FY 2007, NOAA 
initiated a competitive funding process and funded each of the 11 
Regional Integrated Ocean Observing System (IOOS) partners. Beginning 
with the FY 2008 President's Request, funding was requested for 
Regional Observations and for national capacities, like data 
management, that benefit the entire system. The FY 2008 President's 
Request included $11.5 million for Regional Observations and $2.5 
million for data management and national capacities. The FY 2009 
President's Request for these two elements included $14.5 million and 
$6.5 million, respectively, and has remained stable at about these 
amounts, with small increases for adjustments to base. The FY 2011 
President's Request increases support across NOAA's programs for ocean 
observations with an additional $10 million to develop ocean sensor 
technology, $3 million for Arctic Watch, $4.8 million for the Global 
Ocean Observing System, and $20 million in the form of grants to 
support regional ocean partnerships and coastal and marine spatial 
plans. Advancing the collection and integration of coastal data is 
central to developing well-informed and comprehensive coastal and 
marine spatial plans.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

3.  It seems as if a lot of NOAA's efforts early after the spill 
        were to gather base-line data on water quality, seafood 
        quality, and the status natural resources. Why was so much 
        effort necessary to gather this data? Was there no base-line 
        data available for the region?
    NOAA and co-trustees have collected and continue to collect data in 
the Gulf and across the five states. These data will be used to 
determine what natural resources have been injured and what human uses 
have been lost due to the spill. Several technical working groups 
comprising NOAA, federal and state co-trustees, and representatives 
from one responsible party (BP) are gathering existing scientific 
information and developing and implementing baseline (pre-spill impact) 
and post-impact field studies for multiple resource categories. 
Hundreds of miles of coastal shoreline were surveyed by air and samples 
were taken to determine baseline conditions prior to the oil hitting 
land, and to identify where the oil has made landfall to support clean-
up activities. Resources being assessed include fish and shellfish, 
bottom-dwelling plant and animal life, birds, marine mammals, turtles, 
and sensitive habitats such as wetlands, submerged aquatic vegetation 
or seagrasses, beaches, mudflats, bottom sediments, deep and shallow 
corals, chemosynthetic organisms, and the water column. Some of these 
resources may be included within National Estuarine Research Reserves 
and National Marine Sanctuaries. In addition, NOAA and co-trustee field 
teams are determining how human uses, including cultural uses, and 
natural resource services are being impacted.
    NOAA has historical base-line data sets on water quality, 
fisheries, and other resources in the Gulf of Mexico such as fisheries 
assemblages, water quality data and sediment data from long-term 
monitoring sites, and satellite and hydrographic survey data. Another 
baseline data set is collaborative research between NOAA and the 
Department of the Interior (DOI), collected over the past several years 
and focused on locating and characterizing deep water communities along 
the West Florida Shelf and the northern Gulf of Mexico shelf break. 
This information is being used to understand how these habitats are 
being affected by the Deepwater Horizon spill. Given the spatial extent 
of this spill and the biological diversity of the Gulf of Mexico, NOAA 
is working closely with other federal agencies and academic partners to 
gather existing historical base-line information and pre- and post-
spill data for the Natural Resource Damage Assessment.
4.  Is there any base-line data available on the Gulf's deepwater 
        ecology to understand the impact, if any, of the subsurface 
        dispersants used for the Deepwater Horizon spill?
    Prior to the spill, NOAA, in collaboration with the Department of 
the Interior (DOI), had an on-going study that began in 2008 at deep 
Lophelia coral sites (approximately 300-500m deep and 30 miles north of 
the spill site) in the Gulf. This study, entitled Lophelia II, produced 
invaluable baseline data, ranging from photos and videos of the coral 
ecosystem to sediment samples and water quality properties.
    Elsewhere in the Gulf, studies from selected mesophotic coral 
ecosystems, low light environment around 100 meters deep, and deep 
chemosynthetic ecosystems, including tube worms and mussels that grow 
on methane seeps, have been conducted within the last decade. Overall, 
the geographic coverage of baseline studies is patchy.
    With the available baseline data, NOAA and other agencies, 
including DOI, developed a natural resource damage assessment work plan 
to visit selected sites using a NOAA research vessel equipped with a 
remotely operated vehicle to determine the current coral conditions and 
compare with pre-spill data.
5.  How many grants has NOAA awarded to monitor the impact of the oil 
        spill on Louisiana's coastal marshes? What is the cost of those 
        grants and who are the recipients of this Sea Grant money?
    NOAA Sea Grant awarded a total of $100,000 to Louisiana Sea Grant 
to be invested in rapid response research projects. Louisiana Sea Grant 
set aside $50,000 from the 2010-2012 Omnibus Grant (Program Development 
funds), and that amount was supplemented with an additional $50,000 
from an incident special rapid response grant made available by NOAA 
Sea Grant to each of the four Gulf Coast Sea Grant Programs (TX, LA, 
MS-AL, and FL).
    The funds are supporting ten research projects in Louisiana, as 
follows:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

6.  What type of outside help has the agency asked for to respond 
        to the oil spill? Has the agency released any funding for 
        scientists to get involved with answering questions regarding 
        the impact of the oil on the Gulf of Mexico environment?
    The lives of Gulf of Mexico coastal residents have been disrupted 
and many have lost jobs and income. Additional adverse effects are 
likely to include the threat of widespread damage to the ecosystem and 
the fisheries. The Gulf Coast Sea Grant Programs, with the full support 
of the remaining 28 members of the Sea Grant Network, are working to 
serve their communities and constituents. Given NOAA Sea Grant's place-
based infrastructure and long-term relationships with coastal 
stakeholders, NOAA is working with a broad array of stakeholders 
including fishermen and the seafood industry. All four Gulf programs 
are currently working with affected residents to help them deal with 
loss of jobs, income, and the uncertainty about what lies ahead.
    NOAA Sea Grant has released an additional $200,000 to the four Gulf 
Coast Sea Grant programs to support time-sensitive, state-specific or 
regional research, extension and communications projects. Louisiana Sea 
Grant used its $50,000 for rapid response scientific research (see 
reply to Question 5 above), while Florida Sea Grant immediately 
invested $34,000 of its $50,000 to conduct similar pre-impact studies. 
The $16,000 Florida balance will be used to fund additional research 
and/or extension and communication efforts related to the Deepwater 
Horizon oil spill. The Texas and Mississippi-Alabama Sea Grant programs 
have used $50,000 each for outreach and education projects ranging from 
public community forums to seafood sensory training programs.
    NOAA, federal partners, academics, and others in the research 
community have mobilized to research and quantify the location and 
concentration of subsurface oil from the spill. NOAA ships Gordon 
Gunter, Thomas Jefferson, Nancy Foster, Delaware II, and Pisces have 
conducted and continue to conduct missions to collect water samples 
from areas near the wellhead, as well as further from the wellhead and 
in the coastal zone. Water samples from many of these missions are 
still being analyzed and additional missions are in progress or being 
planned to continue the comprehensive effort to define the presence of 
oil below the surface and understand its impacts.
    In addition, NOAA continues to work with the Department of the 
Interior to prepare for an expedition in the Gulf to locate, map, and 
investigate deep water habitats. NOAA also worked with partners from 
our Cooperative Institute for Ocean Exploration, Research, and 
Technology (which includes the Harbor Branch Oceanographic Institute, 
Florida Atlantic University, and the University of North Carolina 
Wilmington) to secure the services of the R/V Seward Johnson and 
Johnson Sea-Link submersible to conduct habitat investigations. NOAA 
has worked with the Cooperative Institute for Ocean Exploration, 
Research, and Technology and partners at the National Institute for 
Undersea Science and Technology to redirect previously funded projects 
to focus on spill-related issues.
7.  Has NOAA used any of its contractors to collect air quality or 
        hydrographic survey data? If not, why?
    Yes. NOAA used some contractors to aid its work in collecting air 
quality survey data. Two examples are:
        <bullet>  Contract staff participated in NOAA's efforts in 
        modeling local and regional air quality impacts from the spill 
        to determine impacts of evaporative and pyrogenic emissions on 
        regional air quality and to assess the spill's impact on 
        regional levels of atmospheric mercury.
        <bullet>  In early June, NOAA diverted its WP-3D flying 
        laboratory from California to the Gulf of Mexico. Several 
        contract staff participated in this study. This research 
        aircraft flew two missions over the Gulf in close proximity and 
        downwind from the spill site on June 8 and 10 to characterize 
        the air quality in the region. The data collected, and NOAA's 
        interpretations, are being shared with the Environmental 
        Protection Agency (EPA) and the Occupational Safety and Health 
        Administration (OSHA) who have responsibility for assessing 
        impacts from the oil spill on the workers in the Gulf and the 
        public ashore.
    NOAA is working with Professor Donald Blake from the University of 
California-Irvine to collect additional air samples on the surface near 
the spill site to help characterize the impacts on air quality. These 
samples are being collected on the NOAA ship R/V Thomas Jefferson, 
which is operating near the spill site. The samples will be analyzed, 
with National Science Foundation funding, for atmospheric hydrocarbon 
concentrations at Professor Blake's laboratory in California. NOAA will 
work with EPA and OSHA on the interpretation of these data as they are 
received.
    NOAA has not conducted any hydrographic surveys as part of the 
Deepwater Horizon oil spill response efforts. The Navy did conduct a 
side scan sonar survey to ensure a new anchorage at the Mississippi 
River entrance was safe for maritime traffic. As part of the Navy 
survey, NOAA contracted with C&C Technologies to provide magnetometer 
equipment and operators for the survey.
8.  You mention that regional Gulf of Mexico and Southeast Coastal 
        ocean observing systems each have 3 high-frequency radars that 
        are providing valuable information on the spill. What specific 
        information are they providing?
    High frequency (HF) radars provide surface current velocity data 
over hundreds of square kilometers on an hourly basis and with spatial 
resolutions that vary from about 1 to 6 km. These data are extremely 
valuable because oil at the surface is moved by the ocean surface 
currents and winds. HF radar is the only instrument that can provide 
these large-scale maps of currents with this level of temporal and 
spatial resolution. Some satellite-borne altimeters can provide ocean 
currents but those measurements only capture a portion of the ocean 
current (the geostrophic component), not the complete surface current 
and only at much coarser spatial (large gaps between overflights) and 
temporal resolutions (days apart). During the Deepwater Horizon oil 
spill, the HF radar data has been successfully used continuously by 
NOAA's Office of Response and Restoration in their models that predict 
the flow of the surface oil.
9.  Are the regional ocean observation systems providing all of the 
        necessary data to respond to the spill or has the agency 
        determined that there is data not currently collected that 
        should be included in the regional collection systems?
    Within the region covered by the Gulf of Mexico regional ocean 
observing system, there are no high frequency (HF) radars located west 
of the Mississippi Delta. Hence, no surface current velocity data maps 
can be made available for oil spill trajectory forecasts for most of 
the coast of Louisiana and none of the Texas coast. Those regions have 
to rely on forecasts based on data from buoys. For several years in the 
past, HF radars had been successfully deployed and operated along the 
Texas coast by Texas A&M University as an oil spill research activity 
sponsored by the State of Texas General Land Office (TGLO), but were 
removed at Texas A&M's discretion when TGLO discontinued funding 
support for those activities. The Gulf of Mexico Coastal Ocean 
Observing System has been focusing its limited resources on data 
management services in order to provide access to existing data sources 
in the Gulf of Mexico and improving data integration and access 
capabilities consistent with national Integrated Ocean Observing System 
(IOOS) data management priorities.
    In the Southeast regional ocean observing system, there are 
significant gaps in HF radar coverage as well, especially along the 
east coast of Florida and along most of the South Carolina and North 
Carolina coasts. Historically, funding for HF radar systems has been a 
leveraged capacity, where the initial acquisition and deployment was 
funded by states or academic research grants. With the Regional IOOS 
funds, most regions have prioritized maintenance of existing HF radar 
capacity rather than expanding the network beyond sustainable levels by 
acquiring new radars to fill gaps.
    Underwater gliders using onboard instrumentation to assist with 
detecting the presence of oil below the sea surface have been deployed 
by several organizations during the Deepwater Horizon oil spill. These 
gliders cover large areas providing three-dimensional surveys of the 
ocean water column. While they are not a complete substitute for 
shipboard measurements, the gliders contribute valuable, low-cost 
datasets of temperature, salinity, and currents that are used to 
develop a more complete picture of the subsurface spill effects. Most 
of the gliders being used to assess the Deepwater Horizon oil spill are 
not owned by the regional observing systems in the spill region but, 
instead, were loaned by partners within other regional observing 
systems (Mid-Atlantic region, Northwest region, Southern California 
region) and the U.S. Navy. Only four of the ten gliders deployed are 
owned by Gulf of Mexico and Southeast regional partners.
    The Unified Command has employed a variety of observing assets such 
as remotely sensed imagery, airborne imagery, existing buoy and gauges, 
ships, and autonomous vehicles. Many of these assets were brought in 
from outside the Gulf of Mexico and do not permanently exist within the 
region. Because we cannot predict where a spill will occur, data 
delivery from high frequency radars is envisioned to be part of a 
seamless national system that will ensure information 24/7. As the 
Integrated Ocean Observing System generates more data from 
technological advances like HF radar, the prediction of oil location 
can be improved by pulling these observations into trajectory models in 
real time.
10.  Has NOAA organized any volunteer beach clean-ups of tar balls? 
        What type of protective clothing are you providing to 
        volunteers?
    Beach cleanups of tar balls are being coordinated by the Unified 
Command and by trained workers. NOAA is not coordinating cleanups of 
oiled coastline. However, the Weeks Bay National Estuarine Research 
Reserve in Alabama did organize several pre-oil impact beach cleanups 
to remove marine debris prior to fouling in an effort to ease cleanup 
post-impact.
11.  On Page 3, you note that: ``If a spill does occur, responders must 
        be equipped with the appropriate tools and information''. It is 
        now Day 57 since the explosion of the Deepwater Horizon; can 
        anyone legitimately say that responders were adequately 
        prepared prior to the spill? Why were they so ill-prepared?
    The data management and communications system envisioned in the 
Integrated Coastal and Ocean Observation System (ICOOS) Act of 2009 has 
not been fully implemented. NOAA continues to work to build and sustain 
this system and NOAA has made incremental progress on this front by 
engaging the data management community to develop web services that 
assist with data access and distribution, and continuing to apply this 
data architecture to meet user needs.
    A spill of the scale of the Deepwater Horizon oil spill comes with 
high environmental and financial consequences. Continued use of 
science, through a robust research and development program, can improve 
the effectiveness of spill response efforts, habitat restoration, and 
mitigate of effects.
    It is important to ensure that robust research and development 
efforts continue between spills so additional tools and greater 
understanding can be developed before the next spill. Applying the 
latest science and continuing research and development can improve our 
response decisions, thereby reducing the severity of oil spill injuries 
to our Nation's economy and environment.
12.  What has been NOAA's position on Governor Bobby Jindal's proposal 
        to build temporary berms to protect wetlands? Do you support or 
        oppose efforts to increase the number of approved berms?
    NOAA works closely with the state of Louisiana and the federal 
agencies responsible for reviewing and approving proposals to minimize 
the effects of oil on natural resources. As part of that process, the 
state and federal resource agencies provided suggestions and 
recommendations on the merits of the proposed measures. Unlike the 
barrier island berm projects approved for six segments in eastern and 
southern Louisiana, the proposal to build three berms in western 
Louisiana was determined to be very likely to create more problems than 
would be solved. Because of higher tidal energy, it is unlikely the 
berms proposed for construction in the Isles Dernieres would provide 
significant protection for wetlands from oiling; at the same time, 
adverse effects to the ecosystem would likely result from the moving 
and placement of sand on those three islands. Other unintended 
consequences of the project would likely have led to increased erosion 
of existing barrier islands and induced breaching of barrier islands in 
places where they are especially vulnerable to currents and over-wash. 
NOAA has long been supportive of the restoration of Louisiana's coastal 
ecosystem, particularly barrier islands, and believes that barrier 
islands are a critical component of a long-term restoration strategy.
13.  Why is our nation's existing capacity to deliver an accurate 
        depiction of subsurface movement limited? Is it a lack of 
        resources or expertise?
    From its inception, NOAA has been largely tasked with providing 
detailed information about weather, fisheries, and oceanography. The 
subsurface plume most notably associated with the Deepwater Horizon oil 
spill is at greater than 1000m, well below the depths that are of 
significant interest for weather prediction, hurricane forecasts, and 
fisheries research. However, NOAA has emphasized the need for complete 
three-dimensional data collection to improve subsurface oil modeling 
and to increase deep ocean observations.
    As the Deepwater Horizon oil spill is demonstrating, there is a 
need to enhance three-dimensional models to better understand how oil 
behaves and disperses within the water column when released at deep 
depths. This is an emerging advancement in modeling that can greatly 
enhance response operations and mitigation efficacy. The FY 2010 
President's Budget included $1.4 million for NOAA's Office of Response 
and Restoration to develop tools and techniques related to response and 
natural resource damage assessment with a strong focus on building and 
maintaining state-of-the-art three-dimensional models to predict 
contaminant movement in the environment. As this is the first year 
funding has been provided for these specific activities, implementation 
is currently underway.
14.  What lessons did NOAA learn from the Ixtoc I deepwater oil spill 
        in 1979 and the explosion of the Mega Borg off the coast of 
        Galveston, Texas in 1990?
    The Ixtoc I and the Mega Borg were both large oil spills in the 
Gulf of Mexico. The Ixtoc was a wellhead blowout that resulted in the 
release of 145 million gallons of oil. The Mega Borg was a release of 
approximately 5 million gallons from a vessel.
    Partly in response to these events, NOAA established a dedicated 
office to focus on such environmental disasters. As a component of 
NOAA, the Office of Response and Restoration can draw upon a 
significant range of expertise today, compared to 20 and 40 years ago. 
The current response to the Deepwater Horizon oil spill has drawn 
expertise from all NOAA line offices and the agency is fully mobilized. 
The response to Ixtoc I was limited and took months compared to a full 
mobilization of NOAA resources within a matter of weeks.
15.  How much research has NOAA conducted on the use of dispersants on 
        spilled oil in subsurface conditions? Has NOAA funded any 
        University research on the use of dispersants?
    Research on the effectiveness and effects of dispersants and 
dispersed oil have been underway for more than three decades but 
important gaps still exist. Much of what we have learned from both 
research and real world experience is presented in detail in the 2005 
National Research Council (NRC) book Oil Spill Dispersants: Efficacy 
and Effects. The NRC identified gaps in our knowledge. These gaps were 
narrowed by research and development activities carried out through 
projects conducted by the Coastal Response Research Center (CRRC) at 
the University of New Hampshire, state and federal agencies, and other 
academic institutions. NOAA provided funds for the CRRC, a successful 
joint partnership established in FY 2004 between the University of New 
Hampshire and NOAA's Office of Response and Restoration, from FY 2004-
FY 2007. NOAA and CRRC examined the toxicity and long-term effects of 
dispersants and dispersed oil on sensitive marine life.
16.  Has NOAA voiced any objections or concerns with regard to the fact 
        that we know virtually nothing about the short-term or long-
        term impacts of dispersants on your trust resources?
    When an oil spill occurs, there are no good outcomes. Once oil has 
spilled, responders use a variety of oil spill countermeasures to 
reduce the adverse effects of spilled oil on the environment. The goal 
of the Unified Command is to minimize the environmental damage and 
speed recovery of injured resources. The overall response strategy to 
accomplish this goal is to maximize recovery and removal of the oil 
being released while minimizing any additional damage that might be 
caused by the response itself. This philosophy involves making 
difficult decisions, often seeking the best way forward among imperfect 
options.
    The use of dispersants is an environmental trade-off between 
impacts within the water column, on the sea surface (birds, mammals, 
and turtles in slicks), and on the shore. For the Deepwater Horizon oil 
spill, the Unified Command's response posture has been to fight the 
spill offshore and reduce the amount of oil that comes ashore, using a 
variety of countermeasures including subsurface recovery, booming, 
skimming, burning, and dispersants. Dispersants have reduced the amount 
of oil impacting the shorelines.
    Dispersants are applied directly to the spilled oil in order to 
remove it from the water surface by dispersing it into the upper layer 
of the water column. Once applied at the surface, dispersants help 
break up the oil into tiny droplets (20-100 microns across; a micron is 
the size of the cross section of a hair) which mix into the upper layer 
of the ocean. Dispersed oil does not sink; rather it forms a ``plume'' 
or ``cloud'' of oil droplets just below the water surface. The 
dispersed oil mixes vertically and horizontally into the water column 
and is diluted. Bacteria and other microscopic organisms then act to 
degrade the oil within the droplets more quickly than if the oil had 
not been chemically dispersed. Smaller oil droplets have larger 
relative surface area, which allows for higher than normal rates of 
biodegradation or dissolution of the oil droplet. It should be noted 
that oil spilled from the Deepwater Horizon oil spill is also naturally 
dispersing into the water column due to the physical agitation of the 
wind, waves, and vessel operations.
17.  Which agency is responsible for making the call that Corexit 9500 
        and not a more benign dispersant would be extensively used in 
        the Gulf?
    The United States Coast Guard, as the Federal On-Scene Coordinator 
in the Gulf spill response, in consultation with EPA, DOI, NOAA, and 
the State of Louisiana, authorized BP to apply dispersants on the water 
surface to mitigate the shoreline impacts on fisheries, nurseries, 
wetlands and other sensitive environments. Under the National 
Contingency Plan (NCP), the Environmental Protection Agency (EPA) is 
responsible for maintaining the NCP Product Schedule, the approved the 
list of dispersants and other chemicals and products that can be used 
in an oil spill response; Corexit 9500 was on the list of approved 
dispersants prior to the Deepwater Horizon oil spill.
18.  Do you agree with the statement of Ms. Lee that NOAA has ``Never 
        collected a systematic and thorough compendium of known toxic 
        effects for the various species? Why is this the case?
    NOAA's responsibilities in the coastal and ocean environment are 
articulated through a number of laws. NOAA does not have a specific 
mandate to collect ``a systematic and thorough compendium of known 
toxic effects for various species.''
    However, NOAA has directly conducted or sponsored numerous 
systematic, long-term monitoring studies thoroughly analyzing the toxic 
effects of contaminants, such as spilled petroleum, on endemic coastal 
and marine species in the Gulf of Mexico. For example, since 1986, the 
NOAA Mussel Watch program has managed the longest running estuarine and 
coastal pollutant monitoring effort conducted in the United States, 
including more than 100 sites from Texas to South Florida. At each 
site, more than 140 chemical contaminants, chosen through consultation 
with experts and scientists from academia and government, are measured 
and have served as a baseline for hundreds of scientific journal 
articles and technical reports since the program's inception. In 
response to the Deepwater Horizon oil spill, three teams of NOAA 
scientists and partners were mobilized to the Gulf to collect oyster, 
sediment, and water samples in advance of oiling in coastal Louisiana, 
Mississippi, Alabama, and Florida; thus, providing valuable pre-spill 
contaminant data and continuing the unbroken quarter-century record of 
the status and trends of chemical contaminants in the Gulf of Mexico.
    Given the spatial extent of this spill and the biological diversity 
of the Gulf of Mexico, NOAA is working closely with other federal 
agencies and academic partners to gather existing historical base-line 
information and pre- and post-spill data for the Natural Resource 
Damage Assessment.
                                 ______
                                 
    Ms. Bordallo. Thank you, Mr. Kennedy, for your insight on 
NOAA's response capacity and capabilities. Dr. McNutt, please 
proceed with your testimony.

         STATEMENT OF MARCIA McNUTT, PH.D., DIRECTOR, 
                     U.S. GEOLOGICAL SURVEY

    Dr. McNutt. Good morning, Chairwoman Bordallo and members 
of the Subcommittee. I am Marcia McNutt, Director of the U.S. 
Geological Survey and Science Advisor to the Secretary of the 
Interior. Today, I am joined by Jeff Underwood, who is sitting 
directly behind me, Acting Director of the U.S. Fish and 
Wildlife Service.
    Before I begin, I would also like to extend my sympathies 
to the families of those who lost their lives in the explosion 
and the sinking of the Deepwater Horizon, to those who are 
injured, and to those whose way of life has been changed for 
years to come, as my life has also changed since this tragedy 
began to unfold, as I have been consumed 17 hours a day, 7 days 
a week in my work schedule, focused on this tragedy.
    I want to thank you for the opportunity to discuss the 
importance of data and analysis about the complex estuarine, 
coastal, and marine environments of the Gulf. Accurate 
scientific information is essential for effectively targeting 
response activities and for assessing damage to the natural 
resources in the aftermath of this oil spill. The greatest 
challenge in characterizing the fate and transport of 
contamination resulting from the flow of oil and gas from the 
Deepwater Horizon site lies in a combination of factors: the 
volume of the oil; the expanse of air, sea, and land into which 
it flows; and the biodiversity of the ecosystems that it is 
impacting.
    The first step is to document the amount of oil and create 
an improved mass balance of the various natural and 
anthropogenic sinks in the deep sea and at the ocean surface as 
a function of time since the spill began. Next, we must 
understand the physical processes that control the movement of 
contaminants from the open ocean into the coastal zone. Oil and 
oil dispersant mixtures will be a source of contamination to 
coastlines and the seafloor for a long time, and will be 
transported long distances by surface and subsurface currents.
    A complete understanding of the preexisting condition of 
the water, sediment, and biota is vital to any scientific 
investigation of the effects of an oil spill on the 
environment. The USGS science centers in the Gulf region have 
coordinated efforts to sample material from coastal wetlands, 
DOI lands onshore, and the barrier islands most likely to be 
impacted. The long-term impact of the Deepwater Horizon oil 
spill on the northern Gulf and other coastal systems will 
depend on how the oil and oil degradation products are 
incorporated and cycled among the various components of the 
coastal system.
    A wide range of data and analyses will be needed over the 
coming months and years, including chemical signatures of oil 
and dispersant; estimates of volume of oil released; visual and 
meteorological records of surface conditions and the surface 
slick; landfall data, including dates, locations, estimated 
volumes, and characteristics of the oil and tar.
    The department's natural resource damage assessment and 
restoration program allows DOI agencies with trust 
responsibilities to document injury to natural resources as a 
result of oil spills or hazardous substances releases, assess 
damages, and restore those injured resources. Currently, USGS 
scientists are providing scientific support to DOI and NOAA 
programs on more than a dozen technical workgroups, 
investigating topics that range from aerial imagery to 
deepwater corals to data management to terrestrial and aquatic 
species.
    While current USGS efforts are focused on response to the 
oil spill, USGS managers and scientists are also planning for 
future research needs associated with the spill. The team, 
which includes personnel from Fish and Wildlife Service, the 
National Parks Service, and MMS, is developing a long-term 
science plan designed to address the research needs as we move 
from an immediate response to a more mature response phase of 
this event and into recovery.
    Lessons learned from the Exxon Valdez oil spill suggest 
that a long-term--on the order of decades--multi-level 
ecosystem perspective will be essential. Therefore, we 
recommend that studies include investigations at the landscape 
level, as well as those that are localized and include process-
based research. Impacts of the oil spill to communities and 
ecosystems will be far-reaching and long-term throughout the 
Gulf of Mexico, where many coastal communities depend on 
ecosystem services for their livelihood, quality of life, and 
protection from natural hazards.
    Information on these impacts on economic activities, 
demographics, ecosystem services, as well as options for 
adaptation, resilience planning, are needed to help communities 
try to regain pre-spill productivity and social well-being.
    In conclusion, the impacts of disasters such as this must 
be considered in the time frame not of weeks and months, but of 
years to decades. Oil can remain toxic in the environment over 
the long-term, and its chronic harmful effects will impact the 
interconnected systems and communities of living things, 
including people, throughout the Gulf region. The USGS will 
continue to work closely with other Department of the Interior 
and other Federal and state agencies, as well as the private 
sector, in response to this spill.
    Thank you for the opportunity to testify today, and I am 
pleased to answer questions.
    [The prepared statement of Dr. McNutt follows:]

               Statement of Marcia K. McNutt, Director, 
        U.S. Geological Survey, U.S. Department of the Interior

    Good morning, Chairwoman Bordallo and Members of the Subcommittee. 
I am Marcia McNutt, Director of the U.S. Geological Survey and Science 
Advisor to the Secretary of the Interior. The Department of the 
Interior and its bureaus have responsibility for a spectrum of natural 
resources in the Gulf that may be impacted by the oil spill, including 
35 National Wildlife Refuges and 10 National Park units, migratory 
birds, and threatened and endangered species, such as manatees, and sea 
turtles.
    Before I begin, I would like to extend my sympathies to the 
families of those who lost their lives in the explosion and sinking of 
the Deepwater Horizon, to those who were injured, and to those whose 
way of life has been changed for years to come.
    The impacts of a disaster such as this must be considered in the 
time frame of not weeks and months, but of years to decades. Oil can 
remain toxic in the environment over long periods, and it has chronic 
harmful effects that will impact the interconnected systems and 
communities of living things--including people--throughout the Gulf 
region for many years.
    The USGS is home to a breadth of multidisciplinary science 
expertise, an extensive, national, on-the-ground presence, and a wealth 
of biologic, geologic, geographic, and hydrologic monitoring 
capabilities and existing data, in scales ranging from microscopic to 
global. Long-term monitoring capabilities have positioned the USGS to 
understand changes in the environment - from water quality to ecosystem 
structure and function to land cover. This broad capacity, combined 
with a presence in all 50 States and Puerto Rico, enables the USGS to 
bring science immediately to bear not only on natural hazards such as 
earthquakes, floods, and volcanoes but also on environmental hazards. 
For more than a century, the USGS has been on point in response to 
natural disasters; this experience and expertise have uniquely prepared 
the USGS for dealing efficiently and effectively with the challenge 
that lies before us today and the challenges that will face our Nation 
in the weeks, years, and decades to come.
    Thank you for the opportunity to discuss the importance of data and 
analysis about the complex estuarine, coastal, and marine environments 
of the Gulf. This kind of scientific information is essential for 
effectively targeting response activities, such as determining the 
volume of the spill as well as providing information useful for 
mapping. The USGS will work closely with other DOI agencies, such as 
the U.S. Fish and Wildlife Service (FWS) and the National Park Service 
(NPS), as well as National Oceanic and Atmospheric Administration 
(NOAA), the states, and affected tribes to provide scientific 
information necessary to conduct damage assessment and restoration 
activities.
EXISTING DATA GAPS
    The greatest challenge in characterizing the fate and transport of 
contamination resulting from the flow of oil and gas from the Deepwater 
Horizon drilling site lies in a combination of factors: the volume of 
oil, the expanse of sea, air and land into which it flows, and the 
biodiversity of the ecosystems that it is impacting.
    The first step is to document and understand the physical processes 
that control the movement of contaminants from the open ocean into the 
coastal zone. Both surface and submerged oil and oil-dispersant 
mixtures will be a source of contamination to coastlines and the sea 
floor for a prolonged period of time and may be transported long 
distances by surface and subsurface currents. The goals of dispersing 
oil are to make oil more readily processed by organisms that can break 
it down and to enhance dilution to reduce the toxicity of oil. In order 
to understand the long-term extent and impact, predictions are needed 
to determine where and when new coastal and sea exposures are expected. 
Remobilization of stranded oil or surfacing of submerged oil may occur 
during hurricanes; forecast models of storm impacts and oil transport 
will be needed to identify the worst case scenarios and help prioritize 
cleanup and protection efforts.
    The coastal zone is a dynamic system at the land/sea interface. The 
individual components of the system - including the continental shelf, 
deep and shallow coral reefs, barrier islands, beaches, bays, 
estuaries, and marshes - are interconnected and influence each other. 
The barrier islands of Louisiana, Mississippi and Alabama are an 
especially dynamic component of the coastal zone in the northern Gulf 
of Mexico and are critical to the health and function of the entire 
system. The barrier islands provide a defense against waves, currents, 
and storm surge for estuaries and wetlands. They also contain important 
habitat types, such as beach, dune, barrier flats, back-barrier saline 
marsh, and intertidal flats that are used by a variety of plants and 
animals including migratory birds. The physical presence of the barrier 
islands and locations of inlets influence salinity of waters behind 
them and, in combination with associated wetlands, help maintain water 
quality. The components of the coastal system are constantly changing 
due to the movement of sediment (deposition and erosion) driven by 
action of winds, currents, waves, and storms. Comparative shoreline 
studies by the USGS and others of the Louisiana coast over the past 
century show high rates of retreat, land loss and movement of barrier 
islands at widely different rates, resulting in 13 feet or more of 
shoreline retreat per year. In the past decade, a number of devastating 
hurricanes have severely damaged the barrier islands of the northern 
Gulf, further reducing their effectiveness in mitigating the impacts of 
storm surge, waves, and, now, oil spills to the mainland.
    The long-term impact of the Deepwater Horizon oil spill on the 
northern Gulf and other coastal systems will depend on how the oil and 
oil degradation products are incorporated and cycled among the various 
components of the coastal system. A wide range of data and analyses 
will be needed in the short-term as well as the coming months and years 
to fully understand the extent and trajectory of the oil from the 
spill:
        <bullet>  Detailed characterization of the extent, 
        concentrations, and chemical signatures of source oil and 
        dispersant;
        <bullet>  Information on migratory birds and other fish and 
        wildlife that might enter an oiled area; this information may 
        be used to help deter species away from oiled areas as well as 
        to prioritize clean up actions;
        <bullet>  Detailed organic component analysis of samples taken 
        across a range of locations and time frames, to develop 
        compound-specific information about dispersal, dissolution into 
        water-soluble forms, settlement onto sediments or surface 
        soils, and eventual degradation by microbes;
        <bullet>  Data for describing attenuation and biodegradation/
        mineralization/photo-oxidation of the oil over time and space;
        <bullet>  Better accounting for the oil in space and time in 
        the subsurface;
        <bullet>  Visual and meteorological records of surface 
        conditions and the surface slick; and
        <bullet>  Landfall data--dates, locations, estimated volumes/
        mass, and characteristics of the oil and tar.
    Using a variety of techniques, a group of federal scientists, 
independent experts, and representatives from universities around the 
country are participating in the Flow Rate Technical Group (Group) to 
estimate the volume of oil resulting from the Deepwater Horizon oil 
spill. We are continuing to analyze data and refine the estimates 
including an evaluation of the flow rate after the riser was cut.
    The USGS and other Federal agencies are providing support to the 
NOAA, which has the primary responsibility for mapping the extent and 
trajectories of oceanic oil plumes. For example, NOAA and MMS are 
working together to drop sensors to map the extent of oil plumes. The 
USGS is collecting baseline data along the coastline, developing maps 
that show NOAA projections of spill trajectory with respect to DOI 
lands, and developing models that depict how local tidal and current 
conditions will interact with seafloor bathymetry to carry oil over 
barrier islands. We have worked with the National Aeronautics and Space 
Administration (NASA) to provide a combination of satellite and 
airborne imagery to assist NOAA in forecasting the trajectory of the 
oil and to document oil impacts on the coastal and nearshore ecosystem 
and are collecting satellite imagery to assess the impact on coastal 
wetlands.
PRE- AND POST-IMPACT SPILL DATA
    Important to any scientific investigation of the effects of an oil 
spill on the environment is a complete understanding of the pre-
existing condition, or baseline condition, of the water, sediment, and 
biota prior to landfall of the spill. For the most part, the data 
needed after the spill will be the same as the baseline data collected 
pre-spill, so that changes related to oil spill or oil spill mitigation 
efforts can be quantified and characterized by how these relate to the 
baseline condition.
    USGS Science Centers in Texas, Louisiana, Mississippi, Alabama, and 
Florida have coordinated efforts to sample water and bottom material 
from coastal wetlands, DOI lands onshore, and the barrier islands most 
likely to be impacted now that the oil has come ashore. The USGS has 
documented current conditions at these sites and the existence of any 
historic oil present, including ``fingerprints'' of existing oil, 
polycyclic aromatic hydrocarbons (PAHs), oil and grease, trace metals, 
volatile organic compounds, surfactants, dissolved organic carbon (DOC) 
characterization, bacterial populations capable of digesting oils, 
nutrients, and bottom-dwelling invertebrates. Scientists are monitoring 
radio-tagged manatees for deviations from normal behavior in priority 
areas on the Gulf Coast of Florida. Aerial surveys of mangroves and 
wetlands along the Gulf coast of Florida are being conducted to 
differentiate between damage from the January 2010 freeze and any 
potential impact from the oil spill. Aerial surveys and sub-bottom 
profiling of sea grass beds along the Louisiana coast to document 
current pre-spill conditions were completed during May 2010.
    Trust species are a major focus of DOI management agencies and 
include threatened and endangered species, as well as migratory birds 
such as waterfowl, wading birds, shorebirds, and neotropical songbirds. 
The Department's Natural Resource Damage Assessment and Restoration 
(NRDAR) Program allows DOI agencies, such as the FWS and NPS, with 
trust responsibilities to document injury to natural resources as a 
result of oil spills or hazardous substances releases, assess damages, 
and restore those injured resources. The USGS provides information and 
science support to FWS, NPS and other federal agencies to assist them 
in all phases of the NRDAR process. Currently, USGS scientists are 
providing scientific support to the DOI NRDAR Program and NOAA Damage 
Assessment, Remediation, and Restoration Program (DARRP) with regard to 
the Deepwater Horizon incident on more than a dozen technical work 
groups, investigating topics that range from aerial imagery to 
deepwater corals to data management to terrestrial and aquatic species.
    While current USGS efforts are focused on response in the aftermath 
of the oil spill, USGS managers and scientists are also planning for 
future research needs associated with the Deepwater Horizon oil spill. 
A longer-term Science Planning Team was launched in early May 2010. The 
team, which includes personnel from the FWS, the NPS, and the MMS 
representing their bureaus' science and resource management needs, is 
developing a long-term science plan designed to address the research 
needs as we move from an immediate response to a more mature response 
phase of this event and into recovery. The team has identified priority 
baseline data that should be collected; a few examples are briefly 
described below:
        <bullet>  Mapping and resource characterization. Habitat maps 
        are lacking for many of the estuaries, sea grass beds, coral 
        reefs and salt marshes in parks and refuges that will be 
        directly or indirectly affected by the oil spill, and their 
        plant and animal communities are poorly understood or 
        quantified, all of which hinders the NPS and FWS from 
        responding. Scientifically valid habitat maps and information 
        on extent, abundance and distribution of marine habitats and 
        species are needed. The barrier island systems in the northern 
        Gulf (especially MS, LA) are very dynamic, and some are on the 
        verge of disappearing. The USGS has joined with the U.S. Fish 
        and Wildlife Service's National Wetlands Inventory program to 
        produce wetland maps that highlight resource-rich areas that 
        are protected by federal, state, or non-governmental agencies 
        to aid in prioritizing response efforts. While the USGS has 
        collected good post-Katrina bathymetry, shoreline, and 
        geomorphology data on the Louisiana and Mississippi barrier 
        islands, but additional island surface and marine habitat data 
        are still needed to complete updated maps.
        <bullet>  Surveys and assessments. Specific resources of 
        interest include submerged aquatic vegetation (SAV); near-shore 
        and marsh vegetation and associated invertebrate and vertebrate 
        communities; near-shore fish; shorebirds with emphasis on 
        roosting/nesting areas; sea-turtle nesting areas; shallow-water 
        coral reefs; deep-water coral communities; water quality; and 
        sediment. A portion of the water quality and sediment 
        monitoring stations should be targeted at SAV beds and shallow 
        and deep coral communities.
        <bullet>  Surveys to document the occurrence of oil and oil-
        related materials. The surveys should include sediment and pore 
        water sampling, seafloor and shoreline imaging with both 
        geophysical and optical techniques, and oil detection LIDAR. 
        The results will be used to map the occurrence and amount of 
        oil and oil-related materials.
        <bullet>  Surveys at berm and borrow sites. In addition to 
        physical characteristics, the surveys will need to include 
        water column and sediment measurements to determine if oil-
        related or previously sequestered harmful materials have been 
        resuspended and reintroduced to the system. The berms will 
        decrease the tidal flows, on which the coastal marshes depend; 
        surveys should also document the effects on the marshes of 
        reduced tidal flow.
    Sources and sinks of oil and oil-related materials will vary 
through time and will be affected both by natural processes and oil 
spill mitigation activities. Repeated surveys of the coastal zone will 
need to be performed to determine changes in the physical systems and 
document changes in the character and distribution of oil and oil-
related materials. The repeated surveys will be used to develop 
``change maps'' that will track the migration of oil and oil-related 
products in the systems. Repeat surveys to track movement of sand in 
areas of borrow and oil-protective berms will need to be done 
frequently because analysis of the berm construction plan suggests that 
the artificial structures could be unstable.
    Processes involved in transmitting oil and oil degradation products 
through the coastal system will need to be monitored. Analyses of 
sediment and pore water samples taken during repeat surveys can be used 
to investigate the processes responsible for mobilizing, transmitting, 
and degrading oil within different components of the coastal system and 
to document how the presence of oil and its degradation products affect 
the structure and function of these ecosystems. These analyses also 
will provide information on interaction of oil and the degradation of 
oil with other processes such as development of hypoxia and 
mobilization of toxic metals in different components of the coastal 
system.
Wildlife Resources and Coastal Ecosystem Impact Recovery
    DOI will need to understand the impacts of the Deepwater Horizon 
oil spill on wildlife and coastal ecosystems in the Gulf of Mexico and 
track their recovery. Lessons learned from the Exxon Valdez oil spill 
suggest that a long-term (on the order of decades), multi-level, 
ecosystem perspective will be essential. Therefore, we recommend that 
studies include investigations at the landscape level as well as those 
that are localized and include process-based research. The studies 
should include habitat monitoring, characterization, and mapping using 
ground-based data collection, and remote sensing systems. Trust 
species, including migratory birds, manatees, and sea turtles, which 
are of concern to the public and resource managers in the DOI, should 
be emphasized. In addition, the effects of the oil spill on ecosystem 
structure and function, especially in relation to the health of coastal 
ecosystems, need to be monitored to measure the impacts to the natural 
resources of the Gulf.
    At the ecosystem level, studies will be needed to
        <bullet>  determine how oil and dispersants will impact multi-
        level pathways in coastal ecosystems, from the nearshore to 
        coastal wetlands;
        <bullet>  understand the influence of oil and dispersant 
        exposure on the resilience of coastal ecosystems;
        <bullet>  determine extent and degree of damage to coastal 
        ecosystems; and
        <bullet>  use assessments of coastal habitat impacts to model 
        long-term recovery and support the development of remediation/
        restoration plans.
    At the population level, research should focus on
        <bullet>  impacts to wildlife populations and estimated 
        recovery times;
        <bullet>  effects of the oil spill on distributions of marine 
        fauna and wildlife populations;
        <bullet>  impact of sand berms on coastal wetlands and wildlife 
        habitat;
        <bullet>  the efficacy of other remediation methods such as 
        fire or low-pressure hydro-cleaning in wetlands; and
        <bullet>  habitat management techniques to restore, enhance or 
        establish conditions necessary to establish or maintain native 
        plant and animal communities.
    At the species level, monitoring and analysis will be needed to 
determine
        <bullet>  sub-lethal effects of oil and dispersant on marine, 
        aquatic and terrestrial organisms;
        <bullet>  impacts of burial and later ingestion of oil and 
        dispersants on wildlife health, life history, and behavior;
        <bullet>  effects of oil and dispersants on marine, aquatic, 
        wetland and terrestrial plants; and
        <bullet>  effects of disturbed conditions on plant community 
        structure and function.
    These studies will help to inform the U.S. Fish and Wildlife 
Service's developing Information, Planning, and Conservation (IPaC) 
decision support system, which the FWS is currently attempting to 
secure the needed resources to deploy for the Gulf spill response 
activities. This system is designed to aid in streamlining emergency 
section 7 consultation while improving efforts to conserve trust 
resources, assess impacts to species conservation, and identify 
appropriate mitigation activities for the NRDAR process. This system is 
currently being integrated with NOAA's Environmental Response 
Management Application (ERMA) to allow users to seamlessly move between 
the two systems to obtain information about FWS trust resources and 
recommended best management practices. This system integration results 
in users only having to visit one location to obtain information 
regarding both agencies' trust resources.
Socio-economic Issues and Ecosystem Services
    Impacts of the oil spill to both communities and ecosystems will be 
far-reaching and long-term throughout the Gulf of Mexico, where many 
coastal communities depend on ecosystem services for their livelihoods, 
quality of life, and protection from natural hazards. Information on 
these impacts on economic activities, demographics and ecosystem 
services, as well as options for adaptation and resilience planning, 
are needed to help communities try to regain pre-spill productivity and 
social well-being. Restoring economic activity and quality of life is 
best achieved through an adaptive management framework: a structured, 
iterative process of optimal decision making in the face of 
uncertainty, with an aim of reducing uncertainty over time via system 
monitoring. In this framework, science will inform resource managers of 
specific options for restoration, and consequently the restoration 
effort will guide the science that needs to be done.
    Research on the socio-economic impacts of the oil spill is 
important to comprehensively assess the impacts of the oil spill on 
coastal communities, by comparing the social, economic and demographic 
changes that have occurred as a result of the oil spill as well as the 
social and economic impacts of restoration activities. A comprehensive 
geographic analysis of the socio-economic impacts of the oil spill to 
communities in the Gulf would include:
        <bullet>  Characterization of pre-spill socioeconomic 
        conditions in coastal communities across the Gulf to set the 
        baseline;
        <bullet>  Assessment of current community exposure to hurricane 
        storm-surge hazards relative to areas containing significant 
        oil residue, providing decision makers with an idea of where 
        post-hurricane clean-up would be complicated by oil residue in 
        flood waters;
        <bullet>  Characterization of socio-economic conditions in 
        coastal communities one year after the initial oil spill, to 
        assess the immediate impacts of the oil spill;
        <bullet>  Trend and regression analyses of demographic shifts 
        in coastal populations and business distributions;
        <bullet>  Community-based workshops in communities identified 
        as hot-spots of significant socio-economic change after the oil 
        spill, identifying system-level consequences of the spill to 
        local community structure and function; and
        <bullet>  Models to evaluate the economic impacts of various 
        restoration plans, including the number of jobs created within 
        various economic sectors. Outcomes should include application 
        of these models to inform decision-making.
    Ecosystem services are the multitude of resources and processes 
that are supplied by natural ecosystems to humans, enabling our 
continued existence and our complex social systems. A science-based 
Gulf restoration strategy requires examining the value of all ecosystem 
products and services that have been impacted by the oil spill, 
including: provisioning services such as food and water; regulating 
services such as water purification and storm protection; and cultural 
services such as recreation, and aesthetics. Individual livelihoods and 
community viability will depend on the success of long-term efforts to 
restore natural ecosystem functions, native species, and natural 
structure (e.g., channels, islands, and shoreline). Quantifying and 
valuating ecosystem services will provide information that is critical 
in assessing tradeoffs and the consequences of alternative restoration 
actions. Their valuation will link directly to effective adaptive 
management restoration methodologies promoting conservation efforts, 
sustainable economic development and community resilience. Specific 
components of a comprehensive ecosystem services assessment include:
        <bullet>  Developing assessments of the value derived from, and 
        risks to, Gulf coastal ecosystems, in order to better 
        understand the risks of off-shore petroleum development;
        <bullet>  Identifying degraded and missing ecosystem services 
        and prioritizing restoration efforts toward missing or impaired 
        functions;
        <bullet>  Developing integrated models linking biological, 
        hydrological, and physical data with ecosystem services;
        <bullet>  Delineating the social values derived from ecosystem 
        services, thus prioritizing areas for restoration, including 
        understanding the impacts of the oil spill on commercial, 
        recreational, and subsistence fishermen;
        <bullet>  Combining valuation maps with hazard probabilities to 
        characterize the risks associated with oil spills from existing 
        and future oil development; and
        <bullet>  Modeling the probability of oil from any given well 
        encountering various marine and coastal ecosystems.
OTHER ISSUES
Transport, fate, and potential impacts of oil and dispersants
    The use of chemical dispersants has added to the challenge of 
understanding the fate and transport of oil (along with the dispersant) 
in the Gulf of Mexico region. Chemical dispersants have converted the 
oil into microscopic water-soluble droplets, facilitating their 
movement away from the surface oil slick and into the water column to 
the seafloor. This procedure results in potential impacts not only to 
surface and shore biota but also to the vast ecosystems that reside 
beneath the surface of the Gulf of Mexico. To understand these impacts, 
the USGS will address the fate and transport of not only oil and 
dispersant but also the mixture of oil and dispersant to determine 
their impact on coastal and marine ecosystems, such as wetlands, 
estuaries, reef communities, beaches, and the associated species that 
reside in these critical habitats.
Deep-water coral sampling
    The USGS, in collaboration with the MMS, NOAA, and other agencies, 
has been conducting research on a variety of deep-sea and outer shelf 
habitats in the Gulf of Mexico for more than a decade. The 
comprehensive data archive, diverse skills, and technical capabilities 
of this group are ideal for investigating the impacts of the Deepwater 
Horizon oil spill on deep-water coral ecosystems in the Gulf of Mexico. 
The September 2010 research cruise, part of the USGS DISCOVRE 
(Diversity, Systematics, and Connectivity of Vulnerable Reef 
Ecosystems) expedition and scheduled prior to the spill, would be the 
basis for short- and long-term studies that would begin with the 
collection of sediment and bacterial community samples. Samples such as 
these would allow for a comparison of the pre-spill habitat to the 
post-spill habitat to measure the effect of contaminants on these deep-
water coral ecosystems.
Use of Sand Berm/Barrier
    The State of Louisiana requested emergency authorization on May 11, 
2010, to perform spill mitigation work on the Chandeleur Islands and 
also on all the barrier islands from Grand Terre Island eastward to 
Sandy Point to enhance the capability of the islands to reduce the 
movement of oil from the Deepwater Horizon oil spill to the marshes. 
The proposed action, building a barrier berm (essentially an artificial 
island fronting the existing barriers and inlets) seaward of the 
existing barrier islands and inlets, ``restores'' the protective 
function of the islands but does not alter the islands themselves. 
Building a barrier berm to protect the mainland wetlands from oil is a 
new strategy and depends on the timeliness of construction to be 
successful. Because of the scope of this strategy, there are concerns 
about the availability of sufficient sand resources, the impacts of 
depleting these resources and the possible negative effects to existing 
ecosystems. Prioritizing areas to be bermed, focusing on those areas 
that are most vulnerable and/or where construction can most rapidly be 
completed may increase chances for success.
    The USGS recommends long-term monitoring of the berm to determine 
its performance and possible impacts on or benefits to the surrounding 
environment. Repeated surveys to update bathymetry, topography, sea bed 
characteristics and sea-bed images, along with sediment sampling, 
should be done to document changes through time. The observations and 
analyses will provide data needed to identify movement of oil and oil-
degradation through the system, determine impacts, and identify the 
processes involved. For example, monitoring changes in barrier 
topography, and bathymetry along with analyses of sediment cores and 
oil-residue changes will show linkages between oil mobilization and 
sedimentary processes. Monitoring turbidity and salinity within the 
back-barrier environment will provide information on estuarine health.
CONCLUSION
    The USGS will continue to work closely with other Department of the 
Interior and other Federal and State agencies as well as the private 
sector in response to the Deepwater Horizon oil spill. The USGS 
Environmental Incident Science Team is leading the effort to develop a 
plan to identify the Department's long-term research needs in the 
aftermath of this disaster. As we move from response to recovery, the 
DOI Bureaus will provide our best efforts to inform and guide 
decisions. I want to thank the Subcommittee for its support for USGS 
science. Without your recognition of the importance of USGS long-term 
monitoring and data collection, the USGS would not have the tools, 
data, and information that have allowed our rapid response to this 
crisis, and our Nation would not have the science necessary to begin 
its recovery from this tragedy.
    Thank you for the opportunity to testify before you today. I will 
be pleased to answer any questions that you may have.
                                 ______
                                 
    Ms. Bordallo. Thank you, Dr. McNutt, for describing what we 
know and what we do not know about the oil spill. Dr. 
Coddington, please begin your testimony.

STATEMENT OF JONATHAN A. CODDINGTON, PH.D., ASSOCIATE DIRECTOR 
   FOR RESEARCH AND COLLECTIONS, NATIONAL MUSEUM OF NATURAL 
                HISTORY, SMITHSONIAN INSTITUTION

    Dr. Coddington. Thank you, Chairwoman Bordallo and members 
of the Subcommittee, for the opportunity to testify today. I am 
the Associate Director of Research and Collections at the 
National Museum of Natural History at the Smithsonian 
Institution. I, too, would like to extend my sympathies to 
those who lost their lives and those who lost their livelihoods 
due to this disaster.
    Our collections at the Smithsonian are among the largest in 
the world. We have approximately 126 million specimens. That is 
about 94 percent of everything that the Smithsonian has. About 
one-third of those collections are marine. Scientific 
collections are a vital part of the national scientific 
infrastructure. Time and again, they prove their worth by 
answering important questions and solving important problems.
    To give you one recent example, U.S. Airways flight 1549 
collided with birds and crash landed in the Hudson River. It 
was our DNA and our specimens that identified the birds as 
Canada geese. It is important to know which birds cause 
accidents.
    We are also often involved with the early detection of 
invasive species when they invade the United States, and we 
also support threat assessments to our Armed Forces by 
developing profiles of disease vectors specific to regions 
where they are fighting or stationed, for example, in both Iraq 
and Afghanistan today.
    As another final example, climate change is predicted to be 
especially detectable at the North and the South Poles. For the 
last many years, we have been collaborating with the U.S. 
Antarctic program to develop the largest and best collections 
of the biota of the Antarctic available today. We are ready to 
provide baseline data for scientific studies to measure climate 
change, just as we can provide baseline data today on the Gulf 
of Mexico's pre-spill environment.
    As others have pointed out, this is the worst man-made 
ecological disaster in U.S. history. Its impact and extent at 
this moment are only estimates, not known facts. All of the 
stakeholders in this event will benefit from facts, and 
therefore solid information on the pre-spill environment is 
important. For the last 30 years, we have collaborated with the 
MMS, which is the Minerals Management Service, to archive their 
collections from their environmental studies program.
    Most of these collections focused on the Gulf because that 
was where most drilling occurred. I would like to emphasize how 
unusual it is and how lucky we are to have these quantitative 
collections. Because of the cost of ship time and the 
difficulty of the work, marine surveys are extremely expensive, 
especially at great depths. In total, these collections amount 
to more than 330,000 samples. Of these, more than 93,000 are 
from the Gulf of Mexico. They were collected at over 500 depths 
at over 1,000 different locations.
    However, about a third of the relevant collections have not 
been catalogued and been made publicly available to science. 
The map on display you can see here gives you some idea of the 
geographic coverage. The red dots are the collections from the 
MMS quantitative samples. Each one of those red dots is a place 
that may have yielded hundreds of species and thousands of 
specimens. The yellow dots represent the regular Smithsonian 
marine collections.
    I brought two examples with me today just to show you what 
these things are like. This large specimen here is a giant 
isopod collected at about 500 meters in depth. They get almost 
three feet long. They are creatures of the deep. I also have, I 
hope, circulating among you in a plastic box specimens of 
corals. Those corals are keystone species because they create 
the environment on which other organisms depend. These make 
deepwater reefs, which can be hundreds of meters high, hundreds 
of meters wide, and even miles long.
    Most of the specimens we have, of course, are not this 
spectacular, but these are the most extensive collections of 
marine organisms from the U.S. continental shelves.
    In summary, these Smithsonian collections are now a unique 
and irreplaceable resource to characterize the Gulf pre-spill 
environment. However, until we know exactly what questions are 
going to be asked, I can't say exactly how these collections 
will help us to answer these questions, but they are likely to 
be critical in many contexts. Research and assessment of 
impacts will go on for decades, and most of that will need pre-
spill data.
    However, I would also say that getting more pre-spill data 
is important. We don't have much time left to gather data of 
that sort. We should also make sure that we are gathering and 
archiving baseline data and information from whenever oil and 
gas exploration is going on on the outer continental shelf. All 
stakeholders benefit from the facts. This is relatively cheap 
and easy to do. And I would also like to emphasize that about a 
third of the MMS collections and other Smithsonian collections, 
which would be scientifically valuable for pre-spill 
environments, are not yet fully worked up, catalogued, and 
publicly available for science. Finishing that now is a high 
priority for us.
    Finally, thank you for the opportunity to testify, and I 
look forward to answering any questions you may have.
    [The prepared statement of Dr. Coddington follows:]

                 Statement of Dr. Jonathan Coddington, 
             Associate Director of Research and Collections

    Thank you Chairwoman Bordallo and distinguished members of the 
Subcommittee for the opportunity to provide testimony today. My name is 
Jonathan Coddington. I am the Associate Director of Research and 
Collections at the National Museum of Natural History, Smithsonian 
Institution. I have a PhD in Invertebrate Zoology and have published 
frequently on design and analysis of biological inventories and 
inventory design theory. As Associate Director I oversee about 90 
scientists and 240 technical staff at the National Museum of Natural 
History in Washington, D.C., at the Museum Support Center in Suitland, 
Maryland, and at the Smithsonian Marine Station at Fort Pierce, 
Florida. Collectively we care for an estimated 126 million specimens, 
approximately 94% of all Smithsonian collections. About one third of 
our collections and staff focus on the marine realm.
Introduction:
    The National Museum of Natural History (NMNH, previously the US 
National Museum, in part) has, since its beginning, been linked to the 
collection activities of the U.S. Government. The 1846 legislation that 
created the Smithsonian Institution identified the U.S. National Museum 
as the repository for natural history specimens belonging to the United 
States, ``All collections of rocks, minerals, soils, fossils, and 
objects of natural history, archaeology, and ethnology, made by the 
National Ocean Survey, the United States Geological Survey, or by any 
other parties for the Government of the United States, when no longer 
needed for investigations in progress shall be deposited in the 
National Museum'' (20 U.S.C. Sec. 59). In fact, it was research in the 
marine environment, the 1838-1842 U.S. Exploring Expedition that made 
clear the national need for such a repository. The role of the 
Smithsonian as the primary repository for federally funded collections 
has been repeatedly affirmed by Congress by legislation in 1879, 1965, 
1970, and 1991.
    Scientific collections are an essential and irreplaceable component 
of the national scientific infrastructure, as documented in the 2009 
report of the Interagency Working Group on Scientific Collections 
(OSTP, 2009). Speaking just for the Smithsonian, we collaborate with 
the Federal Aviation Administration, the U.S. Air Force, and the U.S. 
Navy to identify birds involved in over 5,000 collisions with airplanes 
annually. Last summer, a number of Canada geese famously forced US 
Airways Flight 1549 to land in the Hudson River, luckily with no loss 
of life. Knowing the species of bird in each collision allows humans, 
as far as possible, to design systems to minimize collisions. We 
collaborate with the United States Department of Agriculture (USDA) by 
hosting 40 USDA entomology staff at NMNH because the collections are 
critical to their mission of protecting U.S. Agriculture. When the 
citrus leaf miner invaded the U.S. in 1993, the NMNH collections 
contained the only identified material in the country. Our scientists 
rapidly identified the pest, which enabled targeted control programs 
throughout citrus agriculture regions. Smithsonian collections also 
played a crucial role in the identification and control of many other 
invasive species, for example, the veined rapa whelk that damages 
Chesapeake oyster populations, or the Asian longhorned beetle, on track 
to cause billions of dollars of damage to urban trees. Our unique 
database on volcanic eruptions is the international standard for basic 
science in this area, supporting plans to mitigate threats to human 
life near volcanoes, as well as threats to aviation. We also support 
our armed forces by hosting the Walter Reed Biosystematics Unit, a 
component of the Walter Reed Army Institute of Research. Mosquitoes, in 
particular, spread some of the most deadly and debilitating diseases, 
and NMNH therefore supports the largest and most comprehensive mosquito 
collection in the world. Another recent example is Hyalomma ticks, 
which are particularly common and diverse in Iraq. They transmit viral 
hemorrhagic fevers. Luckily, we have the world's best reference 
collection of Hyalomma ticks. Wherever our soldiers are, the ability to 
rapidly identify disease vectors in their environment is crucial to 
mitigating risk. Our collections have been used repeatedly to answer 
basic and historical questions regarding many diseases: Lyme disease, 
influenza, and hemorrhagic fevers, to name a few.
    In the near future our collections may play crucial roles in two 
areas: climate change and ocean acidification. Since 1963 we have 
archived the results of environmental monitoring in the Antarctic, a 
partnership with the U.S. Antarctic Program (USAP). Climate models 
predict that the climate change may be particularly evident at the 
North and South Poles. The density and scope of our historical 
collections can provide the ``before'' to climate change's ``after.'' 
Ocean acidification, itself caused by climate change, threatens 
keystone species--reef builders--of many marine ecosystems. Clams and 
corals, for example, record growth rates in their skeletons. Those 
growth rates depend on the availability of calcium carbonate, and that 
depends on ocean acidification. Growth rates as reflected in the 
skeletons of marine organisms are an important record of environmental 
change.
    Regarding the Deepwater Horizon oil spill, knowing what the 
conditions were like before the event is essential. The Smithsonian is 
committed to long-term studies of ecosystems and biodiversity, and the 
data and collections that have resulted can play a crucial role in 
situations such as that posed by the gulf oil spill. For example, in 
1986 more than 50,000 barrels of oil impacted the coast of Panama, 
including the habitats adjacent to the Galeta Marine Laboratory of the 
Smithsonian Tropical Research Institute. Because the Smithsonian had 
already studied this site for many years, the Minerals Management 
Service (MMS) chose the Smithsonian to assess the impact of the spill. 
This study was one of the first to clearly document the long term 
effects of oil on soft bottom marine habitats such as are found along 
the U.S. Gulf Coast. Collections documenting this study (see below) are 
archived at NMNH. Throughout history, scientific collections have 
helped to resolve the issues of the day.
    My testimony today focuses on the assistance the National Museum of 
Natural History can provide to a coordinated national response to the 
Deepwater Horizon oil spill. This spill already has been described by 
many experts as the worst man-made ecological disaster in U.S. history. 
The extent of the ecological impact, its geographic extent, and 
possibilities for remediation at this point are only estimates, not 
known facts. Given the likely economic impacts of the spill and future 
costs, the accuracy of before and after comparisons are important. 
Assembling an accurate and detailed description of the Gulf of Mexico 
marine ecosystem as it existed prior to the spill is the chief topic I 
will address today.
NMNH Collections, MMS, and the Gulf of Mexico:
    Since 1979, NMNH has collaborated with the Environmental Division 
of the Minerals Management Service to archive the collections generated 
by their Environmental Studies Program. The Minerals Management Service 
(MMS) has been conducting intensive environmental studies on the Outer 
Continental Shelf (OCS) for more than 30 years to support information 
needs for managing oil and gas development on the continental shelf and 
slope. Through its initial design, and during the first four years of 
program activity, the MMS Environmental Studies Program established 
baseline environmental conditions based on a large number of 
biological, chemical, and physical parameters. With these baseline 
conditions, future monitoring studies during and after development 
would, presumably, have allowed an assessment of the long-term effects 
of development. After a review and recommendations from the National 
Academy of Sciences, this program design was revised in 1978. 
Subsequently, a new program of directed studies has provided data to 
inform critical decisions before they are required. These baseline 
surveys took place from 1974 to 1978, and the Smithsonian has all or 
most of the specimens they generated in our collections. Specimens from 
numerous additional MMS-directed studies are also in our collections. 
Data from these studies, including site and collecting event specific 
physico-chemical, oceanographic, sedimentary and biodiversity data are 
available in the various technical reports prepared by program 
contractors. These reports, available on-line at the MMS Environmental 
Studies Program Information System, (https://www.gomr.mms.gov/homepg/
espis/espisfront.asp), provide information that document not only the 
biodiversity of these sites, but the population characteristics and 
environmental conditions at the time the samples were collected. For 
the Gulf of Mexico alone, from 1974-2010, this site provides 109 
``baseline'' reports, 252 ``biology'' reports, 86 ``fate & effects'' 
reports, and 340 ``technical summaries.'' The availability of this 
extensive supporting data in conjunction with the specimens themselves 
makes these collections an irreplaceable research resource for 
comparative studies on the invertebrate biodiversity (animals without 
backbones) of the Gulf of Mexico.
    These specimens represent one of the most extensive collections of 
marine organisms from U.S. continental shelves and slopes, in terms of 
geographic coverage, sampling density (spatial and temporal), number of 
phyla represented, and associated data collected concomitantly (other 
organisms, chemical, hydrographic, geologic). The MMS therefore 
established a system for the archiving of, and access to, these 
specimens. Through a series of contracts, MMS has partnered with the 
Smithsonian's NMNH-Department of Invertebrate Zoology (in its role as 
the repository for federally-funded collections) to ensure the long 
term maintenance of and access to invertebrates collected during these 
studies. The MMS Environmental Studies Program deserves praise for the 
foresight and initiative shown in conducting and preserving the 
results, especially the collections, from these surveys.
Details of MMS surveys as represented in NMNH Collections:
    NMNH to date has received material from 21 continental shelf, slope 
and canyon surveys as well as two special oil spill surveys. These are: 
the Atlantic Slope and Rise Program (ASLAR); George's Bank Benthic 
Infauna Monitoring Program (BIMP); Central Atlantic Benchmark Program 
(CABP); California Monitoring Program (CAMP); Central and Northern 
California Reconnaissance Program (CARP); the Canyon and Slope Process 
Study (CASPS); Central Gulf Platform Study (CGPS); Gulf of Mexico 
Chemosynthetic Communities (CHEMO); Deep Gulf Shipwrecks of World War 
II (Deep Wrecks); Northern Gulf of Mexico Continental Shelf Habitats 
and Benthic Ecology (DGoMB); the special Ixtoc oil spill survey in the 
Gulf of Mexico (IXTOC); the South Atlantic Outer Continental Shelf Area 
Living Marine Resources Study (LMRS); Gulf Of Mexico Hard Bottom 
Communities (Lophelia); Mississippi, Alabama, Florida Benchmark Program 
(MAFLA); Mississippi-Alabama Marine Ecosystem Program (MAMES); 
Mississippi/Alabama Pinnacle Trend Ecosystem Monitoring Program 
(MAPTEM); the New England Environmental Benchmark Program (NEEB); the 
Northern Gulf of Mexico Continental Slope Study (NGOMCS); the special 
Panama Oil Spill Study (POSP); the South Atlantic Benchmark Program 
(SABP); the Southern California Baseline Study (SOCAL); the Southwest 
Florida Shelf Ecosystems Study (SOFLA); and the South Texas Outer 
Continental Shelf Program (STOCS). In addition to the biological 
material, more than 200 color slides of animals in situ were received 
from the MAPTEM program.
    During the 30+-year tenure of the contracts between MMS and the 
Smithsonian, more than 337,012 lots of sorted and identified material 
and 20,000 lots of unprocessed samples or mixed taxa have been 
received. ``Lot'' means a single jar or vial of specimens that have 
identical collecting data. One lot may comprise one or dozens or 
thousands of specimens. Therefore lot statistics always underestimate 
the actual number of specimens involved. Of this number more than 
93,000 lots originated from studies in the U.S. Gulf of Mexico and more 
than 18,000 lots originated from the studies following the oil spill in 
Panama. In that case, Smithsonian marine scientists also led a 
scientific study (funded by MMS, see above) of the ecological 
consequences of the oil. It remains a benchmark study in the field.
    In the aggregate these collections document at least 4,000 species 
of marine invertebrates from 602 families from 22 phyla. Recent 
scientific publications document that the Gulf as a whole contains 
roughly 15,000 species, with perhaps another 3,000 species still 
undiscovered. These represent everything from ecological keystone 
species to economically important species to potentially threatened or 
endangered species. ``Keystone'' species are those on which most of the 
rest of the ecosystem depends. The North Atlantic cold water coral 
(Lophelia pertusa (Linnaeus, 1758) is a keystone species because it is 
one of the most important deep water reef-builders, and thus 
fundamental to deep marine ecosystems. It occurs within 20 or so miles 
of the Deepwater Horizon well-head, as documented by trawl samples from 
1984 and direct observation from submersibles during MMS-funded studies 
between 2004 and as recently as September of last year. Economically 
important species are the focus of the National Oceanic and Atmospheric 
Agency's National Marine Fisheries Service. Examples are the three 
commercially important Gulf shrimp species (pink and brown shrimps, 
Farfantepenaeus duorarum and F. aztecus, and the white shrimp, 
Litopenaeus setiferus), all of which are well-represented in NMNH 
collections. Endangered or ``at risk'' species include several 
populations of genetically distinct bottlenose dolphins, and the 
Florida manatee, which is particularly vulnerable to oil fouling of the 
plants on which they feed. Finally, many of the species collected 
through these surveys were entirely new: between 300 and 400 new 
species were described based on these collections and many more await 
description.
    As many as six persons have been employed at any one time on the 
joint Smithsonian-MMS project with responsibilities for inventorying 
the material as it was received, cataloging the identified specimens, 
sorting and identifying additional specimens from unprocessed lots, and 
other curatorial tasks necessary to meet NMNH curatorial standards. 
However, approximately one third of MMS collections deposited at the 
Smithsonian need further work in order to optimally support research 
related to the oil spill.
Importance of Collections:
    To give the committee some idea of the importance of these 
collections, my staff recently estimated that fully 58% of publicly 
available specimen-based records from the Gulf of Mexico represent 
Smithsonian collections. I would like to emphasize that many marine 
research institutions around the Gulf and elsewhere will play key roles 
in assessing damage and measuring remediation and recovery in the years 
ahead. The Smithsonian is ready to collaborate and support that work in 
any way it can. It is also likely that many scientists and institutions 
have data or collections that are not publically available (i.e. 
accessible via on-line databases) that are highly relevant to the 
Deepwater Horizon oil spill. However, the massive size and quality of 
the MMS survey collections at the Smithsonian will surely continue to 
be an important resource.
    These collections, therefore, represent a unique and now 
irreplaceable resource to describe quantitatively the pre-spill Gulf of 
Mexico ecosystem. The depth range of these collections is enormous, 
ranging from five to nearly 3,000 meters (nearly two miles). From the 
label data I calculated that specimens were accessed at 459 distinct 
depths. The deep collections are especially valuable because survey 
work at such depths is extremely expensive and limited. Given the depth 
of the Deepwater Horizon well-head, data on abyssal communities are 
especially important. A Gulf-wide MMS-funded deepwater study listed 
above as DGoMB was recently published and includes a number of these 
deep stations very near the spill site in its database. The total 
number of distinct geographic points sampled is roughly 1,000. In 
short, by the standards of biological sampling in general, and 
especially considering the rarity of deep-water samples, these 
collections are truly impressive.
Distinct Roles of Smithsonian and MMS:
    The Smithsonian role in this partnership has been the archiving of 
the collections that support these technical studies, the improvement 
of the scientific quality of the collections as resources permitted, 
and making them publicly available in digital form through our website. 
MMS conducted the surveys, received reports from the scientists and 
contractors involved, and is therefore the final authority on data and 
analyses extracted from the collections. The Smithsonian enhances the 
value of the collections by meticulously creating digital records for 
each sample of specimens, including precise georeferenced locality data 
and other important ecological aspects. Few other museums have the 
resources to create so many records of such high quality. The quality 
and quantity of digitally available data will make these collections in 
particular extremely valuable to scientists seeking information on the 
pre-spill ecosystem.
Future Work:
    Ideally, the scientists that will carry out inventories and surveys 
of the post-spill environment will want exactly comparable pre-spill 
surveys, using the same methods, and designed for the same analytical 
protocols. There is one ongoing MMS and NOAA-funded study of deep 
corals in the vicinity that is ideally suited to this task. We cannot 
say at this time to what extent the 1974-1978 baseline surveys, and 
most surveys since then, fulfill these stringent requirements. While 
such surveys may be in retrospect imperfect, or imperfectly archived in 
some ways, they certainly provide one of the most comprehensive 
available resources on biodiversity and abundance data prior to the 
spill. Even if the background raw data are not available, it is 
possible that such data could be regenerated directly from NMNH 
collections. Although it is already obvious that NMNH collections have 
had, and will have, an important role to play in describing the pre-
spill ecosystem, we must wait until post-spill questions are more 
precisely formulated before we can assess their role more specifically.
    In addition to the more than 333,000 lots of invertebrates 
originating from MMS studies in the Gulf of Mexico, the NMNH 
Invertebrate Zoology collections also include 39,000 lots of 
invertebrates that have been at least partially inventoried (have a 
corresponding record in our catalog database). Of the 39,000 lots 
represented in our database, the majority were collected between 1951-
2010. Our collection also includes an estimated 75,000-120,000 lots 
that have not been inventoried at all. We have, however, completed an 
initial digitization assessment in which collections have been 
prioritized for improvements in curation. In order to make these high-
priority collections available to researchers we would need to 
inventory and digitize them. Direct digitization is the most efficient 
way to make the information widely available. Although these 
collections are not as extensively documented as the MMS specimens, 
many were collected from shallow near-shore and in-shore areas, and are 
an important source of comparative material from Gulf of Mexico 
locations not sampled by the MMS programs.
Recommendations:
        1.  The MMS baseline surveys in the 1970's, and special applied 
        project studies conducted thereafter, are now a unique and 
        irreplaceable resource to provide factual and objective data on 
        the Gulf of Mexico pre-spill environment.
        2.  Precise assessment of the ability of these collections and 
        associated data to support quantitative comparisons of pre- and 
        post-spill conditions will require additional work, contingent 
        on the exact questions to be answered.
        3.  Survey work in the Gulf region in advance of oil damage has 
        commenced already, but it needs to be well-organized and 
        quantitative. We have a short window of time to increase our 
        baseline knowledge of these ecosystems before damage occurs.
        4.  Post-spill ecological research would be enhanced by working 
        up and making publicly available Gulf of Mexico pre-spill 
        collections that are not yet publicly available.
        5.  Gathering baseline ecological data (similar to the MMS 
        Environmental Program) is a proactive and precautionary step 
        wherever offshore drilling may take place. The Gulf of Mexico 
        MMS baseline surveys were refocused in 1978, yet today, 32 
        years later, they are suddenly of national importance and 
        significance. All stakeholders benefit from objective and 
        factual information. Advances since then in the ability to 
        archive and exploit such data now make such activities both 
        economical and routine.
    Thank you for the opportunity to testify today and I look forward 
to answering any questions you may have.
                                 ______
                                 

Response to questions submitted for the record by Jonathan Coddington, 
  Associate Director for Research and Collections, National Museum of 
                Natural History, Smithsonian Institution

Questions from Chairwoman Madeline Z. Bordallo (D-GU)
1.  How well known is the biodiversity in the Gulf of Mexico? Are there 
        still new species to discover?
    The Gulf of Mexico is one of the best known marine regions in the 
world. The recent encyclopedia of biota from the Gulf (Gulf of Mexico: 
Origins, Waters, and Biota. Volume 1. Biodiversity, 2009, eds. Felder 
and Camp) lists 15,419 species from the Gulf, but also implies that 
only 80% of the biodiversity is known. Thus, one might expect to find 
another 5000 new, as yet undescribed species of nematodes, polychaetes, 
copepods and amphipods from the Gulf, especially from the deepest 
waters. Indeed, species are being described, on average, every week, if 
not on a daily basis from this body of water.
    New species, especially from poorly studied invertebrate groups, 
have been, and continue to be described from the Department of 
Interior's Bureau of Ocean Energy Management, Regulation and 
Enforcement (BOEMRE) programmatic collections maintained at the NMNH.
2.  Have steps been taken to begin to integrate information from the 
        collection into the necessary baseline data for the natural 
        resource damage assessment process?
    Yes, to date more than 57,000 lots of invertebrates from 12 
distinct Gulf of Mexico research programs funded by BOEMRE have been 
accessioned into the collections of the National Museum of Natural 
History (NMNH) and cataloged. Each of these 57,000 lots is represented 
by an electronic record in a web-accessible database at http://
collections.nmnh.si.edu/emuwebizweb/pages/nmnh/iz/Query.php. These 
specimen records are also accessible through the Ocean Biogeographic 
Information System, at http://www.iobis.org/. NMNH collections were 
used to create an interactive context sensitive Google Earth map that 
shows the species collected at each BOEMRE Gulf of Mexico locality. 
This map was provided to BOEMRE and is available for download at http:/
/www.invertebrates.si.edu/mms/files.htm.
    The Smithsonian continues to work to increase the publicly 
available data about these collections, as reported quarterly to 
BOEMRE. NMNH-generated data is regularly integrated into data used by 
scientists performing research for the BOEMRE.
    Does the Smithsonian Institution need additional resources to 
        complete this work?
    As explained elsewhere in my responses to questions, NMNH's Gulf of 
Mexico invertebrate collection baseline data are used by many 
stakeholders for their particular purposes. Normally, collection 
processing is an ongoing background activity. Our usual priority is 
collections that can be processed and put on-line quickly, or high-
value research materials. The remaining collections have been 
prioritized to emphasize, first, those specimens that are well-
identified but need cataloguing, and second, those that still need to 
be sorted and identified. The Gulf of Mexico collections that still 
need to be processed require sorting and physical preparation, 
cataloging and describing, and data capture and geo-referencing. BOEMRE 
and NMNH will plan to continue working together to develop and build 
this valuable resource.
Questions from Ranking Republican Member Henry Brown, Jr. (R-SC)
1.  Dr. Coddington, you mentioned that your baseline surveys in the 
        1970's are ``Now a unique and irreplaceable resource''. What 
        are some of the conclusions of those surveys? Has this data 
        been provided to appropriate federal agencies? If yes, how has 
        it been used?
    The baseline surveys to which you refer were conducted by the 
BOEMRE, not the Smithsonian. The design, implementation, and analysis 
of the survey were the responsibility of BOEMRE. However, the 
collections produced were transferred gradually to the Smithsonian, and 
thus are still available for further research. The Smithsonian and NOAA 
have also conducted surveys, although not as extensive as BOEMRE.
    The recently published 500+ page book on the Gulf of Mexico edited 
by Felder and Camp (2009) is an excellent example of the results of 
surveys. Fifteen Smithsonian scientists contributed, reviewing various 
groups of organisms and providing lists of species that occur in the 
Gulf. The surveys are why we know that about 15,500 known marine 
species live in the Gulf and about 10% live nowhere else. It also 
identifies introduced and invasive species. Collections, keys, 
checklists and analyses that depend on them are the fundamental basis 
of knowledge on the pre-spill Gulf environment.
    Our data and analyses are freely available to everyone, including 
federal agencies, universities, independent research laboratories, and 
the general public at http://collections.nmnh.si.edu/emuwebizweb/pages/
nmnh/iz/Query.php. The data are used by the Depts. of Interior, 
Commerce, Defense and others whenever their work requires environmental 
knowledge. For example, one specific way the coral records have been 
used is to document NOAA's ``The State of Deep Coral Ecosystems of the 
United States: 2007'', a comprehensive analysis of all corals by 
geographic region that occur off the U.S. and territories. Without our 
records and publications, this kind of compilation would not have been 
possible.
2.  How much money has the Smithsonian Institution spent on its Gulf of 
        Mexico surveys? How many staff do you currently have assigned 
        to the Gulf?
    Since 1979, the Smithsonian has received more than $5 million from 
BOEMRE to maintain, manage, and database Gulf of Mexico collections. 
From other sources, including federal appropriations to the Smithsonian 
for scientific research, at least another $2 million has been expended 
since 1979. Currently, we have two full time and one part time employee 
assigned to work on our BOEMRE collections. These positions are funded 
through a contract from BOEMRE.
3.  On page 6, you stress that ``we have a short window of time to 
        increase our baseline knowledge of these ecosystems before 
        damage occurs.'' What type of baseline information was 
        available before the spill?
    Over many decades scientists have conducted ecological and 
biological surveys, including the various BOEMRE Gulf of Mexico 
surveys, in the Gulf of Mexico. These studies document important 
biological processes, for example, reproductive success, dispersal, and 
establishment of diverse species (see references in Felder and Camp, 
2009). These biological processes will likely be affected by the oil 
spill. There is also a significant body of research on invasive 
species, commercially important species, and long term ecological 
change. However, now we are dealing with one specific oil-spill, at a 
particular place, being dispersed by particular currents at a 
particular time of year. We should move quickly to survey habitats 
likely to be impacted by this particular event.
                                 ______
                                 
    Ms. Bordallo. Thank you, Dr. Coddington, for informing us 
about the valuable collection and resources at the Smithsonian 
that can help address recovery activities. And next, we will 
hear from Dr. Fingas.

               STATEMENT OF MERV FINGAS, PH.D., 
                  COMMITTEE ON OIL IN THE SEA,

    Dr. Fingas. Good morning, Chairwoman Bordallo and 
Subcommittee members. Thank you for the opportunity to testify.
    First, I would like to reintroduce the National Academy of 
Sciences, who have conducted some recent studies that are quite 
relevant to the Gulf oil spill. The academy has regularly 
conducted studies of several facets of oil spills in the past 
30 years. These are technically carried out by independent, 
unbiased scientists who are involved in the field and have 
specific expertise to bear on the topic at hand. I will 
highlight two such studies. The first study is ``Oil in the Sea 
III,'' which is already highlighted by Mr. Cassidy, this study 
here.
    This study focused on two facets of oil spills, first 
estimating the amount of oil discharged into the sea from 
various sources, and second, to assess the fate and effects of 
that oil in the environment. A number of recommendations were 
made in that report, probably the most important being the 
importance of obtaining real data sets from real spills, such 
as the current Gulf spill.
    The second study is a study of oil spill dispersants, which 
was published in 2005-2006. Oil spill dispersants are 
surfactant mixtures along with solvents, which are intended to 
enhance the production of small droplets in the water column. 
There are many issues with oil spill dispersants which are 
covered in this book, including the fact that dispersants 
ultimately break down and the oil rises to the surface again, 
the toxicity of such dispersants, and the effectiveness of 
products.
    Again, a number of recommendations are made on the study 
and use of dispersants in this report. Again, I should 
emphasize the importance of one recommendation, being that of 
obtaining real data sets such as in the current spill.
    Finally, I have made a number of comments on initiating 
research programs. I have been involved my whole life in 
developing and carrying out research programs, and felt it 
necessary to share some of these lessons. I am pleased to be 
here, and will answer any questions that you may have. Thank 
you.
    [The prepared statement of Dr. Fingas follows:]

    Statement of Merv Fingas, Private Individual, Edmonton, Alberta

    Foreword: This is the personal testimony of Merv Fingas, a private 
individual from Canada. I have extensive background as an oil spill 
researcher and have participated in several NAS committees. I will 
describe briefly some NAS studies, one on oil-in-the-sea and one on oil 
spill dispersants. I had extensive involvement in these studies 
especially the oil-in-the-sea study. Further, I will give some of my 
impressions of where R&D emphasis should be placed.
1 Introduction--Oil Spills
    Major oil spills can attract the attention of the public and the 
media. In past years, this attention had created a global awareness of 
the risks of oil spills and the damage they do to the environment. In 
recent years, major spill incidents are fewer in number however the 
recent Gulf spill may increase these spill numbers back to the previous 
high levels. The public becomes aware of very major spills, but 
generally is unaware that spills are a daily fact of life. Oil spills 
are a frequent occurrence, particularly because of the heavy use of oil 
and petroleum products in our daily lives.
    Spill statistics are collected by a number of agencies around the 
world. Unfortunately these are sometimes not as accurate as they could 
be. They can sometimes be misleading to compare oil spill statistics, 
however, because different methods are used to collect the data. In 
general, statistics on oil spills are difficult to obtain and any data 
set should be viewed with caution. The spill volume or amount is the 
most difficult to determine or estimate. For example, in the case of a 
vessel accident, the exact volume in a given compartment may be known 
before the accident, but the remaining oil may have been transferred to 
other ships immediately after the accident. Some spill accident data 
banks do not include the amounts burned, if and when that occurs, 
whereas others include all the oil lost by whatever means. Sometimes 
the exact character or physical properties of the oil lost are not 
known and this leads to different estimations of the amount lost. Spill 
data are often collected for purposes other than future improvement of 
spill response. Further, reporting procedures vary in different 
jurisdictions and organizations, such as government or private 
companies. The number of spills reported also depends on the minimum 
size or volume of the spill. In Canada for example, there are about 12 
such reportable oil spills every day, of which only about one is 
spilled into navigable waters. These 12 spills amount to about 40 tons 
of oil or petroleum product. In the United States, there are estimated 
to be about 25 spills per day into navigable waters and an estimated 75 
spills on land.
    The public often has the misconception that oil spills from tankers 
are the primary source of oil pollution in the marine environment. 
While it is true that some of the large spills are from tankers, it 
must be recognized that these spills still make up less than about 5% 
of all oil pollution entering the sea. The sheer volume of oil spilled 
from tankers and the high profile given these incidents in the media 
have contributed to this misconception. In fact, as stated earlier, 
half of the oil spilled in the seas is the runoff of oil and fuel from 
land-based sources rather than from accidental spills.
    In conclusion, it is important to study spill incidents from the 
past to learn how the oil affected the environment, what cleanup 
techniques worked and what improvements can be made, and to identify 
the gaps in technology.
3 The Oil-in-the Sea Study by the National Academy of Sciences--2003
    (Note: this is my paraphrase of a NAS summary but all opinions are 
mine. NAS report recommendations are given in quotes.)
    Oil in the Sea III is the third report from the National Academies 
on oil spill sources and fates, the last of which was published in 
1985. Since the date of the last report, several governmental and 
private agencies have created databases with more information on 
petroleum releases and their impact on the environment. This 2003 
report proposes a clearer methodology for estimating petroleum inputs 
to the sea and makes recommendations for further monitoring and 
assessment that will help policymakers prioritize next steps for 
prevention and response.
Sources of Oil in the Sea
    Petroleum inputs into North American and worldwide marine waters 
were computed for four major sources - natural seeps and releases that 
occur during the extraction, transportation, and consumption of 
petroleum. The last three include all significant sources of 
anthropogenic petroleum pollution. This summary highlights the major 
findings about each major source.
Natural Seeps of Petroleum
    Natural seeps occur when crude oil seeps from geologic strata under 
the sea floor into the water. Seeps are often used to identify 
potential economic reserves of petroleum. They contribute the highest 
amount of petroleum to the marine environment, accounting for 45 
percent of the total estimated annual load to the world's oceans and 60 
percent of the estimated total load to North American waters. The 
presence of these seeps, though entirely natural, significantly alters 
the nature of the local marine ecosystems around them. Seeps serve as 
natural sites for understanding adaptive responses of organisms over 
generations of oil exposure. The report recommends that programs be 
implemented to understand the fate of petroleum from natural seeps and 
ecological responses to them.
 Author's Comment--Few, if any studies on natural seeps have been 
        carried out since the NAS study.
Extraction of Petroleum
    World oil production continues to rise, from 8.5 million tonnes (1 
tonne equals about 294 gallons) in 1985 to 11.7 million tonnes in 2000. 
In that same time, the number of offshore oil and gas platforms rose 
from a few thousand to approximately 8,300 fixed or floating offshore 
platforms. Historically, oil and gas exploration and production of 
petroleum have represented a significant source of spills. The second 
largest marine spill in the world was a blowout that released 476,000 
tonnes of crude oil into the Gulf of Mexico in 1979. The current Gulf 
blowout may soon approach this level of significance. The amount of oil 
transported over the sea continues to rise. Since 1985, the Middle 
East's exports of oil to the United States have almost tripled, and 
exports to the rest of the world have doubled. While the devastating 
impact of spills has been well-publicized with images of oil-covered 
shores and wildlife, releases from the transport of petroleum now 
amount to less than 4 percent of the total in North American waters and 
less than 13 percent worldwide. The four major sources of petroleum 
discharges in the transportation sector include pipeline spills, tank 
vessel spills, operational discharges from cargo washings, and coastal 
facilities spills. Transportation-related spills are down for several 
reasons. The enactment of the Oil Pollution Act of 1990 placed 
increased liability on responsible parties, and other regulations 
required the phase out of older vessels and the implementation of new 
technology and safety procedures. By 1999, approximately two-thirds of 
the tankers operating worldwide had either double-hulls or segregated 
tank arrangements - a vast improvement over older single hull ships. 
Operational discharges from cargo washing are now illegal in North 
America, a law that is rigorously enforced. However, there still 
remains a risk of spills in regions with less stringent safety 
procedures practices. The report recommends that federal agencies 
expand efforts to work with ship owners domestically and 
internationally to more fully enforce effective international 
regulatory standards that have contributed to the decline in oil 
spills. In the United States, nearly 23,000 miles of pipeline are used 
to transport petroleum. In some regions, much of this infrastructure is 
more than 30 years old, and unless steps are taken to address the 
problem, the likelihood of a spill from this source is expected to 
increase. The report recommends that federal agencies continue to work 
with state environmental agencies and industry to evaluate the threat 
posed by aging pipelines and to take steps to minimize the potential 
for a significant spill.
 Author's Comment--The first recommendation on improving discharges has 
        certainly improved in North America. Both Canada and U.S.A. 
        have increased surveillance efforts and enforcement efforts. 
        This is resulting in decreased dumping.
    The second recommendation relates to the aging pipeline 
infrastructure. Although some effort has been undertaken an accelerated 
effort is required.
Consumption of Petroleum
    From 1985 to 2000, global oil consumption increased from 9.3 to 
11.7 million tonnes per day, an increase of more than 25 percent. 
Releases that occur during the consumption of petroleum, whether by 
individual car and boat owners, marine vessels, or airplanes, 
contribute the vast majority of petroleum as a result of human 
activity. Land-based activities contribute to polluted rivers and 
streams, which eventually empty to the sea. Consumption related inputs 
contribute one-third of the total load of petroleum to the sea and 
represent 85 percent of the anthropogenic load to North American marine 
waters and 70 percent worldwide. Land-based inputs are highest near 
urbanized areas and refinery production. More than half of the land-
based inputs in North America are estimated to flow to the near shore 
waters between Maine and Virginia, a region with many urbanized areas 
and also many sensitive coastal estuaries. In North American marine 
waters, land runoff combined with marine boating and use of jet skis 
account for 22 percent of total petroleum inputs and 64 percent of 
inputs from human activity.
    The threat of pollution from urban areas is expected to rise. 
Current trends indicate that by the year 2010, 60 percent of the U.S. 
population will live along the coast. Worldwide, two-thirds of the 
urban centers with populations of 2.5 million or more are near coastal 
areas. In 1990, heightened awareness of the large number and design 
inefficiencies of two-stroke engines commonly used in recreational 
vehicles led the U.S. EPA to begin regulating the ``nonroad engine'' 
population under the authority of the Clean Air Act. The marine 
industry responded by developing cleaner engines in the late 1990s, but 
the report recommends that federal agencies continue efforts to 
encourage the phase-out of the older inefficient two-stroke engines and 
establish a coordinated enforcement policy.
 Author's Comment--The recommendation that the old-style inefficient 2-
        stroke engine be increasing phased out has been partially 
        carried out. Since the report, there have been many 
        improvements in the efficiency of 2-stroke engines and many of 
        these have been replaced.
Significant Cross-Cutting Issues
    Studies completed in the last 20 years confirm that no spill is 
entirely benign. Further, there is no correlation between the size of a 
release and its impact. The effects of a petroleum release are a 
complex function of the rate of release, the nature of the petroleum, 
and the local physical and biological character of the exposed 
ecosystem. Some petroleum components are more toxic than others. 
Polycyclic aromatic hydrocarbons (PAH) are known to be among the more 
toxic components of petroleum, and their initial concentration is an 
important factor in the impact of a given release. Growing evidence 
suggests that toxic compounds such as PAH in crude oil or refined 
products at very low concentrations can have adverse effects on biota. 
This suggests that PAH from chronic sources may be of greater concern 
than was thought 10 or 15 years ago and that effects of petroleum 
spills may last longer than expected. The report recommends that 
federal agencies take several actions to better understand the behavior 
and effects of petroleum hydrocarbon releases.
    These actions include:
        <bullet>  Studying the fate and hydrodynamic transport of 
        petroleum in the sea.
 Author's Comment--This recommendation has not been addressed 
        significantly, perhaps because of poor economic times.
        <bullet>  Developing and implementing a rapid response system 
        to collect in situ information about spill behavior and 
        impacts.
 Author's Comment--This recommendation has not been addressed 
        significantly.
        <bullet>  Significantly enhancing research efforts to more 
        fully understand the risk posed to humans and the marine 
        environment by chronic release of petroleum, especially the 
        cumulative effects of petroleum-related toxic compounds such as 
        PAH.
 Author's Comment--This recommendation has not been addressed 
        significantly.
        <bullet>  Continuing research on effects of releases on wild 
        populations, including a program to assess ecosystems in areas 
        known to be at risk from spills or other releases of petroleum.
 Author's Comment--This recommendation has not been addressed 
        significantly.
    The oil in the sea report also summarized the overall behavior of a 
sub-sea blowout. The following two boxes summarize this behavior.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Jet Phase: The speed of the oil and natural gas being expelled 
from the pressurized, confined space of the pipeline to the open ocean 
makes the oil form droplets and the gas form bubbles.
    Plume Phase: The momentum of these tiny droplets and bubbles drags 
significant volumes of sea water upward into the water column, forming 
a plume. In deeper water, so much water is incorporated into the plume 
that eventually, the oil-natural gas-water mix is no longer buoyant, 
and the plume will stop rising, suspended in the water column at the 
terminal layer. If heavier components sink out of the suspension, the 
plume may reform and begin to rise again past that terminal layer in a 
process known as ``peeling''.
    Post-terminal Phase: Once the plume reaches the final terminal 
layer, the rise of the oil-gas-hydrates is driven purely by the 
buoyancy of the individual droplets and bubbles.
    Once the oil reaches the surface, it tends to form a surface slick 
thinner than that seen during a typical shallow-water release, in part 
due to the diffusion and dispersal of oil droplets as they rise, and in 
part due to the layers of oil arriving at the surface at different 
stages. Much, if not all, of the gas associated with the oil be 
dissolved into the water column. Natural gas released at depths below 
300 meters can form hydrates, a mix of natural gas and water similar to 
ice. Hydrates are dense, so if they form it is likely that the buoyancy 
of the plume would be greatly reduced, increasing the time that it 
takes for the oil and gas to reach the surface.
    From: Oil in the Sea III: Inputs, Fates, and Effects, National 
Research Council, 2003.
4 The Oil Spill Dispersants by the National Academy of Sciences--2006
    (Note: this is my paraphrase of a NAS summary but all opinions are 
mine. Direct recommendations are given in quotes.)
    Oil spill chemical dispersants are surfactant mixtures along with 
solvents which are intended to enhance the production of small oil 
droplets in the water. This is similar to the use of surfactants in 
oil-based or Italian salad dressings. There are many issues with oil 
spill dispersants including: the fact that the dispersions ultimately 
break down the oil rises; the toxicity of such dispersions and the 
effectiveness of products. These issues are covered in the main report. 
The major recommendations in the report are:
        1.  ``Decisions to use dispersants involve trade-offs. Oil 
        dispersants break up slicks, enhancing the amount of oil that 
        physically mixes into the water column and reducing the 
        potential that a slick will contaminate shoreline habitats or 
        come into contact with birds, marine mammals, or other 
        organisms in coastal ecosystems. At the same time, using 
        dispersants increases the exposure of water column and sea 
        floor life to spilled oil.''
        2.  ``The window of opportunity for using dispersants is early, 
        typically within hours to 1 or 2 days after an oil spill. After 
        that, natural ``weathering'' of an oil slick on the surface of 
        the sea, caused by impacts such as the heat from the sun or 
        buffeting by waves, makes oil more difficult to disperse. 
        Therefore, failure to make a timely decision regarding 
        dispersant use can be a decision not to use dispersants.''
        3.  ``Better information is needed to determine the length of 
        the window of opportunity and the effectiveness of dispersant 
        application for different oil types and environmental 
        conditions. Given the potential impacts that dispersed oil may 
        have on water-column and seafloor biota and habitats, 
        thoughtful analyses are required so that decision makers can 
        understand the potential impacts of a spill with and without 
        dispersant application. A focused series of studies is needed 
        to provide the information needed for an effective response to 
        oil spills of all types and in various environments using both 
        laboratory research and, in the event of a spill, field 
        research in areas treated with dispersants.''
 Author's Comment--This recommendation has not been addressed 
        significantly. Dispersant use in the Gulf has largely ignored 
        any of the above considerations.
        4.  ``More accurate methods of predicting the behavior of 
        dispersed oil are needed to better predict the amount of oil 
        that will mix into the water column. Limitations of current 
        methods for predicting concentrations of dispersed oil in the 
        water column include inaccurate representation of the natural 
        physical processes involved in dispersal. Improved 
        representations will allow.''
 Author's Comment--This recommendation has not been addressed. Further, 
        the significant issue of the re-surfacing of oil after 
        dispersion has not been addressed.
        8.  ``Exposure to the air, the heat of the sun, and the 
        turbulence of the waves can ``weather'' oil on the surface of 
        the water, creating an emulsion; but no wave-tank or laboratory 
        studies have investigated how dispersants would work on an oil 
        and water emulsion. Studies are needed to investigate the 
        chemical treatment of weathered oil emulsions.''
 Author's Comment--This recommendation has not been addressed. Further, 
        the researchers have not addressed the technical definition of 
        emulsions.
        5.  ``The recent introduction of safer chemical dispersants 
        means that the toxicity of dispersed oil now typically results 
        primarily from compounds within the oil itself. It is known 
        that breaking up oil slicks into smaller droplets exposes more 
        of the toxic compounds in oil, such as polynuclear aromatic 
        hydrocarbons (PAH), but in general the mechanisms of toxicity 
        are poorly understood. With a better understanding of the 
        toxicity of dispersed oil to marine organisms, data can be 
        generated on toxic levels and thresholds for use by decision 
        makers.''
 Author's Comment--This recommendation has not been addressed.
        6.  ``The factors controlling the biological and physical 
        processes which determine the ultimate fate of dispersed oil 
        are poorly understood. Dispersed oil could accumulate in more 
        stagnant areas, or could be consumed by plankton in the water 
        column and enter the food chain. More detailed information on 
        weathering rates and on the ultimate fate of dispersed oil are 
        needed.''
 Author's Comment--This recommendation has not been addressed.
        7.  ``Data from field studies on the concentration and behavior 
        of dispersed oil are needed to validate models and provide 
        real-world data to improve knowledge of oil fate and effects. 
        Detailed plans should be developed, including the pre-
        positioning of equipment and human resources, for rapid 
        deployment of a monitoring effort for dispersant applications 
        in the event of a spill so that the consequences can be 
        recorded.''
 Author's Comment--This recommendation has not been addressed.
5 Spill Research
    Spill research is an important facet to develop capability to deal 
with oil spills. Many of the current capabilities to deal with oil 
derive from research programs. Research programs/projects may be 
divided into 12 general areas:
        a)  Recovery--This includes physical recovery methods such as 
        skimmers, booms, and sorbents. While there was extensive 
        development in this area in the 1970's, there has been little 
        research other than commercial activity in this area. Since 
        physical recovery is the prime recovery method suggested by 
        several governments, this area should receive much more 
        attention.
        b)  Treatment--This includes chemical treatment such 
        dispersants, solidifiers, surface washing agents, 
        biodegradation agents, etc. It is felt that far too much effort 
        has been put into this area compared to the other areas 
        resulting in generally disappointing outcomes. The agents have 
        never performed as hoped and have consumed great amounts of 
        resources that could have otherwise been devoted to other 
        priority areas.
        c)  Arctic spills--This includes countermeasures in special 
        areas such as the Arctic and the tropics. Performing a variety 
        of countermeasures and understanding spill behavior in special 
        areas such as the Arctic and tropics, requires special efforts 
        and special studies. Similar to recovery projects, extensive 
        efforts had been carried out in the late 1970's and early 
        1980's, but funding stalled out quickly and little work has 
        been done since.
        d)  Burning--In-situ burning has been use sparsely in the past 
        20 years. Several studies have examined emissions and other 
        factors. Some work has been carried out on other facets such as 
        ignition and the use of fire-resistant booms. Only a moderate 
        amount of work would be needed in the future.
        e)  Fate--The fate of oil includes long-term behavior and 
        effects. This area has mostly been studied by post-assessment 
        of spills. Problems with this include the lack of good starting 
        data and the inability to measure critical parameters--
        especially at the start. Good experimental studies of this are 
        very few. Since this is a very important area for assessing the 
        long-term effects of oil spills on the environment, priority 
        resourcing is suggested.
        f)  Behavior--The behavior of oil includes processes such as 
        evaporation, emulsification, dissolution, dispersion, and many 
        others such as plume rise and behavior during sub-sea blowouts. 
        While evaporation and emulsification are now reasonably 
        understood, there remains a large gap in knowledge of the other 
        behaviors. These are fundamental studies and thus in-depth 
        academic/research study is required. It is suggested that this 
        is also an area where more research is required.
        g)  Effects--this includes the toxicological effects of oil on 
        various biota and ecosystems. It is indeed a broad area. Much 
        of the work in the past has consisted of acute toxicity testing 
        on typical test organisms. Much more work is needed on 
        specialized toxicity testing such as genotoxicity, endocrine 
        disrupting capacity, and studies of sub-lethal effects. Long-
        term studies are particularly insufficient. This area is felt 
        to be a priority for the future.
        h)  Analysis--This includes the development, improvement and 
        testing of chemical and in some cases, biological test methods 
        for oil. This area has received little attention in the past. 
        Further, several groups are still using nonstandard and in some 
        cases, inappropriate methods, in their work. Some research 
        efforts are needed in this area.
        i)  Remote Sensing--This includes the detection, tracking and 
        remote sensing of oil spills. In the past this area had 
        received moderate funding in the 1970's and early 1980's, after 
        which resources fell off. More efforts in this important area 
        are needed.
        j)  Modeling--Modeling includes the prediction of oil location 
        and state in the future as well as backtracking, evaluating 
        environmental damage and predicting sub-sea rise and behavior. 
        Modeling inputs are highly depending on information gathered in 
        other categories such as behavior, fate and effects. This area 
        had some funding in the past and is suggested to receive 
        similar funding in the future.
        k)  Risk Analysis and Planning--This is a broad category 
        including such studies as various forms of risk analysis, 
        contingency planning, management analysis, etc. It is suggested 
        that this area receive similar funding in the future, with 
        emphasis on developing new methods.
        l)  In-Situ Remediation--This includes studies of 
        bioremediation and natural attenuation. This area has received 
        some funding in the past. It is suggested that similar funding 
        should be placed in the future.
    My own summary assessment of these research areas appears in the 
attached table along with assessments of project costs, durations, and 
input from the private sector.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

6 Issues in Spill Research
    There are a number of issues in spill research for which I wish to 
present my views.
    A) Highly Variable Funding Researchers in oil spills have, in the 
past, received highly variable funding. This is largely due to 
management perception about the priority of this area. A funding cycle 
typically goes up to high levels after a major spill such as the recent 
Gulf spill. Then two years later, `other priorities' siphon off funding 
and soon the researchers are scrambling just to keep the labs 
operating. It is more typical that the research unit is then closed. 
New units are then opened after the next big spill. This type of 
cycling obviously does not lead to productive research, rather it is a 
waste of resources. It would be much better to fund the programs at a 
moderate level of funding for at least 10 years. It requires 2 years to 
have a new researcher become familiar with the oil spill field and 5 
years to become fully productive. Many funding cycles do not enable new 
researchers to become productive in the field.
    To illustrate the variability of funding the following two charts 
show my own research funding over more than 25 years. This is the 
funding given to the group by their own government agency. These 
figures show the high variability in resources over time. During this 
time the mandate and expectations of the program were about the same.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    B) Impartial `Research' An issue that does arise in the oil 
spill field is that of `biased studies'. There are cases, particularly 
in chemical oil dispersants, where there are results completely 
contrary to those from similar studies. One of the problems is that 
proponents, often oil companies, have funding some of the studies. 
While this in itself is actually good, there are too many cases in 
which the `opposing' points of view are funded by persons or groups 
having an interest in the matter. Rules might be established such as in 
the pharmaceutical industry, to ensure studies are conducted in a 
conflict-of-interest-free environment.
    C) Re-Invention Because research is often started and stopped with 
the various funding cycles, there is much re-invention occurring. The 
start of many research groups is often marked by starting projects 
which had already been done in the past. Often 3 years are wasted in 
this type of re-invention. This is usually due to poor communication, 
lack of proper literature review (topics that will also be covered) and 
sometimes due to regional or local pride.
    D) Literature The literature on oil spills and oil spill research 
is not used by some researchers. The reasons for this are not apparent. 
Currently most important literature is indexed on the searching program 
SCOPUS, to which can be accessed in almost all libraries or institutes 
in the world. Further SCOPUS also accesses important conferences on oil 
spills such as AMOP and IOSC. A personal story illustrates the issue. 
The author of this was recently present at a spill conference in Europe 
and presented a paper in an oil spill behavior session. Upon reading 
the proceedings it was noted that all of the other four authors had no 
references newer than 1982! These were more than 20 years old and many 
significant findings had been made in the meantime. Needless to say, 
all four of these presentations and papers were irrelevant.
    E) Scientific Communication There are few communication fora for 
scientists--especially on an international basis. There are the annual 
AMOP seminars in Canada, the annual Environment Canada Research 
meetings and after that tri-annual conferences in USA, Europe and South 
East Asia. This has also created somewhat of a problem in that often 
communication occurs in only one of these three world areas and little 
communication sometimes occurs between scientists in the three world 
areas. Unfortunately many scientists, especially those from state or 
local organizations, are unable to attend these fora. Sometimes 
researchers never have the opportunity to meet their counterparts in 
other parts of the world or country in their lifetimes. Collaborative 
research is a good way to improve communication. It must be recognized 
that researchers need to directly communicate with each other and to 
attend the usual conferences and meetings as well as to engage in 
collaborative research.
    F) Myths and Re-evaluation A number of myths have been developed 
regarding oil spills, and because of the many communication issues 
noted above, these myths persist to this day. Examples of these 
include: that dispersing oil improves biodegradation, that pour point 
is solidification point, etc. The opposite of these is true. It is 
important that new researchers to the field consult with experts long 
in the field to begin their work on a solid footing. It is important to 
avoid re-invention, but at the same time it is important to ensure that 
essential information is re-evaluated before proceeding.
    G) Transient Research Because the funding for research is 
transient, often research institutes come and go within 5 to 8 year 
periods. This causes several problems. First there is a massive loss of 
resources with much output. Second, the new research institutes often 
draw away resources from older existing institutes. Thus, there is a 
net loss in research.
    H) Good Field Data For most projects there is a strong need for 
good, reliable field data. `Real' spill data would be particularly 
good. Plans have been developed for data collection, but never 
implemented. Collection of such field data was also a recommendation of 
both of the NAS studies noted above. Because of response priorities, 
research data is rarely collected during actual spills. This data would 
be priceless for future work. Further, access to good, qualified data 
should be given to any researcher with a legitimate need.
                                 ______
                                 

    Response to questions submitted for the record by Merv Fingas, 
         Committee on Oil in the Sea, National Research Council

Questions from Chairwoman Madeline Z. Bordallo (D-GU)
1.  Given the scale and complexity of this oil spill and the 
        unprecedented volumes of dispersant that have been used, do you 
        think any of the recommendations in the 2003 and 2006 National 
        Research Council reports should be reviewed or reevaluated 
        based on these events?
    Fingas response--I believe that the recommendations in the report 
are largely valid. Unfortunately, most of the recommendations were not 
followed. I believe both the report and some of the actions in the Gulf 
spill should be re-evaluated after the spill is over.
2.  The 2003 report by the National Research Council predicted that the 
        oil in a deepwater blowout could break into fine droplets, 
        forming plumes of oil mixed with water that would not quickly 
        rise to the surface. Why then are we apparently unprepared to 
        manage the current situation?
    Fingas response--Unfortunately the oil will still rise to the 
surface, albeit in 1 or more days. Thus the dispersants really do not 
make an overall difference in a situation such as the Gulf spill where 
the currents largely keep both the surface and sub-surface oil in the 
same general area. Over one week about the same amount of oil is in the 
near surface area in the Gulf, irrespective of the amount of 
dispersants used.
3.  Can you explain why studying the ``fate'' and ``effects'' of an oil 
        spill should be given priority in future efforts?
    Fingas response--The fate and effects of oil spills are important 
in that we need to understand these in the context of oil spill 
countermeasures as well as for environmental purposes. The fate and 
effect of dispersed oil, as an example, is very important in deciding 
whether to use dispersants or not. In some cases the long term fate and 
effects of an oil will make a very large difference to decision-making 
on spill countermeasures at the time of the spill.
4.  The 2006 report by the National Research Council recommended the 
        development of detailed plans, including pre-positioning assets 
        for rapid deployment of a monitoring effort for dispersant 
        application in the event of a spill. How could such a plan have 
        changed efforts to respond to this oil spill? Should such 
        planning, training and prepositioning and deployment of assets 
        and equipment be required as a precondition to any new offshore 
        oil and gas permits for drilling in OCS regions previously held 
        under moratoria?
    Fingas Response: There was little pre-positioning in the Gulf spill 
case. Several monitoring efforts were carried out, however for short 
periods of time. Because of the vastness of the area and the large 
amount of oil, it was impossible to truly assess effectiveness over a 
longer period of time, a day for example. Future planning should 
primarily focus on developing a strong scientific plan to measure 
dispersant effectiveness over at least a 12 to 24 hour time span. 
However, rather than strengthen monitoring plans, I suggest the use of 
dispersants be re-evaluated. In my opinion, there is no scientific 
evidence that dispersants contributed to improving the situation in the 
Gulf of Mexico.
Questions from Ranking Republican Member Henry Brown, Jr. (R-SC)
1.  Dr. Fingas, you mentioned that: ``Oil spills created a global 
        awareness of the risks of oil spills and the damage they do to 
        the environment''. If that is true, why do you believe that 
        most of the recommendations contained in your 2003 Oil in the 
        Sea Report have been ignored?
    Fingas response: I believe that the recommendations in the 2003 
report were largely ignored because of the lack of funding and also 
because of a significant turnover in staff in the last decade. Many of 
the researchers and oil spill staff in governments and industry have 
changed in the past decade. Most organizations reduced staffing during 
this time period, thus existing and new staff had too many priorities 
to deal with. Examples of that also occurred in my own organization 
where during this same decade we saw a reduction in funding of over 
half, both in staff and in direct funding.
2.  Could you update the Subcommittee on the top five sources of oil 
        being spilled into our seas?
    Fingas response: The major sources according the NAS 2003 report 
are:
        a)  Seeps--These account for about 57% of the estimated 2003 
        discharge. It must be stressed that seeps discharge oil slowly 
        over a large area, an area that has long since been acclimated 
        to deal with oil.
        b)  The second largest discharge is the release by consumers of 
        petroleum hydrocarbons. This includes direct discharges into 
        waters and land runoff. This is estimated to account for 32% of 
        the discharge into the sea.
        c)  The third largest source is the discharge at sea through 
        spills, such as tanker accidents and operational discharges. 
        These spills are believed to account for about 12% of spills.
        d)  The fourth largest source of spillage was estimated to be 
        associated with extraction processes such as discharges from 
        offshore drilling platforms. This was estimated to account for 
        3 percent of oil releases.
    There was no fifth source defined as the sources were grouped 
according to the above categories.
3.  Based on your assessment of the causes of oil spills, as a matter 
        of public policy are we better off encouraging greater imports 
        of oil transported on tankers or offshore energy development?
    Fingas response: I still believe that offshore energy development 
should be the focus. AS a cause of spills the Gulf oil spill is a very 
rare event.
4.  What is the status of the National Academy of Sciences efforts to 
        update its 2003 Report?
    Fingas response: The National Research Council (the operating arm 
of the National Academy of Sciences) does not have independent 
resources to undertake studies or update reports. Studies are funded 
through federal agencies in response to requests from Congress, through 
a direct request from federal or state agencies, or, in some cases, 
private foundations. The Ocean Studies Board, the lead unit of the 
National Research Council on the Oil in the Sea report, would certainly 
consider a request to update the 2003 report. I cannot speak for the 
Academy, but in my opinion, priorities for updating the 2003 report 
include: the sharing of scientific information at this time, re-
evaluation of all previous reports, and examination of the many gap 
areas. Examples of gap areas include the development of good data sets 
on real spills for further studies, studies of other countermeasures 
such as physical recovery and burning and longer-term studies of fate 
and effects.
5.  How much oil is naturally seeping near the Santa Barbara spill in 
        California? How does this compare with the actual amount 
        spilled in 1969? How is this oil being removed from the coastal 
        environment?
    Fingas response: The amount of oil seeping naturally near Coal Oil 
Point (near Santa Barbara) is estimated to be 100 to 150 barrels per 
day. The oil well blowout near Santa Barbara released an estimated 
80,000 to 100,000 barrels of oil over a 6-day period. This amounts to 
about 1000 times the oil released in one day by the adjacent seep.
    It might also be noted that the Coal Oil Seeps release a large 
amount of petroleum gases as well (methane and other gases like 
propane), which are not counted in the liquid discharge rates.
    The oil released from the Coal Oil Seeps are dealt with (by nature) 
in several ways: evaporation, tar ball formation, oil mat formation, 
plant coating and by biodegradation and consumption. Some of the oil 
leaves the seep area as slicks or in tar balls. There are many tar 
balls along the nearby shorelines. Some of these are manually removed 
by locals.
6.  You make a comment that: ``Using dispersants increase the exposure 
        of the water column and sea floor life to spilled oil.'' Can 
        you expand on why this is a problem and if it would be a better 
        option to not using dispersants?
    Fingas response: Increasing exposure to oil increases the toxicity 
and the uptake of oil by organisms. Previous experience and data show 
that the use of dispersants will sometimes increase the exposure of oil 
to marine organisms such that toxicity is the result.
    The use of dispersants in near shore (water depth of less than 50 
to 100 feet) is not a good option as toxicity is often the result.
7.  If the best time to use dispersants is 1 or 2 days after an oil 
        spill, is it appropriate to still be using them on Day 57?
    Fingas response: Using dispersants after 1 or 2 days is futile and 
will not result in significant effectiveness. It is not appropriate to 
use dispersants on oil on Day 57, given that this oil has been out 
there--or is this fresh oil? The issue is how long has the target oil 
been out in the environment.
8.  What is the impact of using Corexit as a subsurface dispersant on 
        marine life in the water column?
    Fingas response: This is relatively unknown as it has not been 
studied. The first approximation is that it would be similar to surface 
studies, but this may not be correct.
9.  Would you have recommended the use of dispersants in this spill? 
        Why or why not?
    Fingas response: In the Gulf spill situation, I would not have 
recommended the use of dispersants because the surface and subsurface 
oil do not move much, thus negating any benefits from using dispersion 
techniques. Dispersed oil re-surfaces after time (1/2 day to 2 days) 
thus if the sub-surface and surface oils remain in the same area, there 
is no benefit. Further, a sub-surface release results in highly 
weathered and often emulsified oil, on the surface. Dispersants are not 
effective on such weathered or emulsified oils.
10.  Why do you believe federal agencies were unable to learn any 
        lessons from the Exxon Valdez spill, the Ixtoc I spill or more 
        recent tanker spills?
    Fingas response: I believe that the previous spill experiences were 
largely ignored because of the lack of funding and also because of a 
significant turnover in staff in the last decade. Many of the 
researchers and oil spill staff in governments and industry have 
changed in the past decade. Most organizations reduced staffing during 
this time period, thus existing and new staff had too many priorities 
to deal with. Further, there was little education on past spill lessons 
for a variety of other reasons. Many people believed that 'new' 
techniques and procedures negated the value of prior experiences.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. Fingas, for your 
expertise and your recommendations. And we do have questions 
for all of the panelists, and I will begin with myself. David 
Kennedy from NOAA, this incident has exposed the liabilities of 
not having in place an integrated ocean observation capability 
in the Gulf, which has been pared back substantially over the 
past two years due to the cuts in the NOAA budget. Fortunately, 
NOAA has recently found funds to redeploy some of the assets, 
such as high frequency radar and gliders, to bolster ocean 
observations and improve our ability to forecast and project 
the movement of the spill.
    Can you please, Mr. Kennedy, update the Subcommittee on 
what NOAA has done to restore ocean observation assets in the 
Gulf?
    Mr. Kennedy. As I stated in my testimony, those 
observations are essential to us being able to provide some of 
the products and services. Everything we would like to do in 
observations in this country we haven't been able to do, 
obviously. Funding is limited, and you always have to make 
decisions. We have as a result of this spill been able to bring 
many, many other assets that we didn't have funded, or haven't 
been able to acquire the funding for, to the scene, and 
actually execute everything from, as you suggest, gliders to 
some additional HF radar ships that are all on the water that 
wouldn't otherwise have been, AUVs. The list goes on and on. 
There is a partnership with the community in the Gulf, 
including Department of Defense, to bring those other assets to 
bear in this crisis. The funding for all of those types of 
things either is funding that has been diverted from other 
places or funding directly in support of the incident command, 
the unified command. So, that is the Coast Guard and so on.
    So, we have provided a whole suite of new observational 
tools, but they come from communities where that was not 
standard practice and things that we were able to fund. So, we 
have the tools there, but it is because of the crisis, and we 
could always use more.
    Ms. Bordallo. Mr. Kennedy, how long does NOAA intend to 
maintain these assets?
    Mr. Kennedy. Well, certainly for the extent of the crisis 
now. And so as we look at there being oil into whenever the 
additional wells are drilled and the well release is stopped, 
we will keep those assets in place, and the probably beyond 
because there will be oil in the water and need to continue to 
track it for some time after the well has stopped. So, 
certainly into the fall, but we don't have the long-term 
funding stream to keep all those assets in place.
    Ms. Bordallo. So, until the fall. Is that what----
    Mr. Kennedy. Certainly into the fall. It depends on how 
many times we have interruptions in the drilling process over 
the course of the summer, but we are thinking September, 
October, at a minimum.
    Ms. Bordallo. So, for the Subcommittee records, do you 
agree that the Federal Government and BP's understanding of the 
spill, and response to it, could have been far more efficient 
and cost-effective had a regional, integrated, ocean 
observation system been up and running?
    Mr. Kennedy. Well, we had a system up and running. But what 
I am suggesting is that we have additional assets that we have 
had to bring on beyond what the Integrated Ocean Observing 
System had available to it.
    Ms. Bordallo. So, the system that you had up and running 
wasn't adequate?
    Mr. Kennedy. It was not comprehensive. We have a budget 
that is a national budget, and we have to very carefully look 
at how those assets are deployed nationally, so we could always 
do more than we have done, and you have heard about all the 
things we have put in place.
    Ms. Bordallo. All right. I have a couple of other questions 
for you. As you know, NOAA's Office of Response and Restoration 
has been severely underfunded for the past several years, and 
as a result had to initiate a stringent workforce restructuring 
plan to downsize operations. Do you feel that this downsizing 
impaired NOAA's ability to respond to the Deepwater Horizon 
spill? And what additional skill sets does NOAA need to restore 
the capabilities?
    Mr. Kennedy. Over the last several years, yes, we have seen 
decreases in that budget, and as a result have had to right-
size, if you will, that organization. And as a result, we lost 
contractors and Federal employees to get to that location, or 
at least transferred Federal employees to other places. Our 
feeling, for some time, has been that capacity, if it were 
stretched by a very significant spill or two events at once, 
could certainly compromise our ability to respond nationally, 
and this crisis has certainly shown that those limited 
resources have made it difficult for us to do everything we 
would like to do.
    That having been said, we have managed within NOAA to bring 
back retirees, some retired as long as 10 years, and tap other 
sources within NOAA, taking them away from their primary 
missions, to supplement the activities that the Office of 
Response and Restoration is responsible for on-scene and 
operationally. So, I believe we have been able to be creative, 
but if we hadn't done that, our capacity is somewhat limited, 
and we can do more.
    Ms. Bordallo. When did you bring back these former 
employees? Was that just for this spill, or were there on----
    Mr. Kennedy. No. Just for this spill, as our 
responsibilities increased. And as you have heard, command post 
and area command and an incident command, and one in Mobile, 
and so on and so forth, across the country. Every place there 
is a Coast Guard, NOAA needs to be there to provide the 
operational scientific support. And so as our responsibilities 
and the complexity of the issues increased, we started looking 
for other people to bring in, and we probably have as many as 
10, 12 retirees back, but as a result of working for us 
directly on this spill.
    Ms. Bordallo. Now has this under-funding limited NOAA's 
ability to aggressively pursue the creation of a new oil spill?
    Mr. Kennedy. Of a new----
    Ms. Bordallo. Trajectory models.
    Mr. Kennedy. We have been working on a three-dimensional 
model. That has been one of the things that we felt, as we have 
looked at the deeper and deeper exploration, needed to be in 
place, and we have invested where we could. Obviously, if we 
had more resources, we could have moved that along quicker. We 
have been doing the best we can with the resources we have, 
though, to look at new models that we think are absolutely 
essential as we get into these kind of complex issues.
    Ms. Bordallo. Thank you very much, Mr. Kennedy. I now 
recognize the Ranking Member, Mr. Cassidy.
    Mr. Cassidy. Mr. Kennedy, we have had all of these people 
speak, and I have had the opportunity of going to my university 
in my home town, LSU, which has done a lot of this work. And I 
see Dr. DePortier has a microbe that they used, I think, in the 
Lake Barre spill that had been chewing up bacteria in that 
spill, and they felt like it has proven efficacy. So far, it 
has not been considered for this marshland spill. It makes me 
think that all of our responses are ad hoc. It is not like, OK, 
if there is a spill in a marshland area, this is how we do it. 
Rather, it is kind of like, oh, my gosh, let us bring the ship 
back from Africa. Let us try and hire a couple of boats that 
don't belong to us. Let us marshal resources, and let us figure 
out how we do this going along.
    Now, is that a fair or unfair perception I have?
    Mr. Kennedy. I think every spill is unique, no question 
about it. And as a result, you have to be adaptive. Every spill 
is different, and you have to be adaptive.
    Mr. Cassidy. But, nonetheless, physics and biology are 
principles which apply in all situations. If there is a 
marshland spill in Lake Barre or Lake Peigneur, and we know 
that there is a certain marshland there, which granted there 
are issues peculiar to that, it seems like there are lessons 
that can be applied.
    Mr. Kennedy. The rest of my answer was that having been 
said, there is a significant amount of research that has been 
done for marsh cleanup, for instance. We have an international 
oil spill conference every two years, been doing that for 30, 
40 years, something like that. We went back just recently, as a 
result in part of listening to some of your questions in 
previous hearings, and I think dug up 70-some specific 
presentations at the last several oil spill conferences that 
looked at marsh cleanup, and either research or direct 
experience from cleanups, and how they came out, and lessons 
learned.
    So, we have many experts on the ground working directly on 
this spill that have either been involved in that research, 
been involved in a hundred spills in their careers, that have a 
lot of expertise on marshes.
    Mr. Cassidy. So, let me ask you again just because I 
haven't spoken to him directly, but I saw a press report.
    Mr. Kennedy. Yes.
    Mr. Cassidy. Dr. DePortier, who again was involved, I 
think, in Exxon Valdez, but also, I gather, in coastal 
Louisiana. He has got this bacteria that he says chews it up. 
We lay it out now; it is gone by--or at least mitigated by 
Christmas. And yet somehow he feels like he can't get a hearing 
on that.
    Mr. Kennedy. So, there has been a lot of work done on that 
bacteria. I am not specifically referring to the one you are--
--
    Mr. Cassidy. Yes.
    Mr. Kennedy.--addressing, but in general. And so we have a 
lot of experience with that kind of approach. I was at the 
Exxon Valdez and involved in the science there. I worked to 
look at some of those types of applications. What we have been 
saying pretty clearly to those--and I get calls daily, many of 
them being from folks that have some sort of a microbe-eating 
or an oil-eating microbe--our experience is that if you have a 
controlled environment, like a lake, that the application of 
those microbes may do some good. But when you have an open 
ocean environment, the one thing that we have research on is 
very clear, is that the microbial activity quadruple--oh, much 
more than that, that the microbial activity, those microbes 
that are eating the oil, just exponentially expand, and you 
have a natural environment where those microbes are actually 
very, very aggressively at work. And to apply another type of 
thing to what Mother Nature is doing a great job, in an 
uncontrolled environment, where you don't know where it is 
going to be next.
    Mr. Cassidy. Now, let me interrupt you because this is very 
good. Thank you for the interchange. When you say Mother Nature 
is doing a great job, it suggests you have a measure of 
optimism about how Mother Nature is currently dealing with the 
oil in the marshes.
    Mr. Kennedy. I do have a measure of optimism, quite 
frankly, and that comes from a lot of years of my own 
experience and the type of oil that we currently have at that 
marsh. That oil is highly degraded. The very, very toxic ends 
that are of the greatest concern to us in a marsh are missing 
by the time it gets to shore. That having been said, are there 
issues? There most certainly are issues, and they have to be 
addressed. But there are a number of techniques for cleaning 
marsh that we have been recommending that I think may be used. 
And quite frankly, one of those is to leave it alone because if 
you get in there and start messing around with it, you may make 
it worse than it is already going to be.
    Mr. Cassidy. Now, let me ask you two more things, if I may. 
I was told--and again, I have learned in this job to say what I 
have been told, not what I know--that about a year or two ago, 
that NOAA was approached. It was recommended by academics that 
you purchase an ROV to begin to do research in the ultra-deep 
and the deep, and NOAA said, no, we don't need to do that. Now 
is that true or not true, or no money, or what?
    Mr. Kennedy. I don't have firsthand knowledge of that. I 
know that in NOAA we have been discussing ROVs and their 
application for some time. We certainly have been using private 
enterprise to do some of that. But I may have somebody on the 
panel that can help me. I can't specifically answer. I would be 
happy to get back to you.
    Mr. Cassidy. Dr. McNutt is raising her hand.
    Mr. Kennedy. She is writing me a note, and I would just 
prefer she speak, if she has the right----
    Dr. McNutt. NOAA is commissioning, through their ocean 
exploration program, an ROV for their flagship, the Okeanos 
Explorer, and that ROV is coming online.
    Mr. Cassidy. Is that in reaction to this, or was that a 
plan?
    Dr. McNutt. No, no. That is a plan that has long been----
    Mr. Cassidy. Got you. Last, just because I am out of time, 
not that I don't have more questions, you mentioned that there 
are a lack of dollars, and I look at your budget for your--I 
don't have the acronym. Ocean Observations Regional 
Observations program, your Fiscal Year 2010 enacted budget is 
27 million. Your Fiscal Year 2011 present request is 14.6 
million. It seems like you are saying that you don't have 
enough money, but you are cutting your budget, which requires, 
I guess, a note of explanation.
    Mr. Kennedy. Well, I would like to submit something 
specifically, but it is my understanding there is an anomaly in 
those numbers you have that the budget is stable. It hasn't 
increased, but that the budget over the last two or three years 
has been pretty much stable. So, there is an anomaly in there, 
and I can't give you the exact reason for that, but I would be 
happy to get back to you.
    Mr. Cassidy. Yes, because it looks like your request is 
down 12 million relative to last year.
    Mr. Kennedy. There is an anomaly in there, but I have been 
told by the IUS people that there hasn't been--they 
specifically tell me that there has not been a decrease, but 
there is an anomaly in there that I can't address you.
    Mr. Cassidy. I yield back.
    Ms. Bordallo. I thank the Ranking Member. I have one 
question before I recognize the next member of the Committee. 
Last week, I was in Guam, which is my home district, and I 
boarded the NOAA research ship out there. I understand it is 
equipped with the latest scientific--would this ship be of any 
use in something like this? I was very impressed with what they 
can do.
    Mr. Kennedy. Possibly. You should know that we have a 
number of vessels throughout the Nation stationed in different 
places, and over the last couple of months, a number of the 
missions of vessels that are more directly in and around the 
Gulf area have been repurposed and now are on sometimes their 
second and third mission, specifically supporting the oil spill 
response.
    What we have tried to do is understand that the whole 
agency shouldn't grind to a halt to do this, that we have many, 
many other very compelling responsibilities. And to the extent 
that we can we haven't tried to bring the whole fleet back from 
the world to do this. If we felt like we could either contract 
with academic institutions or use our ships more closely to the 
scene--and that is what has happened. And so those ships that 
are far, far away, we are trying to let continue to do their 
very, very important missions where they are.
    Ms. Bordallo. Well, I know, Mr. Kennedy, you have 
approximately 10, is it, NOAA vessels. But this is supposed to 
have the very latest scientific equipment on board, and they 
are over there in the Marianas Trench area. So, I just 
wondered. I mean, that is a deep area.
    Mr. Kennedy. I am not familiar with the specific vessel, 
but I think the technology that you may be referring to is 
actually on a vessel that is in the theater in the Gulf now and 
doing similar work. And I think it has to do with some of our 
surveying and charting side of the house.
    Ms. Bordallo. Well, thank you. I would like now to 
recognize the gentleman from CNMI, Mr. Sablan.
    Mr. Sablan. Thank you very much, Madame Chair, and thank 
you for leadership on all these important issues facing us 
today, not just the spill, but on every day with wildlife. I 
believe that whenever oil touches water, we have lost the 
fight. But also lives have been lost in this disaster. 
Livelihoods have been disrupted. And, of course, living 
organisms may be affected for a very, very long time. I also 
think that the response by Federal agencies have been 
inadequate.
    I am very happy that our President is down there for the 
fourth time, and that he is going to be addressing the Nation 
tonight. And I hope he could start kicking some behinds, not 
just for the private sector, but with Federal agencies. I 
really believe that the response there has actually been no 
response. We have been reacting to some of these things. And, 
of course, again today, you know, we are saying that if we had 
the resources, if we had more money, we would have been able to 
respond. But this is something I hear every time there is a 
major event in the nation, if we had more money, and we never 
seem to have enough money going anywhere.
    But again, I am not blaming anyone at the table today. Some 
of you have done really good jobs, too. But, Dr. McNutt, your 
testimony, you mentioned that the U.S. Geological Survey's 
presence is in all of the 50 states and Puerto Rico. What about 
the territories? You know, there are other places. We have 
American Samoa, Guam, the Virgin Islands, and the Northern 
Marianas, which right now has three active volcanoes that are 
always spewing something up there.
    We had people actually on one of the islands just right 
next to the volcano, and it erupted because there is no way for 
them to tell that it was going to erupt. There was ground 
shaking, and then the next thing we know, they erupted, and 
those places don't even have radios. And other Federal agencies 
send people up there. I mean, I am not talking about a couple 
of people at this time. There were over two dozen people up 
there doing surveys for eventually for something we have 
absolutely no--what happened? Is it more money?
    Dr. McNutt. Well, we have a volcano hazards program. And 
the truth is that volcano hazards and volcano eruptions are one 
of the hazards that is forecastable with instrumentation in 
place.
    Mr. Sablan. Exactly.
    Dr. McNutt. And in this particular case, we are working 
through our funding to make sure that volcanos that are viewed 
to be in imminent danger or forecast to be in populated areas 
are indeed monitored. And I don't know in the case of these 
particular volcanos whether they were being monitored. I do 
know that there have been a number of wonderful examples of 
volcano warnings that were put out in a timely fashion. And for 
the record, we can get back to you on this particular one, as 
to whether--where it is on the schedule to be instrumented, and 
whether it will be or not. But----
    Mr. Sablan. Thank you. And actually, you know, these are 
uninhabited islands, and I fly over them all the time, going to 
catching a flight, trying to get to the East here back. 
Airplanes fly over these islands.
    Dr. McNutt. Yes.
    Mr. Sablan. And that is the last thing we need, is for one 
of these volcanos to explode and hit an airplane. Then we would 
be hearing if we had more money. And we are here for a 
different reason.
    Dr. McNutt. Yes. The truth is that our focus has been on 
inhabited islands, and through a program that we had in 
conjunction with the FAA, we did have funding for the aircraft 
safety.
    Mr. Sablan. But I am just bringing this up, and thank you. 
But no. Thank you for all of the things that you have done. 
NOAA has been a good partner in the islands. And USGS, too, has 
done some good for us. Madame Chair, I thank you, and I yield 
back my time.
    Ms. Bordallo. I thank the gentleman from CNMI, and now I 
would like to recognize the gentleman from Virginia, Mr. 
Wittman.
    Mr. Wittman. Thank you, Madame Chairwoman and members of 
the panel. Thank you so much for joining us today. I want to 
begin with Mr. Kennedy and Dr. McNutt. I was interested in your 
comments about this idea of lack of resources, and that 
resources were directed in other areas outside of research 
toward the effective oil spills and, specifically, in these 
deepwater areas. I am wondering that in the decision making 
process, it seems to me that there were some decisions about 
priorities, some decisions about risk.
    I would be interested for you to tell us then if this 
scenario, understanding a deepwater spill, understanding the 
effects on the environment in these areas, under this sort of 
condition, what took a higher priority in funding outside of 
understanding a spill? What directed both of your agencies to 
say, you know, we are not going to put any more resources to 
understand what a catastrophic spill may look like in a 
deepwater area, Gulf area, or otherwise. But we are going to 
make a decision to direct the resources elsewhere.
    Tell me, what else out there is a bigger risk? What took 
priority over understanding the full scope of what a spill like 
this would create for the Gulf region?
    Mr. Kennedy. That is a tough question. However, again, I 
don't want to overplay the years of being involved in oil 
spills, but I have been involved for a long time, 25-30 years. 
And historically, what you see is a cycle. That is exactly 
where we are now. This cycle over the course of the majority of 
my career was about five years. You would have a major event, 
then a number of other things would come up. The event was 
over, you didn't have anything new, you lost the publicity you 
had, whatever the issues of the day were. And certainly, there 
are many that I can think of that have been pressing and 
concerning us, including climate change, of course, but a 
variety of other things that you could list as priorities.
    But with the passage of the Oil Pollution Act, an extended 
period of time beyond the five years, to where, you know, a 
major spill is considered 100,000 gallons or more, we haven't 
had that many major spills since the Exxon Valdez, and 
certainly nothing that even begins to approach the Exxon 
Valdez. And so there is a very difficult challenge in any 
organization. And when you think of all of the challenges in, 
say, for instance, NOAA, as an agency, oil spill response is 
one of 100, 200, 300. And to compete when there is some of that 
lack of urgency, and the Oil Pollution Act seems to be 
extremely effective, you have a difficulty. And so it is not 
that we haven't continued to plug along. We have. And that is 
why we have some of the expertise we have today. That is why we 
have trajectory models that have been quite effective. That is 
why we have a damage assessment program that has been out there 
since the inception of this spill, with our other Federal and 
state partners.
    So, it is not like we haven't been there. But I think it is 
a fact of life that when you don't have a major event, it is a 
hard time to convince people that it is the most pressing thing 
until you have the next one.
    Mr. Wittman. Dr. McNutt?
    Dr. McNutt. Yes. The USGS has a very vigorous hazards 
program that is quite distinguished in its work in earthquake 
hazards, volcano hazards, flood hazards, fire hazards. And we 
can't get through a year, a season, without making major 
headlines for the lives we saved and the property we have saved 
through the forecasting and the hazard reduction through those 
programs. And the good work through those groups and the 
industries that back them, through their efforts, by saying, 
you are helping through your collaborative work with the 
industries to show where hazards are great by working with the 
industry to make buildings better, by making highways safer, 
showing people where to build, showing how to work in the 
wildland fire-urban interface, and work to make that zone 
safer, et cetera, how to help people who are in flood districts 
understand how to mitigate their flood risk, et cetera, whereas 
when we look at the oil problem, we have the industry telling 
us over and over again there is no problem. You don't need to 
worry about this. Ships are safer. Platforms are safer. 
Drilling is safer. We have everyone telling us that there is no 
problem. And whereas in all of these other areas, the industry 
is working hand-in-glove with the USGS to help us identify 
those hazards and reduce the hazards, and every season we find 
the risk happening and the hazards. We work to reduce the 
hazard and make the American people safer.
    Mr. Wittman. Thank you, Madame Chairwoman. I would say in 
this case, though, that what the industry was telling you 
obviously was wrong.
    Ms. Bordallo. I thank the gentleman. And now I would like 
to recognize one of more senior members of our Subcommittee, 
the gentleman from Michigan, Mr. Kildee.
    Mr. Kildee. Thank you, Madame Chair. First of all, I would 
like to commend the witnesses. Collectively and individually, I 
admire you for what you are doing. Knowledge is power, and very 
often we have little or no idea where that knowledge may lead 
us or how that knowledge may be used. But we must constantly 
pursue that knowledge. And I have been here in Congress now for 
34 years, 12 years in the State Legislature, and every year you 
will have someone offering an amendment, amending a bill, 
cutting out this research. Very often it is the reproductive 
life of some species, and say this is a silly waste of taxpayer 
money. But we have to be aware. As a matter of fact, one famous 
senator, Senator Proxmire was someone for whom I had high 
regard, but not in this area.
    He used to award the Golden Fleece award, and would offer 
amendments to cut research. But research is extremely 
important. And what you do very often, you may not know where 
that may lead or how that may be useful. But just research 
itself and the funding of research is very important. So, I 
commend you for what you do. We want to make sure we don't have 
any intellectual Luddites in the area of research or in the 
area of lawmaking.
    So, something that you may have started, or one of your 
partners may have started, years ago in research leads on to 
more and more. And the more we know about the earth, the planet 
earth, and that around it, what it is made up of, what its 
various living organisms can do, the more that can help us in 
addressing problems.
    So, I just wanted to make a statement that I have great 
admiration for those of you who really have dedicated yourself 
to that area of our search for knowledge. And I thank you very 
much. Thank you, Madame Chair.
    Ms. Bordallo. I thank the gentleman from Michigan, Mr. 
Kildee, and I would like to now recognize Carol Shea-Porter, 
the gentlelady from New Hampshire.
    Ms. Shea-Porter. Thank you very much. Mr. Kennedy, I 
listened with great interest. You said you had about 25 years 
experience. Am I correct in that? And how long have you worked 
for NOAA?
    Mr. Kennedy. About 21 years.
    Ms. Shea-Porter. OK. So, let me just read a little bit of 
your testimony again. Let me tell you where I am going with 
this. I appreciate the fact that everybody is working so hard 
on this. I appreciate the fact that everybody worked so hard 
after Valdez. I appreciate the work we always do afterwards. 
But I need to know, my constituents need to know, Americans 
need to know, why we are always on the job afterwards. What 
happened between Valdez and now? What was NOAA doing? What were 
these conversations about? Why, why could we be in this mess 
right now?
    The more we learn about this, the more disgraceful it is. 
When you are saying don't worry, don't worry, the oil company 
is in charge, this is of great concern because I thought NOAA 
was in charge of our coastline and protecting our assets. I 
thought other Federal agencies were in charge. I thought the 
MMS was supposed to be in charge.
    So, I am trying to look back because otherwise we are going 
to sit here again. I don't know if it will be a year, five 
years, ten years. We will be sitting here again, and we will be 
talking about my personal favorite phrase, ``lessons learned,'' 
whatever that means, lessons learned. So, please let me ask you 
a couple of questions. First of all, you said that NOAA is a 
natural resource trustee, and it is responsible for protecting, 
assessing, and restoring.
    Well, if it is a natural resource trustee, and you said 
that you were at hearings--I don't know if NOAA held them or 
you just attended international oil spill conferences. What did 
you talk about? Did anybody ever say--let me add this. Did 
anybody say--like when my boy was ten years old, he and his 
friends would get together in a room and imagine the worst 
thing that could happen. Did you ever talk about the worst 
thing that could happen?
    Mr. Kennedy. I think we did. And let me just back up and 
say that at the time of the Exxon Valdez spill, we heard the 
same sort of indignation in hearings that I was involved with 
then. That really resulted in the Oil Pollution Act. The Oil 
Pollution Act has a title, a research title, Section 7. 
Meetings were held across all of the Federal, state, and local 
academia to talk about what that plan should look like, a 
research plan. It was developed. We can go back and show you 
that plan.
    For the most part, the investment that would be required to 
follow through with that, from lessons learned, never occurred, 
as far as I know. Did NOAA and a few others go out and try and 
do what we could with the resources that we had? We have done 
long-term studies as a result of the Exxon Valdez, not only 
looking at cleanup methodologies that worked and didn't work. 
During that spill, we actually got Federal, state, and local 
entities to allow us to leave some areas unclean so that we 
could go back and look.
    So, we have done a variety of things, including, as we saw 
more and more dollars dry up across the rest of the Federal 
agency and industry. There was something called the Marine 
Spill Response Corporation developed by industry after Exxon 
Valdez. This was a nationwide effort, $60 to $70 million a year 
in research and development to look at these kinds of things. 
That lasted for three or four years, then it dried up. We 
looked at the American Petroleum Institute that had money for 
research. It went away.
    So what happened, at least in NOAA's case, is we developed 
a partnership with the University of New Hampshire and 
developed a small research----
    Ms. Shea-Porter. I know. And they didn't get money. They 
haven't received money since 2007 for their----
    Mr. Kennedy. Correct.
    Ms. Shea-Porter.--for their coastal cleanup.
    Mr. Kennedy. Correct.
    Ms. Shea-Porter. So, let me pull us back into focus again. 
You said it went away. Under which Administration? And was 
there any protest? It is not good enough to say the money went 
away. I feel that if you knew and feared this, and others in 
your job and in these agencies feared that this could happen, I 
think the response should have been a lot larger than it was. I 
hear your frustration, and I am glad that you did reports. But 
I think if the average American had known--and I think it is 
the job of Federal agencies to be those bulldogs for us--and 
had stood up there and said, hey, guess what, they are putting 
leases out there; we have no idea what to do. And we just 
thought that the American public needs to know that. There 
needed to be a very, very public challenge.
    What we are uncovering right now is astounding, absolutely 
astounding. And I am just wondering if the agencies, the 
Federal agencies that were involved in protecting and 
assessing, were ever invited to the table to talk to the oil 
industry when we had a previous Administration developing oil 
policy? Were Federal agencies involved, or was this all just 
the oil company making their own decisions, running everything, 
and telling agencies like yours that, don't worry, we have it 
under control, because if we don't get more aggressive, and if 
we don't take on the role of guardian, then we will fall victim 
to this again and again and again.
    So, when you have that oil spill conference, was that a 
central topic, that this could happen, and were there Federal 
agencies there saying, we don't know what to do? We have had 
several hearings now, and the general consensus is that we 
didn't know enough of what we were doing. We didn't know the 
impact on the oil. We don't know if this would actually have a 
blowout. We wouldn't know how to stop it. It is unbelievable 
what we didn't know. And I talk about the arrogance of moving 
forward when we don't know this. And now here we are.
    So, at the international oil spill conference, can you tell 
me who attended?
    Mr. Kennedy. It was a cross-section of everybody, from 
industry to all the Federal agencies to state and academia. It 
represents anyone that has an interest or an investment or 
academic research.
    Ms. Shea-Porter. OK. So, in the very basic, simple terms, 
did any of you walk up to any of the guys in the oil industry 
and say, hey, do you know how to cap a well?
    Mr. Kennedy. I don't recall asking that specific question, 
but it is a forum to get people together to say what is the 
state of the state and what else needs to be done.
    Ms. Shea-Porter. Yes, but here is the question, OK? You may 
talk about oil spills, but did anybody with the oil companies 
sitting right next to you, right--you are all there together. 
Did anybody say, does anybody know what to do if we have a 
problem like this in the Gulf? Was did you ever have a tabletop 
model exercise?
    Mr. Kennedy. I cannot recall that. Does that mean it didn't 
exist or didn't get asked that way? Maybe. But I certainly 
wasn't involved in that, and I can't recall it.
    Ms. Shea-Porter. This seems to me to be the very first 
question when you start talking about oil spills, not what do 
we do and how will we do the science, but how do we prevent it. 
And so far, I am bitterly disappointed that I haven't heard 
anybody say that we stood up to the oil companies and said, you 
know what, I don't think you guys know what you are doing yet. 
Thank you. I yield back.
    Ms. Bordallo. I thank the gentlelady from New Hampshire. We 
have a second round of questions here that have been asked, and 
I do have a few myself. Dr. McNutt, I have a question for you. 
This has to do with flow rates. Recognizing that future 
estimates of natural resource damages will depend on the total 
estimated volume of oil released, do you think it would have 
been important to do this at the outset of the spill?
    Dr. McNutt. Ultimately, we will absolutely need to know 
what the flow rate is. I think response is very much an all-
hands-on-deck, everyone doing the maximum they can, and that 
from what I understand, the ultimate response--or the ultimate 
damage recovery will not be determined until very far down the 
road, when we actually believe we can calculate what the damage 
to the environment has been. And we will probably have a very 
good handle on what the flow rate is at that point because it 
will have been captured, so it won't be based on looking at 
video or other calculations, which will probably always have 
uncertainty associated with it.
    So, we have to know sooner or later. It is going to all be 
captured at some point. We will have a very accurate record at 
that point.
    Ms. Bordallo. The second question. It is my understanding 
that scientists from Woods Hole Oceanographic Institute were 
ready to take flow measurements, but the project was put on 
hold during deployment of the containment dome. And BP did not 
contact these scientists again. If the ability to take these 
measurements was immediately available, why didn't the Federal 
Government ensure that these flow measurements were taken right 
then and there?
    Dr. McNutt. Woods Hole did get two deployments in the field 
with their sonar equipment to calculate flow rate, one prior to 
the cutting of the riser and another post-cutting of the riser. 
Their deployment post-cutting of the riser was with their high 
powered sonar, not with also the acoustic Doppler current 
profiler because their contractor had run out of time.
    Ms. Bordallo. OK. For the record, Doctor, I would like to 
just maybe repeat that question. In other words, did BP not 
contact these scientists again? Yes or no.
    Dr. McNutt. I am not sure about BP. I was working through 
the Coast Guard, who had actually contracted with Woods Hole to 
do the work, and the communication with the Coast Guard and 
Woods Hole on the timing of it was very good, and they got in 
the field, and everything went well.
    Ms. Bordallo. So, in other words, it wasn't completed, in 
your opinion, because this is what we have on our record.
    Dr. McNutt. The work was completed. There were delays 
simply because of problems cutting the riser so that Woods Hole 
wasn't able to get all of the measurements they wanted just 
because it took more time to cut the riser off than had 
originally been planned.
    Ms. Bordallo. All right. Are flow measurements being taken 
on the oil leaking from the lower marine riser package cap?
    Dr. McNutt. Differential pressure readings are being taken 
that will help determine the flow, and we will find those 
measurements useful.
    Ms. Bordallo. So, the answer is yes.
    Dr. McNutt. Yes.
    Ms. Bordallo. All right. Dr. Coddington, your testimony 
stated that approximately one-third of MMS collections at the 
Smithsonian need further work to evaluate the effects of the 
spill. What additional steps could be taken to enhance the 
value of these collections?
    Dr. Coddington. Well, these are collections that come to 
us. What MMS does is to contract with various contractors to do 
the work, and in that contract it stipulates that the 
collections will come to the Smithsonian. They come to us in 
whatever shape they are. In order for us to make them maximally 
valuable for science, we need to catalogue the collections, we 
need to make sure that all of the--it is called meta data, 
which are all of the physiographic, all the oceanographic, all 
of the chemical data that is associated with those specimens--
is attached to each one of those specimens. And there are 
thousands of those left to go.
    Ms. Bordallo. Where does the funding for this come from?
    Dr. Coddington. For the last 30 years, it has come through 
an interagency transfer through the Minerals Management Service 
to the Smithsonian, at a relatively----
    Ms. Bordallo. So MMS then, yes.
    Dr. Coddington.--moderate level, yes.
    Ms. Bordallo. What resources would it take to make all 
relevant collections publicly available?
    Dr. Coddington. We have been working on a budget for that. 
I think it would be $9 million in two years.
    Ms. Bordallo. In two years, how long. So, that answers that 
question. All right. Thank you. I would like now to turn over 
the next set of questions to our Ranking Member, Mr. Cassidy.
    Mr. Cassidy. Mr. Fingas, is it Doctor or Mister?
    Dr. Fingas. Doctor.
    Mr. Cassidy. I see that you were on the oil dispersant task 
force way back then. Has there been any research that you know 
of or that you can inform us of, of the use of dispersants in 
the ultra-deep?
    Dr. Fingas. Not that I know of. There has been almost no 
research, either through coordinated committees such as the 
National Academy of Sciences, or by various agencies to study 
such. And perhaps the reason for that is simply that it has not 
really been attempted before, at least not to my knowledge 
anyhow.
    Mr. Cassidy. So, I scanned--the staff was nice enough to 
get me the executive summary--the conference you referenced. As 
I scanned it, you did have specific recommendations as to 
research going forward, but the use of dispersants kind of at 
the mud line, if you will, was not envisioned. I am just 
curious; I don't know. It was not envisioned, or it was not 
felt--you see where I am going with that.
    Dr. Fingas. That is right. It wasn't envisioned at that 
time.
    Mr. Cassidy. And not envisioned just because people had 
serious reservations about it, or just because they just didn't 
imagine its need?
    Dr. Fingas. I think for both reasons. I wasn't directly a 
part of that committee. I was a reviewer and contributor, but 
during part of this discussion, my recollection is that both 
issues came up.
    Mr. Cassidy. And do you have concerns about using 
dispersant at the mud line in the ultra-deep?
    Dr. Fingas. Yes, I do.
    Mr. Cassidy. Can you elaborate?
    Dr. Fingas. I am most concerned because the ability to 
measure their effectiveness is extremely limited because if 
they do enter the oil at that depth, the rise time to the 
surface is in the order of weeks and months perhaps, which 
means that you would never know if they worked or didn't work.
    Mr. Cassidy. Now let me ask you, Ed Overton--when I 
discussed this with him--he clearly was conflicted--at least I 
interpreted a conflict within his soul because he says, you 
have to break the stuff up. And if you don't have a lot of wave 
action, you are going to use a heck of a lot more dispersant on 
the surface. I am not speaking for him, but my impression was 
that he accepted the tension. He wasn't sure how he landed on 
the side of the tension, but what would be your opinion-- you 
know, how many barrels are forming chocolate mousse on the 
surface, or just what are your thoughts about that?
    Dr. Fingas. Well, for a deep sea release, I think the major 
problem right now is that we really don't understand enough 
about it and enough about any emulsion formation. It does 
appear that the emulsions are actually formed underneath. So, 
with or without dispersant----
    Mr. Cassidy. Now, that is different from the oil plume of 
which we have been speaking because I gather the oil plume is 
actually very dispersed hydrocarbons measured only in parts per 
million. Do you feel as if there is a chocolate mousse beneath 
the surface?
    Dr. Fingas. Oh, absolutely. I mean, we have seen photos of 
it. And during the Ixtoc spill, we also saw that chocolate 
mousse was formed along with regular oil droplets.
    Mr. Cassidy. So, is there chocolate mousse under--I just 
missed that. Is there chocolate mousse beneath the surface in 
this particular spill, documented?
    Dr. Fingas. As I understand--and perhaps you might redirect 
that question.
    Mr. Cassidy. Let me kick it over to Kennedy, if you don't 
mind.
    Mr. Kennedy. I think you are right in characterizing the 
majority of the plume as microscopic droplets, and primarily 
parts per billion, not million. There are some parts per 
million, but primarily a lot of the results we are seeing are 
billions, not millions. The mousse is more of a surface event, 
and we certainly don't believe that below the immediate 
surface--now, you know, a meter or two or three, in that range, 
there could be mousse formations, but at depths we don't 
think----
    Mr. Cassidy. Let me ask you. It seems like just in a very 
fortunate way, we have a living lab right now. And clearly, 
what we don't have is a lot of research on these events. Are 
you currently letting prospective studies on these effects to 
academic--frankly, coming from Louisiana, I want my 
universities involved because I know they will still be 
involved in 10 years and haven't moved on to whatever the next 
crisis is. So, have you involved academic in a prospective, 
well-funded study to look at these effects, and two, have you 
looked at the ones along the coastal region to specifically go 
with?
    Mr. Kennedy. As you probably know, Ed Overton has been a 
contractor for my organization for some time. I was just on a 
panel with him, the state of the coast in Baton Rouge, last 
Friday. And we have them actively involved in doing the 
analysis of the samples that are being collected. We do have a 
variety of different academic institutions out there, working 
for and with us.
    Mr. Cassidy. But prospective studies?
    Mr. Kennedy. Correct. I am sorry.
    Mr. Cassidy. Prospective studies.
    Mr. Kennedy. Prospective studies, we had a science summit 
two weeks ago to look at these very types of issues to develop 
some longer term studies. They have not been funded.
    Mr. Cassidy. But let me ask. It really seems as if, if the 
dispersant is being released at the mud line, and we hear from 
the guy that was on the panel that, well, we had concerns about 
it back at the panel, now is the time to study that. Do you 
follow what I am saying?
    Mr. Kennedy. I absolutely do. And certainly, the first step 
in studying that is to adequately sample and do all the other 
variety of things, whether it is----
    Mr. Cassidy. But in a peer-reviewed study, you would still 
have to have some sort--I mean, ideally, right now, on 
parallel, you are not only doing samples at baseline, but you 
are also coming up with the study criteria, what is my 
hypothesis, et cetera, so that as soon as you got your 
baseline, boom, you have let in an RFP, and you have somebody 
out there bidding on it.
    Mr. Kennedy. And if that particular--what you just 
described is already completely played out, I don't know. But 
are we thinking about it? We absolutely are. And are we doing 
the background work right now in terms of sampling, you know, 
in a series of concentric circles around the spill and looking 
at the subsurface plume so that we have the background data 
that could lead to that research, we are doing that.
    Mr. Cassidy. I yield back.
    Ms. Bordallo. I thank the gentleman, and would like to 
recognize the gentlelady from New Hampshire, Mrs. Carol Shea-
Porter.
    Ms. Shea-Porter. Thank you. As a natural resource trustee 
organization protecting our coastline, I have to ask a couple 
more questions about this. You know, children go and take 
collecting plastic bottles very seriously, and Americans of all 
ages have worked very, very hard in conservation. And the 
betrayal that they are experiencing right now, knowing that 
agencies, Federal agencies and other agencies that were charged 
with protecting the coastline, in some way stood at least 
passively, instead of as activists, watching what was happening 
in the Gulf. This is very painful. This is extremely painful 
for all of us.
    So, did you have any authority or any voice or any 
opportunity to comment on the drilling in the Gulf, lease 
applications, these kinds of drill designs, anything? Was your 
agency ever consulted?
    Mr. Kennedy. Are you directing this at me, NOAA?
    Ms. Shea-Porter. Yes.
    Mr. Kennedy. We are consulted. We don't have any final 
authority. We have no Yes/No vote whatsoever. But in the 
process of looking at leases, we have the opportunity to talk 
about our trust resources and concerns we may or may not have. 
So, we comment, but that is it. We comment.
    Ms. Shea-Porter. Do you know if you commented on this 
particular well or any like this?
    Mr. Kennedy. I think we may have, but I would like to get 
back to you for the record on that.
    Ms. Shea-Porter. I would like to know.
    Mr. Kennedy. Yes.
    Ms. Shea-Porter. Can you think of any other wells that you 
may have commented on? Have you personally ever written a 
statement or expressed concern that the oil companies were 
going too quickly and they didn't have the safety procedures, 
and that they might not be able to cap?
    Mr. Kennedy. No, I have not.
    Ms. Shea-Porter. Did you ever worry about it?
    Mr. Kennedy. I think in the course of understanding how 
things are, we always worry about an event. We know that 
anything is possible. You look at the probabilities, but 
certainly we have always been concerned about major issues, 
yes.
    Ms. Shea-Porter. OK. So, you have been concerned about 
major issues. Such as this? In your worst case scenario, could 
you imagine this?
    Mr. Kennedy. Quite frankly, no. I did not think of this 
one, at least for this duration. I have been involved in other 
blowout situations. I was involved in the Ixtoc spill for a 
bit. So, I mean, we know that these things can happen, but----
    Ms. Shea-Porter. When you were commenting on the various 
wells, did you ever discuss the possibility? I mean, if you had 
a voice--now you said you didn't have authority, but you had a 
voice and an opportunity to comment on this kind of drilling in 
the Gulf.
    Mr. Kennedy. My agency has the opportunity to do that. It 
is primarily through Endangered Species, Magnuson-Stevens, 
Marine Mammal Protection Act. None of those things are my 
expertise or my particular organization. But the organization 
does have an opportunity to comment, yes.
    Ms. Shea-Porter. OK. Where I am going with this is that I 
don't know if NOAA expressed concern, reservation. I am trying 
to figure out how active your organization was because you are 
charged with protecting the coastal environment. And clearly, 
what we are talking about now shows an utter lack of attention 
to the risks here, on the part of many agencies, I might add. 
And I think that all of us have had a very sad and ugly wake-up 
call here about what we are doing.
    But did anybody, anybody say to BP, you know, this doesn't 
look so good; what if? Is that your agency's job to comment 
like that?
    Mr. Kennedy. Our agency's job is to comment to MMS in 
particular when they are looking at leases and to provide our 
input and/or our concerns. We have expressed concerns about a 
variety of issues over some time. I know it has been brought up 
in some of these hearings. But again, it is not me specifically 
that can address that.
    Ms. Shea-Porter. OK. I would appreciate if you would get 
back to me then very much. Thank you. And then I just have one 
last question. Was your agency ever consulted, Dr. McNutt?
    Dr. McNutt. The USGS is a science agency, so we have no 
management and no policy no opportunity to say yes, no, up and 
down on anything. So, no, we would not have been consulted on 
this. But let me take this moment to give you a little bit of 
perspective on this particular situation, simply because having 
been in this job now for about six months, I think in a case 
like this hindsight is 20/20. And from the standpoint of the 
USGS, until April 20th, let me tell you what my life was like.
    I came into this job in November, and for the first two 
months, it was pretty quiet. Then I had Haiti, Chile, 8.8 
earthquake. I had Asian Carp invading the Great Lakes. I had a 
California water crisis that looked like it was going to put 
the sixth largest economy in the world on its knees. I also had 
Eyjafjallajokull that was closing down the most populated air 
route in the world, and that was still spewing out ash when 
this well blew up.
    So, to say that was this on the USGS radar screen, 
absolutely not. But, you know, we were dealing with five crises 
in my first six months on the job.
    Ms. Shea-Porter. And let me say, I first offer my sympathy, 
and second, we certainly understand from this perspective, too, 
because that is our world. Thank you. I yield back.
    Ms. Bordallo. I thank the gentlelady from New Hampshire. I 
would like to recognize the gentleman from Louisiana, Mr. 
Fleming.
    Mr. Fleming. Thank you, Madame Chairman. And I want to tell 
the panelists today that I appreciate your being here. I know 
that these hearings are going on and on and on about a very 
important issue, and I appreciate your willingness to come time 
after time to answer very tough questions.
    I would like to start with you, Mr. Kennedy, with regard to 
NOAA. What is NOAA's position on Governor Bobby Jindal's 
proposal to build temporary berms to protect the wetlands?
    Mr. Kennedy. We have been involved. There has been, as you 
are well aware, an interagency discussion and comment period 
throughout the debate. We have been involved. We have expressed 
concerns as these berms are built--how that may affect 
circulation, what it may do to some of our trust resources. But 
in the end, we have not registered an objection that obviously 
stopped anything.
    Mr. Fleming. Who has been the final sort of--apart from the 
President himself, but what agency would be the final authority 
to give the--I guess the certificate or permission? Is that 
EPA, the Corps of Engineers? Who has the final say on that?
    Mr. Kennedy. I believe it is the Corps of Engineers, but I 
am not the expert there. I mean, obviously, the Coast Guard has 
been at the forefront of that table to make the ultimate 
decision. I think you are right, Dr. McNutt. I think it was a 
tiered thing, the Corps of Engineers, but ultimately, you are 
right, the Coast Guard, I believe. But I am not the expert.
    Mr. Fleming. Do we have a final and complete decision on 
all of the requests? I know some have been allowed, but I think 
there may be others that have not. Anything on that?
    Mr. Kennedy. I am not the authority there. So, I think the 
Coast Guard would be the place to ask that.
    Mr. Fleming. OK. What lessons did NOAA learn from the Ixtoc 
deepwater oil spill in 1979 and the explosion of the Mega Borg 
off the coast of Galveston, Texas in 1990?
    Mr. Kennedy. I think probably a variety of things, but 
certainly in those two instances, a weathered oil versus a 
fresh oil have different impacts. When you have oil that comes 
ashore on sandy beaches, as opposed to getting through inlets 
and back into the marshes, you have a much better opportunity 
to attack the oil and clean it up with less impact than if you 
let it get into the inner marshes. So, those are a couple. 
There are others. One, transport of oil over a long, long 
distance, and the weathering process that takes place, 
certainly with the Ixtoc. That came from the Bay of Campeche, 
and that is hundreds--if not thousands--of miles, and so on and 
so forth. So, issues like that, I think.
    But if you can isolate the oil on the sandy beaches before 
it gets into the back bays and marshes, that is the right thing 
to do. I think we also had an issue with oil coming ashore, 
then accreting, gathering sediment and forming tar mats at the 
base of some of those beaches. We certainly have been looking 
very carefully at that as a possibility in this spill and have 
been----
    Mr. Fleming. OK. Let me follow through on that.
    Mr. Kennedy. Sure.
    Mr. Fleming. I appreciate those answers. So, what you are 
saying is early response, and then certainly blocking the flow 
of oil onto the beaches or into the marshes. It has been 
reported that the Netherlands made available all sorts of 
devices that could have been very effective within three days 
of the spill, and yet they were not allowed in. And also again 
the berms would have done just the things that you are talking 
about.
    So, it seems like even though we have the information from 
that one in 1990 for certain--but it doesn't sound like we 
implemented any of the knowledge that we learned from it.
    Mr. Kennedy. Well, I think we have. And in almost every 
instance--and I talked earlier about the complexity and the 
uniqueness of each spill. You always have that. So, you have to 
weigh your options. But I think when you look at what has gone 
on here, we have tried to take advantage of some of those 
things. There are always trade-offs. And so I am not at all 
familiar with the Netherlands advice that you are referring to. 
I have many, many people on the ground in Louisiana and 
elsewhere. Maybe that have. But we have tried very, very hard 
to evaluate other options. And as you know, there are phone 
numbers and committees that are trying to look through those.
    So, I am not familiar with the Netherlands, but beyond 
that, I think each decision of what we do or don't do is based 
on a lot of the experience that we bring to the table, and then 
we are always weighing those options and the trade-offs 
associated with it. So, to some extent, I think we have been 
using that information.
    Mr. Fleming. I can certainly ask more. Let me follow up, if 
you don't mind, with just one maybe half question, and that is, 
what did we learn about dispersants in those previous 
disasters? Because it seems that dispersants are controversial. 
And, you know, we are concerned in Louisiana that the 
dispersants may actually do more harm than good over the long 
term. So, what have we learned about that that we can apply in 
this situation?
    Mr. Kennedy. Well, I think this segues nicely to this idea 
of trade-offs. I think over a lot of years of research and 
discussion--and this includes all of the regional response 
teams, which I am sure you are familiar with, that include all 
of the state agencies right at the table as we make decisions. 
We had pre-approval as a result of a lot of what we learned of 
dispersants in the Gulf, and we had that because of this trade-
off issue. And what we have determined from a lot of the 
research we have done is, if you can keep oil broken down and 
off the surface, it will biodegrade much better than if you let 
that oil come ashore.
    Once the oil is ashore, you have a much more significant, 
serious problem that is much harder to deal with, and 
biologically, socially, socioeconomically it can be a bigger 
problem. So, if you can disperse at sea at appropriate depths--
there are a whole bunch of caveats that go into this--that is 
the trade-off that actually was accepted by all of the 
responsible parties in the Gulf some time ago. I think we stand 
by that, although we are continually looking. When you get the 
numbers of dispersants that have been applied, now up into the 
hundreds of thousands of gallons, we have grave concern about 
that, and we actually had a small conference in Baton Rouge a 
couple of weeks ago to get some of the best experts in the 
world together to say, OK, with this much dispersants and this 
much oil in the water column, should we reassess the trade-off. 
And the answer from that discussion was, I think, that they 
thought we were still in a trade-off position that was 
appropriate to continue to disperse.
    So, we are looking very carefully at it.
    Mr. Fleming. Thank you. And thank you, Madame Chairman.
    Ms. Bordallo. I thank the gentleman, and I wish to thank 
the witnesses on our first panel for their testimony today. And 
we will now call up the second panel of witnesses. Thank you 
very much, ladies and gentlemen.
    [Pause]
    Ms. Bordallo. The witnesses on the next panel will be, 
first, Dr. Chris Reddy, Associate Scientist and Director of the 
Coastal Ocean Institute, Woods Hole Oceanographic Institution; 
Dr. Robert H. Weisberg, Professor, College of Marine Science, 
University of South Florida; the third witness, Ms. Valerie Ann 
Lee, Senior Vice President, Environment International 
Government, Limited; the fourth, Dr. Denise J. Reed, Interim 
Director, the Pontchartrain Institute for Environmental 
Sciences, and Professor, Department of Earth and Environmental 
Sciences, University of New Orleans; and Dr. Christopher 
D'Elia, Professor and Dean, School of the Coast and 
Environment, Louisiana State University.
    I would like to greet and welcome our second panel of 
witnesses, and again note that the red timing light on the 
table will indicate when five minutes have passed and your time 
has concluded. We would appreciate your cooperation in 
complying with these limits. But I want to assure all our 
witnesses that your full written statement will be submitted 
for the hearing record.
    Dr. Reddy, thank you for being here today, and you may 
begin.

   STATEMENT OF CHRIS REDDY, PH.D., ASSOCIATE SCIENTIST AND 
  DIRECTOR, COASTAL OCEAN INSTITUTE, WOODS HOLE, MASSACHUSETTS

    Dr. Reddy. Thank you and good morning, Chairwoman Bordallo, 
Ranking Member Cassidy, and members of the Subcommittee. My 
name is Chris Reddy, and I am a scientist at Woods Hole 
Oceanographic Institution. I have studied, or am currently 
studying, numerous oil spills, including one that still exists 
from a 1969 spill, and I am currently active with the BP spill, 
and in a few hours, I am going to hop on a plane to go on a 12-
day research cruise funded by the National Science Foundation 
to study subsurface plumes, and bringing along scientists from 
NOAA, EPA, the Coast Guard, and BP.
    Last year, on the 20th anniversary of the Exxon Valdez 
accident, I wrote an editorial in the Boston Globe about how 
this country had successfully avoided a major oil spill since 
that iconic event. I argued then and I continue to believe that 
this country is one of the most experienced and effective in 
responding to spills.
    About 10 days after the BP spill, I wrote another editorial 
in the Boston Globe, and I said, quote, ``As military planners 
know well, learning lessons from past wars doesn't necessarily 
help you fight a different kind of enemy.'' Numerous factors, 
some unpredictable, such as weather, and some never encountered 
before, will come into play. And as this spill keeps on going, 
success in combating it will require an unprecedented stamina 
on the part of both personnel and equipment.
    I concluded that if the Exxon Valdez was Pearl Harbor, a 
wake-up call for modern day oil spills and how to respond to 
them, then the BP oil spill would be more like the siege of 
Stalingrad. We are in for a long, exhausting, demanding process 
of observation, cleanup, and assessment. We need to bring all 
resources we can to the table. Unfortunately, one of our best 
resources, academic science, has had a diminishing role in oil 
spill research in the past two decades.
    Following the Exxon Valdez spill and other spills, the Oil 
Pollution Act of 1990, referred to as OPA '90, was passed. This 
legislation provided a wide framework for diminishing the 
chances of spills and how to assess damages and restore the 
environment after a spill. The number of spill has 
significantly decreased. With the passage of OPA, the approach 
to damage assessment and restoration has become a well-defined 
process with legal and economic consequences. NOAA, other 
Federal scientists, consultants, and contractors now do most of 
the work. Independent scientists from academia, who have the 
capacity to pursue the outstanding, unanswered questions about 
oil and its interactions with the environment, are less often 
participants in spill science. And I have called this the 
industrialization of oil spill science.
    My advice about how to move forward immediately and in the 
future, NOAA and other agencies should receive continued 
support to monitor and observe the Gulf. Time is invaluable. 
For example, knowledge about where the oil is, and how it is 
exchanging, is key to understanding processes acting on the 
oil, and also estimating damages to wildlife exposed to oil. It 
is paramount that a massive, organized, and sustained effort be 
directed at researching areas impacted in the Gulf of Mexico. 
And perhaps one way to think about this is that you might want 
to think about this oil spill as a crime scene. We want to 
collect all of the evidence, perhaps in a crime scene, before 
there is a rain or any other type of event.
    I can't underscore the importance of getting such data. It 
would be unfortunate in the next several years, when scientists 
begin to develop a comprehensive view of the spill, that they 
lament the absence of key data that could have been obtained 
but was not because of a lack of funds, lack of access, and a 
lack of political will.
    Academia is equipped to conduct some of the science, but 
needs direction. I have attended meetings with scientists both 
at the EPA here in D.C. and down at LSU, where there have been 
many recommendations. The National Science Foundation has 
commendably provided support to my colleagues via the rapid 
proposal, and these funds have contributed already.
    Nevertheless, I believe there could be better coordination 
between what the academic research is doing and all that needs 
to be done. I recommend the following actions to be taken 
forward. I would allow NOAA and other key agencies to triage 
research, moving to the top of the list what is most pressing 
and communicate it broadly, clearly, and effectively to the 
academic community. It is NOAA and the other Federal agencies 
that are best suited to provide such guidance. They have the 
experience, and they have responded to all of the oil spills 
that haven't been on CNN over the last 200 years--200; since 
the Valdez spill.
    And I would have this agency--then I would appoint a panel 
of science advisors through the UNH Research Center, and key 
science stakeholders, and they should use a very rapid way to 
reduce paperwork and get some of this research going very 
quickly. And I would encourage traditional studies, but also to 
push toward more advanced techniques.
    In summary, NOAA and other responders have been handed an 
enormous challenge and need all available support. Time is 
precious. Academia, which has played a minor role in responding 
to oil spills over the past several decades, should be 
reengaged with direction from Federal experts who are most 
knowledgeable about the most pressing problems. Thank you.
    [The prepared statement of Dr. Reddy follows:]

               Statement of Christopher M. Reddy, Ph.D., 
                Woods Hole Oceanographic Institution \1\
---------------------------------------------------------------------------

    \1\ The views expressed here are my own.
---------------------------------------------------------------------------
Salutation
    Good morning Chairwoman Bordallo, Ranking Member Brown, and members 
of the Subcommittee. Thank you for the opportunity to speak today about 
the Deepwater Horizon Oil Spill. My name is Christopher Reddy, and I am 
a marine chemist at the Woods Hole Oceanographic Institution in Woods 
Hole, MA, principally investigating marine pollution. I have published 
>85 peer-reviewed scientific journal articles and several book chapters 
on the chemistry of oil and how it interacts with the natural 
environment and related subjects. I have studied or am currently 
studying the aftermaths of oil spills that occurred in 1969, 1974, 
1996, 2003, and two in 2007 as well as natural oil seeps off the coast 
of Santa Barbara, CA, and more recently the Deepwater Horizon oil 
spill. I am leaving in a few hours to participate in a National Science 
Foundation (NSF)-funded 12-day research cruise to quantify and 
characterize oil in the water column below the sea surface in the Gulf 
of Mexico.
Introduction
    Last year on the 20th anniversary of the Exxon Valdez accident, I 
wrote an editorial in the Boston Globe about how this country has 
successfully avoided and managed oil spills since that iconic spill. I 
argued then, and continue to believe, that this country is one of the 
most experienced and effective in responding to spills. Responders have 
worked on countless spills that have not made CNN, participated in 
drills, attended workshops, and published peer-reviewed manuscripts on 
oil spills.
    Several weeks after the Deepwater Horizon spill, as the situation 
was appearing dire, I wrote another editorial in the Boston Globe:
        . . .as military planners know well, learning lessons from past 
        wars doesn't necessarily help you fight a different kind of 
        enemy. Numerous factors, some unpredictable such as weather and 
        some never encountered before, will come into play. And as this 
        spill keeps on going, success in combating it may require 
        unprecedented stamina on the part of both personnel and 
        equipment.
    I concluded that if the Exxon Valdez were Pearl Harbor, a wake-up 
call for modern day oil spills and how to respond to them, then the 
Deepwater Horizon oil spill could be more like the Siege of Stalingrad. 
The latter has occurred.
    We are in for a long, exhausting, demanding process of observation, 
clean-up, and assessment, and we need to bring to bear all the 
resources we can. Unfortunately, one of our best resources--academic 
science--has had a diminishing role in oil spill research in the past 
two decades. I would like to give you a little history of how that 
happened and what it means in terms of limiting our response to this 
spill, and suggest ways to get the academic science community more 
involved.
Impacts of Oil Pollution Act of 1990 on academic science
    Following the Exxon Valdez spill and other spills, the Oil 
Pollution Act of 1990 (OPA 90) was passed. This legislation provides a 
wide framework for diminishing the chances of spills, and how to assess 
damages and restore the environment after a spill. The devastating 
impacts of the Exxon Valdez spill and lessons learned from it, along 
with the provisions of OPA90, have led to significantly decreased 
numbers of spills. For example, prior to the Deep Horizon spill, the 
annual number of oil spills greater than 5,000 gallons documented by 
the Coast Guard between 1991 to 2004 decreased from 55 to 14, with none 
over 1 million gallons.
    In addition, there has been a growing trend that the spillers are 
freighters, such as the Cosco Busan, which struck the San Francisco - 
Oakland Bay Bridge in 2007, and not high-volume tankers like the Exxon 
Valdez. The responses to these relatively smaller spills by Coast 
Guard, NOAA, other government agencies, and representatives from the 
responsible parties have been swift and organized. But the overall role 
of academia in these spills has been significantly reduced in the last 
twenty years.
    With the passage of OPA 90, the approach to damage assessment and 
restoration has become a well-defined process with legal and economic 
consequences, and Federal scientists, consultants, and contractors now 
doing most of this work.
    Independent scientists from academia - who have the capacity to 
pursue the outstanding unanswered questions about oil and its 
interactions with the environment--are less often participants in spill 
science. I have called this the ``industrialization of oil spill 
science.''
    The limited number of spills and the protocols necessary to follow 
OPA90 have diminished academia's role in oil spill science. This has 
reduced the entry of young scientists into oil spill science and has 
suspended progress on the science used after most spills. The 
introduction of newer and advanced techniques, developed in other 
fields of science that may be applied to oil spills, has been sluggish. 
Financial support for the study of oil spills has dwindled. The Coastal 
Response Research Center (CRRC) at the University of New Hampshire has 
done admirable work in distributing sparse existing funds, yet no new 
funds were distributed in 2010.
    Oil spill science has taken a back seat to other priorities such as 
homeland security and climate change science. It also has been a slow 
victim of its own success: why continue funding research when the 
number of spills was declining? It isn't until a whole new problem, of 
unprecedented scale, hits the headlines that we see that we have only a 
small Phillips screwdriver, when we need a high-power toolkit.
    To underscore the dearth of academics in oil spill science, 
consider the following recommendation from the National Research 
Council's Oil in the Sea III, which summarized our knowledge of oil's 
inputs and fates as well as effects on the ocean (2003):
        Federal agencies, especially NOAA, MMS, the U.S. Coast Guard, 
        and the USGS should work with industry to develop and support a 
        systematic and sustained research effort to further basic 
        science understanding of the processes that govern the fate and 
        transport of petroleum hydrocarbons released into the marine 
        environment from a variety of sources (not just spills).
    Of course, it would be expected that the effort to ``further basic 
science understanding'' would involve academia but it is not explicitly 
stated. It is the research efforts of independent scientists that can 
help advance oil spill science where students, time, lab space, and 
equipment are available.
Comments on NOAA
    In the past two months, NOAA and many other Federal agencies have 
faced enormous challenges responding to this disaster. They have 
performed admirably with the resources available to them.
    I also commend the efforts of the CRRC in organizing a two-day 
meeting at Louisiana State University on May 26 and 27, 2010 that 
involved more than 50 experts from academia, the Federal government, 
Environment Canada, industry, and non-governmental organizations and 
resulted in ``Deepwater Horizon Dispersant Use Meeting Report.'' This 
report recommended that dispersant usage was worthwhile. I agree with 
the finding on using dispersants in the surface ocean and reserve my 
views on injecting dispersants near the wellhead until more data become 
available.
    Research on oil in the surface water and pre-assessment studies 
began quickly after the spill. Efforts to study deepwater plumes were 
delayed because of limited amounts of assets in the theater, but now 
have become a major objective. And for the first time that I know of, 
NOAA has been transparent about available data and their activities 
during the response phase of a spill. For example during the planning 
of my upcoming cruise, I have relied heavily on data posted on NOAA 
websites.
    Last year, I participated in a workshop hosted by the CRRC at the 
University of New Hampshire (UNH) titled, ``Research & Development 
Priorities: Oil Spill Workshop.'' (The CRRC was established as a 
partnership between NOAA, through the Office of Response and 
Restoration (OR&R), and the UNH). At that time, CRRC was co-directed by 
Professor Nancy Kinner (UNH) and Dr. Lisa Mertens (NOAA). This meeting 
was a productive three-day effort addressing eight broad ranging 
topics. The attendees were leaders in oil spill science from state 
agencies, including the Louisiana Oil Spill Coordinator, consulting 
groups, NOAA, Coast Guard, Environmental Protection Agency (EPA), 
international scientists, non-profits, and academia. Many of these 
participants are now playing key roles in the Gulf of Mexico. The final 
report is available on the Internet.
    Several points with respect to this meeting and its final report: 
(i) NOAA was actively preparing for future oil spills and working with 
a broad spectrum of stakeholders, (ii) I do not recall any discussions 
on deepwater spills, even though the workshop was forward thinking with 
respect to spills in the Arctic and those from biofuels, and (iii) Of 
the 50 attending the meeting, nine were from academia with four from 
the University of New Hampshire. Hence, only five participants, or 10% 
of the participants, were from US academia outside of UNH. (There were 
seven international attendees).
How to move forward immediately and in the future
    NOAA and other agencies should receive continued support to monitor 
and observe the Gulf of Mexico following the Deepwater Horizon 
disaster. Time is invaluable. Every day the oil content and composition 
are changing and moving in the surface and subsurface, and eventually 
once the leak is stopped, the oil will diffuse and weather to levels 
where it can no longer be accurately measured. Knowledge about where 
the oil is and how it changed is key to understanding processes acting 
on the oil and also estimating damages to wildlife exposed to oil. It 
is paramount that a massive, organized, and sustained effort be 
directed at researching areas impacted in the Gulf of Mexico.
    It would be unfortunate if, in the next several years when 
scientists begin to develop a comprehensive view of the spill, they 
lament the absence of key data that could have been obtained but was 
not because of lack of funds, lack of access, or lack of political 
will.
    Academia is equipped to conduct some of this key science but needs 
direction. I have received countless phone calls and emails from 
colleagues asking how they can contribute, but often I do not have 
answers. The National Science Foundation has commendably provided 
support via its RAPID proposal system to some scientists, and these 
funds have already contributed significantly to understanding this 
spill. Nevertheless, I believe there could be better coordination 
between what the academic research community is doing and all that 
needs to be done.
    To enhance coordination, I recommend the following actions be taken 
immediately:
        1.  Allow NOAA and other key agencies to triage research, 
        moving to the top of the list that which is most pressing and 
        communicate it broadly, clearly, and effectively to the 
        academic community. It is NOAA and other federal agencies that 
        are best suited to provide such guidance. They have the 
        experience and they are most aware of what is needed.
        2.  Appoint a panel of academic science advisors, via the CRRC, 
        to liaise directly with key Federal stakeholders to fund 
        research. They should use the NSF RAPID style proposal system, 
        which reduces the paperwork and can be approved in days. 
        Overall, means to provide clear pathways for submission and 
        feedbacks must be aggressively sought.
        3.  Encourage traditional studies but also push towards more 
        advanced techniques. For example, analytical techniques used to 
        analyze oil have not changed much in nearly decades despite new 
        methods available that are used in petroleum geochemistry.
        4.  Assure academics that their contributions are their own and 
        can be published by them. (The lack of publication, especially 
        to untenured scientists, can be a major roadblock for engaging 
        them.)
        5.  Academia needs information or instruction about OPA90 and 
        damage assessments. Academic scientists must recognize those 
        strict protocols for custody of samples and the robustness of 
        their techniques. What would be otherwise fine for a peer-
        reviewed manuscript may not pass the requirements of legal 
        proceedings.
        6.  I recognize that the EPA and likely NOAA will set up 
        scientific advisory boards regarding this spill. They are 
        certainly necessary but the time needed to vet nominees and 
        arrange these boards is too long. So, what I propose would be 
        in addition to these long-term advisory boards.
    Academia wants to contribute and has tremendous knowledge that 
needs to be directed toward the most pressing issues. NOAA and other 
Federal experts should have a process in place for providing the 
leadership to academia on how to proceed during this national disaster. 
As an academic, I may not appreciate the nuances for such a quick and 
directed effort, but we must move fast.
    In summary, NOAA and other responders have been handed an enormous 
challenge and need all available support. Time is precious. Academia, 
which has played a minor role in responding to oil spills over the past 
several decades, should be re-engaged with direction from Federal 
experts who are most knowledgeable about the most pressing problems.
    Thank you for your time today.
                                 ______
                                 
    Ms. Bordallo. I thank you very much, Dr. Reddy, for your 
thoughtful input on how to enhance coordination between the 
Federal Government and the academic community. Dr. Weisberg, I 
look forward to your testimony. You may now proceed.

 STATEMENT OF ROBERT H. WEISBERG, PH.D., PROFESSOR, COLLEGE OF 
 MARINE SCIENCE, UNIVERSITY OF SOUTH FLORIDA, ST. PETERSBURG, 
                            FLORIDA

    Dr. Weisberg. Thank you, honorable representatives. My name 
is Robert Weisberg, from the University of South Florida, and I 
have been involved from day one with tracking oil at the 
surface and also performing subsurface tracking of where oil 
might be going there. It is my privilege to be here with you 
today to address the question whether the agencies have the 
resources to respond. My answer is no, and I will attempt to 
explain why and also to give a pathway forward.
    When describing the workings of the ocean, the operant word 
is connectivity. Connectivity by the ocean is what gives rise 
to Earth's climate, and it is also what gives rise to the 
Earth's ecology. Without a firm grasp of ocean connectivity, 
phrases like ``ecologically based management'' and ``marine 
spatial planning'' are less than meaningful. The ocean 
circulation is fundamental to that connectivity.
    The Loop Current, Florida current, Gulf Stream system 
provides the connection between the Gulf of Mexico and the 
southeast U.S. It is a deepwater current system, and deepwater 
currents cannot easily extend onto the continental shelf. Thus, 
the continental shelf circulation differs from the deep ocean 
circulation, and this results in mechanisms of connectivity 
that are distinctly different for the continental shelf. The 
coastal ocean also includes the estuaries, arguably the most 
productive and fragile of the ocean environments.
    So, my point of these preliminary discussions is that we 
are dealing with very complex systems, each related through 
common physics, but each unique in how the governing physics 
organize to provide the connectivity within and between each 
region. This is not a simple problem. It does not have unique, 
simple answers. And that explains why NOAA and the Fish and 
Wildlife Service do not have all the resources to respond to 
the present crisis, and why the sub-questions have less than 
satisfactory answers.
    So, what do we do immediately, and into the future? 
Immediately, we must marshal all of the talent and resources 
that exist to deal with the environmental crisis at hand, and 
this requires full partnerships between the agencies, the 
academics, and the private sector. The academic community has 
an essential role in bolstering the resources available to NOAA 
and the Fish and Wildlife Service, and the agencies, I would 
contend, cannot do this by themselves.
    Data gaps abound, and my written testimony provides 
specific examples, which I will not repeat here. The fact is we 
do not really understand natural workings of our coastal ocean 
and estuarine systems well enough because these have not been 
studied in a truly system-wide, multi-disciplinary manner. We 
are now posed with a fully three-dimensional, time-dependent 
sampling problem that must take into account the various 
connections that exist between the deep ocean, the coastal 
ocean, and the estuaries. This is not business as usual. We 
must systematically sample our coastal ocean and begin to 
describe the space-time evolution of critical water properties 
and sentinel species to assess whether or not post-spill 
impacts will be occurring and where.
    So, what is the pathway forward? The concept of an 
Integrated Ocean Observing System, IOOS, was advanced by 
Ocean.US in 2002. This concept remains valid today. Despite the 
ICOOS Act passed in 2009, which authorized IOOS within NOAA, 
the activity languages with little tangible support, and there 
is more concern for the concept of data management than for the 
actual implementation of coastal ocean observations and models. 
And without those observations and models, frankly there is 
little need to manage data.
    It is time to implement the IOOS with funding levels 
sufficient to serve the regions and the nation, and with 
emphases on observations and models. IOOS must be approached in 
a comprehensive, systems-wide, multi-disciplinary manner. 
Regardless of whether the topic is an oil spill, fisheries, 
harmful algae, the same systems-wide approach is necessary. In 
other words, to understand our fisheries, we must understand 
all of the connections across space, time, and trophic levels. 
To describe and predict the present oil spill and its effect on 
the environment, we must do the same.
    This is a large task, and an evolving one, requiring 
nurturing and sustenance. There is no point in engaging if 
there is no commitment to sustain the efforts. There is a 
compelling need for familiarity and commitment to one's locale. 
Local scientists must be involved. Is the effort worth the 
cost? Our approach to the questions addressed today would be 
much different if we had eyes in place. So, the answer is 
certainly yes.
    Moreover, I can testify today from personal experience that 
the only reason my USF Ocean Circulation Group was able to 
respond to the crisis as we did is because we had resources in 
place from previous COOS activities, supplemented by small, 
competitive research grants. So, with some trepidation, I am 
also here today to tell you that not all earmarks are bad.
    In summary, the unprecedented Deepwater Horizon oil spill 
shed an unwanted light on the environmental stewardship of our 
nation's oceans. An immediate response is required, followed by 
a staged implementation of an RCOOS concept akin to what was 
advanced by Ocean.US.
    I thank you for the invitation to speak, and for your 
attention.
    [The prepared statement of Dr. Weisberg follows:]

 Statement of Robert H. Weisberg, Distinguished University Professor, 
    Professor of Physical Oceanography, College of Marine Science, 
          University of South Florida, St. Petersburg, Florida

    Honorable Representatives on the Subcommittee on Insular Affairs, 
Oceans, and Wildlife, Committee on Natural Resources, U.S. House of 
Representatives; staff and associates, it is my privilege to be here 
with you today to address the question posed on ``Ocean Science and 
Data Limits in a Time of Crisis: Do NOAA and the Fish and Wildlife 
Service (FWS) have the Resources to Respond? My succinct and candid 
reply is that they do not, and I will aim my testimony toward 
explaining why and offering a solution. I am not intimating that these 
agencies are not excellent in many respects. Instead, I believe that 
the resources are presently inadequate. Moreover, this is not a 
situation that can be remedied overnight. Scientific inquiry takes 
time, and while we must deal with an unprecedented crisis immediately, 
we must also lay the groundwork for the future.
    In developing my case for improving environmental stewardship I 
will also address the sub-questions that were posed:
        1)  Are there existing gaps in observation data needed to 
        predict the extent and trajectory of the oil spill, including 
        information about plume formation and ocean currents?
        2)  What is the adequacy of pre- and post-impact spill data 
        needed for conducting natural resource damage assessments?
        3)  What additional data are required to understand the impact 
        of the oil spill on the marine environment?
    Not all of these questions are within my expertise as a physical 
oceanographer, one who studies the physics of the ocean circulation, as 
contrasted with the living marine resources. Nevertheless, I will 
endeavor to provide my perspective on how the natural system that we 
call the ocean must be approached.
    When describing the workings of the ocean in the context of the 
Earth system, one word immediately comes to mind: connectivity. Ocean 
connectivity controls the heat fluxes to the atmosphere and from the 
tropics to high latitudes, thereby determining the Earth's climate. 
Ocean connectivity unites nutrients (at depth) with light (at the 
surface), fueling primary productivity and thence all higher trophic 
level interactions, thereby determining the Earth's ecology. In fact, 
it can be stated that without a firm grasp of ocean connectivity, 
concepts like Ecologically-Based-Management and Marine-Spatial-Planning 
are less than meaningful. The ocean circulation is fundamental to the 
ocean connectivity.
    For the Gulf of Mexico and the southeastern United States, the 
primary conveyance of mass, momentum, heat and other water properties 
is the Loop Current-Florida Current-Gulf Stream system. The Loop 
Current flows into the Gulf of Mexico through the Yucatan Strait, loops 
around inside the Gulf of Mexico and exits through the Florida Straits 
as the Florida Current. After rounding the bend near Miami and 
continuing up the United States east coast it is called the Gulf 
Stream. It is really one current system, which is always present and 
with remarkably little variation in total transport. All that really 
varies is the northward extent into the Gulf of Mexico, i.e., where it 
makes its loop. Generally, the Loop Current undergoes a cycle, whereby 
it extends ever farther into the Gulf of Mexico before a piece of it 
breaks free as a clockwise circulating eddy, that drifts westward and 
dissipates, while the main body of the Loop Current retreats back to 
the south. This cycle of eddy shedding occurs roughly every eight to 16 
months, but with details that are hardly predictable. Before completely 
detaching and drifting westward, such eddies can reattach to the Loop 
Current, after which it is possible for the Loop Current to extend all 
the way to the Deep Horizon well head. The Loop Current is presently in 
such a state of eddy shedding. This is why we have not yet seen large 
quantities of oil transported to the Florida Straits and up the east 
coast, but this may still happen depending on the evolution of the Loop 
Current and its shed eddy over the next several weeks to months.
    The Loop Current-Florida Current-Gulf Stream system is only one 
aspect of the circulation that we must be concerned with. It is a deep 
water current system in that it is constrained by mass and momentum 
conservation to stay in deep water. Shallow water regions, which I 
refer to as the coastal oceans of the United States, are where society 
literally meets the sea. It is within the coastal oceans where maritime 
commerce takes place, where commercial and recreational fisheries are 
situated, where environmental concerns, such as harmful algal blooms 
and over-fishing, abound, and where fossil fuels and alternative energy 
sources are potentially located. We define the coastal ocean as the 
region between the shoreline and the shelf break, and we refer to this 
region as the continental shelf, the relatively shallow water region 
adjacent to the continent extending seaward to the point where the 
water depth drops precipitously to the abyss. The region of precipitous 
drop-off is called the continental slope, and the Deep Horizon well 
head is situated on the continental slope in the northern Gulf of 
Mexico.
    Deep ocean currents cannot extend onto the continental shelf unless 
the continental shelf is very narrow. Such is the case at the tip of 
the Mississippi River Delta, the head of DeSoto Canyon (offshore of 
Pensacola, Florida) and offshore of Miami, Florida, where the Gulf 
Stream can at times be almost a stone's throw from the beach. In 
contrast with these narrow shelf regions the West Florida Continental 
Shelf (WFS) tends to be very broad (roughly 100 nautical miles) and 
gently sloping, effectively decoupling the Loop Current from the 
nearshore. Thus the continental shelf circulation differs from the 
deep-ocean circulation, and this results in the mechanisms of 
connectivity also being different for the continental shelf.
    The coastal ocean also includes the estuaries, the transition 
regions between the rivers and the ocean, where density contrasts 
between fresh and salt water play a major role in the circulation and 
hence connectivity between the rivers, the estuaries, and the 
continental shelf. The estuaries are also arguably the most productive 
and fragile of the ocean environments.
    The point of these preliminary discussions is that we are dealing 
with very complex systems, each related through common physics, but 
each unique in how the governing physics organize to provide the 
connectivity within and between each region. Thus describing, 
understanding and predicting the behaviors of these natural systems are 
not simple problems with unique, simple answers, and that explains why 
NOAA and the Fish and Wildlife Service (FWS) do not have all of the 
resources to respond to the present crisis and why the sub-questions 
have less than satisfactory answers, and that is just within my own 
field of expertise, let alone the much broader range of subject matter 
of concern to this subcommittee.
    So what are we to do, immediately and into the future? Immediately 
we must marshal all of the talent and resource that exists to deal with 
the environmental crisis at hand. This requires full partnerships 
between the agencies, the academics, and the private sector, 
recognizing, of course, that chain of command is of paramount 
importance. The agencies have organized, and I cannot speak to that. I 
can at least speak to some of the actions of the academic community, 
which are being of help in this crisis, and I can also speak to the 
future of how we can improve our ability to describe, understand and 
predict the ocean system and thereby become better environmental 
stewards.
    Three particular actions at my own institution, the University of 
South Florida (USF), warrant mention. These include: 1) oil spill 
tracking tools that were implemented almost immediately after the Deep 
Horizon drilling platform sank on April 22, 2010, 2) shipboard surveys 
of both surface and subsurface hydrocarbons, and 3) deployments of 
gliders, drifters and profilers to help with sampling. For oil spill 
tracking we utilized existing numerical circulation models, our own at 
USF initially, plus several others added later on to produce an 
ensemble prediction with five different models. These are all re-
initialized for surface oil location through the analysis of satellite 
images and then run forward in time to produce forecasts 3.5 days into 
the future. The forecast interval is determined by the availability of 
forecast winds (from NOAA/NCEP). Forecasting more than 3.5 days into 
the future is of little utility because of the errors inherent to 
weather prediction. Along with surface trajectories we also implemented 
the tracking of subsurface trajectories using the same USF numerical 
circulation model. Not knowing at what depth subsurface hydrocarbons 
might be located a priori, we chose to consider nine different depths 
ranging between 1400m and 50m. Virtual particles were released at these 
depths beginning on April 20, 2010 and then continually ever since, and 
the movements of these virtual particles were, and continue to be, 
tracked three-dimensionally using the model's velocity field. All of 
these model predictions and satellite analyses are available on the 
internet at http://ocgweb.marine.usf.edu and http://
optics.marine.usf.edu/events/GOM_rigfire and have been since late 
April, they are provided to federal and state officials and they are in 
use as part of the overall forecast system. The subsurface trajectory 
forecasts were also instrumental in guiding the R/V Weatherbird II to 
sites where subsurface hydrocarbons were identified. We are also using 
these models and other observations to help guide the sampling by a 
combination of gliders, profilers and satellite tracked surface 
drifters. In fact, presently, the USF surface drifters along with some 
from the United States Coast Guard (that we helped to deploy) are the 
ones documenting the evolution of the Loop Current and its shed eddy 
(these drifter tracks are also posted on the above referenced web 
site).
    Obviously, USF is not the only academic institution to respond. 
Notable for Florida are activities by the University of Miami (UM) and 
the Florida State University (FSU). Additionally, the State of Florida 
University System's Chancellor Frank Brogan facilitated an Academic Oil 
Spill Task Force situated at FSU to help coordinate and serve materials 
by all of the academics in the State of Florida from a central location 
(http://oilspill.fsu.edu). This Academic Oil Spill Task Force, 
introduced by Chancellor Brogan, briefed the Florida Congressional 
delegation in Washington DC on May 26, 2010, and its activities 
continue to be of service in this time of crisis. Other Gulf States 
have similarly responded, and we are now seeing a convergence of 
academic resources from states around the nation. My point is that the 
academic community, in general, has much to offer in bolstering the 
resources available to NOAA and the Fish and Wildlife Service.
    Nevertheless, data gaps abound. Let's first consider data needed to 
predict the extent and trajectory of the oil spill, including 
information about plume formation and ocean currents. Predicting into 
the future requires that we have the best re-initialization data for 
the present. At USF (and for academics elsewhere) we are limited to 
what we can glean from satellite image analyses, but these are 
generally incomplete due to cloudiness and other limitations to 
interpretation. Satellite data could be supplemented by other means of 
ground truth; however, such information is not readily disseminated. 
One immediate recommendation is that an accessible, easy to use set of 
surface oil location data be made available on a daily basis for use in 
surface trajectory modeling. This will result in more accurate model 
predictions. The subsurface problem is even more acute because now, 52 
days in to spill, we have precious little information on subsurface 
hydrocarbon location, concentrations, fractionation and decay. There 
has simply been a dearth of sampling and an even more limited 
dissemination of results. Being that the scientific method is 
predicated on observations, these are critical. Similarly, even 
observations on the ocean currents are sparse. At a time when the 
evolution of the Loop Current and its shed eddy are determinant to 
whether or not oil will be entrained and transported to the Florida 
Straits and then up the east coast, there has been a seemingly lack of 
concern on the part of some who have even dismissed this as a factor 
until recently. As stated previously the USF surface drifters were 
among the first to be deployed in such a way as to outline the Loop 
Current path at this time of crisis. Additional satellite tracked 
drifters, systematically deployed, are needed. Similarly several 
organizations regularly post analyses of satellite altimetry used to 
estimate surface currents via the geostrophic approximation. There 
should be an effort to better organize and disseminate these satellite 
altimetry analyses and also to improve upon some that up until now may 
even have been misleading. Satellite altimetry is critical to constrain 
ocean circulation models via data assimilation (for instance, a reason 
why the Navy Global HYCOM has been so useful throughout this crisis is 
that it is well-contrained by satellite altimetry). Unlike the surface, 
there are very few observations being made subsurface for the Loop 
Current. With the HYCOM Consortium leading the data assimilation 
effort, data assimilative models of the Loop Current would benefit from 
additional, systematically deployed AXBTs (Aircraft deployed expendable 
bathythermographs).
    While the previous paragraph dealt with surface spill location data 
in general and the deep-ocean currents, recall from my introductory 
remarks on connectivity that we must also be concerned with the 
continental shelf and the estuaries. Oil is now stretching along the 
northern Gulf of Mexico shoreline eastward to the northwest Florida 
beaches as well as westward along the Louisiana coastline. It has 
already damaged Louisiana wetlands and estuaries, and it is about to do 
so in Florida. There are very few measurement locations for ocean 
currents in the coastal ocean, especially for Florida, and there is 
also a dearth of well-tested and implemented models capable of 
predicting the interactions that occur between the coastal ocean and 
the estuaries. These data and model gaps will become increasingly acute 
as oil continues to impact an ever larger coastal ocean domain. It is 
not that such observing and modeling tools do not exist. Instead, there 
has been (over decades in some instances) a lack of commitment on the 
part of both state and federal agencies to implement and sustain their 
application and improvement. This may, in part, be a consequence of too 
many agencies having separate purview on too many related aspects of 
the coastal ocean and estuaries without adequate coordination between 
them. We need to facilitate the implementation of appropriate coastal 
ocean and estuarine models to deal with the ever expanding domain of 
the spilled oil. We must then commit to sustaining and improving these 
into the future.
    Along with the deep-ocean, coastal ocean and estuary circulation 
inadequacies there are inadequacies for assessing spill impacts on 
natural resources. Whereas mappings may exist for many of the coastal 
ocean and estuary natural resources, it may be difficult to assess 
spill impacts without adequate knowledge on what the natural 
variability of these resources may be. Granted, catastrophic 
destruction or collapse will be assessable, but other longer-term or 
less obvious degradation may not be. Frankly, we do not really 
understand the natural workings of our coastal ocean and estuarine 
systems well enough because these have not been studied in a truly 
systems-wide, multidisciplinary manner. As an example, fisheries are 
generally studied as fisheries; harmful algal blooms are generally 
studied as harmful algal blooms; yet, the two are linked, along with 
intermediate trophic levels, and these linkages can result in trophic 
cascades affecting all forms of living marine resources.
    As regards additional data that are required to understand the 
impact of the oil spill on the marine environment, this is almost an 
insurmountable task. I must assume that the state agencies have 
sufficient data bases to describe what existed pre-spill (although I 
might question whether or not the natural variability is adequately 
established). The question then becomes, what will be the impacts and 
how will these evolve. The first thing that we must recognize is that 
this is not simply a matter of going to the usual stations and making 
the usual measurements, whatever these may be. I must again recall my 
comments about connectivity. From whence will a threat arrive? Will it 
be from a large massive invasion of surface oil that will cause obvious 
damage, or will it be more subtle through the delivery of subsurface 
contaminants with less immediately obvious damage? For instance, the 
region of the shelf break is where major reef fish communities exist, 
such as the gag grouper, known to spawn there. Will these communities 
and their progeny be impacted by subsurface hydrocarbons upwelled 
across the shelf break? If fish larvae make their way to the near shore 
via the bottom Ekman layer, as studies (in preparation) suggest, then 
will they be damaged en route if subsurface hydrocarbons make it onto 
the continental shelf? We are now posed with a fully three-dimensional, 
time dependent sampling problem that must take into account the various 
connectivities that exist between the deep-ocean, the coastal ocean and 
the estuaries. This is not business as usual. We must systematically 
sample our coastal ocean and begin describing the space-time evolution 
of critical water properties and sentinel species to assess whether or 
not post-spill impacts will be occurring and where.
    What might be the pathway forward? The concept of an Integrated 
Ocean Observing System (IOOS) was advanced through the actions of the 
now disbanded Ocean.US, an interagency planning office established in 
2000. Following numerous and broad reaching planning workshops and town 
hall meetings a document was published on May 23, 2002 putting forth a 
justification and a plan consisting of both global and coastal 
components to IOOS. The United States coastal component to IOOS was 
envisioned to have a federal network, referred to as the national 
backbone, augmented by Regional Coastal Ocean Observing Systems 
(RCOOS). Each RCOOS was to be organized through a Regional Association 
(RA), and there were to be 11 such RAs forming a National Federation of 
Regional Associations (NFRA). The May 23, 2002 IOOS pamphlet suggested 
a funding ramp up to 500M per year in support of IOOS, of which 138M 
would initiate the activity with an initial 50M going to the RAs. On 
September 20, 2004 the U.S. Commission on Ocean Policy endorsed the 
IOOS concept in their (An Ocean Blueprint) report and recognized that 
500M was too small a ramp up - they recommended 750M per year. Whereas 
the concept remains valid the progress to implementation is at a stand 
still.
    For the first half decade of the RCOOS process, through around 
2005, the United States did organize into RAs and Coastal Ocean 
Observing System (COOS) assets were implemented, largely through 
federal earmarks. Beginning in 2005 the academic community at the 
request of the Consortium for Ocean Leadership agreed to eschew 
earmarks and look instead to NOAA as the lead agency for IOOS through 
competitive research grants, and that remains the situation through 
today. Unfortunately, new money has not materialized, and the funding 
levels for the RCOOS have diminished to the extent where many of the 
coastal ocean observing resources that were in place in 2005 are no 
longer available. Despite the ICOOS Act passed in 2009, which 
authorized IOOS as a program within NOAA, the activity languishes with 
little tangible support. Moreover, it is my impression that there may 
be more concern for the concept of data management than for the actual 
implementation of additional coastal ocean observations and models, 
without which there is little data to manage. While many within the 
agencies, academia and private sector may disagree on the details, it 
is time to implement the RCOOS with funding levels sufficient to serve 
the regions and the nation and with emphases on observations and 
models.
    Details are always stumbling blocks, but these can be surmounted if 
we approach the problem in a comprehensive, systems-wide, 
multidisciplinary manner. The underlying concept is that of coastal 
ocean state variable estimation. By this I mean all properties 
pertaining to the coastal ocean, including sea level, velocity, 
temperature salinity, nutrients, plankton, fish, and surface 
meteorology; in other words, all variables that pertain to and hence 
comprise coastal ocean and estuary ecology. After all, coastal ocean 
ecology is not biology; it is the entire suite of processes that 
determine coastal ocean state variables. These same principles apply to 
all of the societal relevant coastal ocean problems espoused in the May 
23, 2002 Ocean.US report. They also pertain to the present Deep Horizon 
oil spill crisis. Regardless of whether the topic is an oil spill, 
fisheries, harmful algae, search and rescue, etc, the same systems-wide 
approach is necessary, albeit with subsets highlighted. In other words, 
to understand our fisheries we must understand all of the connections 
across space, time and trophic levels. To describe and predict the 
present oil spill and its effects on the environment we must do 
similarly. The scientific approach to all of these problems is similar 
and inter-related.
    Coastal ocean state variable estimation requires both observations 
and models. Observations alone are insufficient because the sampling 
problem is so enormous - there can never be enough data. Models are 
therefore required to extend the observations with proper dynamical 
(and for living resources, proper biological) constraints. However, 
models alone are less than useful, owing to the need for, and the 
uncertainties in, model initial and boundary conditions and 
parameterizations. Thus any coastal ocean observing system must 
coordinate between observations and models, with the goal of formally 
linking the two elements through data assimilation. It is a large task, 
and an evolving one, requiring nurturing and sustenance. There is no 
point in engaging if there is no commitment to sustain the efforts.
    Additionally, it must be recognized that there is no single 
observing sensor or sensor delivery system that is adequate. Required 
are arrays of fixed moorings for time series of water column variables 
and surface meteorology, HF-radar for surface current mapping, gliders 
and profilers for water column variable mapping, conventional shipboard 
surveys, satellite imagery with both passive and active sensors, 
satellite tracked surface drifters for specific applications (as 
presently being used), and other sensors/sensor delivery systems to 
fill specific gaps or deal with specific local requirements. Emphasized 
again are sustained observations. For instance, the ocean circulation 
varies on times scales from diurnal to interannual. It is therefore 
impossible to define long term mean circulations, or the seasonal 
variations about the means, without years of sustained observations. 
The same can be said of biological variables, as alluded to earlier in 
my statement about separating natural variability from what may be oil 
spill related.
    Similar can be said of models. No single model is adequate to cover 
all ocean processes. Deep-ocean models generally require larger domains 
than coastal ocean models (e.g., the Global HYCOM), but this comes at 
the expense of resolution. Higher resolution coastal ocean models 
require connection with deep ocean models, which can be accomplished 
through nesting (e.g., the WFS model nesting ROMS in HYCOM). Estuarine 
models require connection with coastal ocean models often through 
multiple inlets, necessitating unstructured grids and even the facility 
to flood and dry land. There is no single modeling solution, nor should 
there be because, given inherent errors, an ensemble of models is a 
reasonable approach.
    Finally, and consistent with the RA/RCOOS concept, there is a 
compelling need for familiarity and commitment to one's locale. Harmful 
algal blooms provide a case in point. Not all ``red tides'' are the 
same so how one would model Alexandrium in New England is different 
from Karenia in Florida, two dinoflagellates that make their livings 
and manifest their toxins in entirely different ways. Processes such as 
these are just too complex to generalize.
    Is the effort worth the cost? Our approach to the questions 
addressed today would be much different if we had the RCOOS in place so 
the answer is certainly yes. Moreover, I can testify today from 
personal experience that the only reason my USF Ocean Circulation Group 
was able to respond to the crisis, as we did, is because we had 
resources in place from previous COOS activities, supplemented by many 
small, competitive research grants. So with some trepidation, I am also 
here today to tell you that not all earmarks are bad.
    The total costs are not insignificant. The original Ocean.US 
number, especially that for the RCOOS, is woefully small; the U.S. 
Commission on Ocean Policy number was an improvement, but still too 
small. Recently, in a N.Y. Times interview, I used a figure of 1B, and 
depending on how that would be distributed nationally between the RAs 
and the agencies, that to could be inadequate. In view of a recent 
estimate of 138B for the ocean-dependent economy in the United States 
(in normal times), provided to the Council of Environmental Quality by 
members of Congress, a less than 1% investment on describing, 
understanding and predicting ocean behaviors does not seen 
unreasonable. After all, there are individual corporate CEO salaries 
that have exceeded 100M, and ExxonMobil profits alone have exceeded 
40B. Previous BP profits were another 22B. In contrast, a 1B investment 
in the coastal oceans of the United States does not seem unreasonable. 
Not only will it provide the knowledge needed to be better 
environmental stewards, it will help train the next generation of 
scientists, employ a highly skilled work force, and support the small 
(mostly United States) businesses that make the sophisticated 
instruments and instrument delivery systems that are required for 
implementation.
    The discussions on IOOS, RA, RCOOS, and COOS are a pathway forward, 
but needed right now is an immediate and accelerated response to the 
Deep Horizon oil spill. Priority must go to the Gulf of Mexico and 
Southeastern United States regions while moving toward enabling the 
entire NFRA concept for the nation as a whole. The crisis now is in the 
Gulf of Mexico, but the future requires a build-up for the entire 
nation.
    In summary, the unprecedented, Deep Horizon oil spill shed an 
unwanted light on the environmental stewardship of our nation's oceans 
extending out beyond the EEZ. An immediate response is required 
followed by a staged implementation of an RCOOS concept akin to what 
was advanced by Ocean.US. The immediate response, in addition to the 
outstanding efforts already in place by the agencies under the unified 
command, must be directed at the Gulf of Mexico and Southeastern United 
States, and these should entail individuals and institutions who have 
demonstrated performance in response to the crisis. Observations in 
support of oil spill trajectory modeling, both surface and subsurface 
are essential. Scoping out the nature of a potential subsurface threat, 
as quickly as possible, is necessary for contingency planning and 
possible mitigation. Similarly, with oil now approaching new shorelines 
in addition to those already marred along coastal Louisiana, we must 
have improved observing and modeling tools in place to plan for the 
potential invasion of our estuaries by oil. It is not just a matter of 
taking stock of natural resources to potentially be lost, but 
understanding how these natural systems work so that maybe more of our 
natural resource can be spared damage or destruction.
    My intention was not to be critical of the agencies, collectively 
or individually, instead to highlight certain data and model 
deficiencies as requested and to advance a pathway forward. The 
response by our agencies has been excellent, so has the response by 
many outside of the agencies. We must marshal all of our resources if 
we are to minimize the effects of this tragic occurrence.
    I thank you for your invitation to speak and for you attention. I 
also thank everyone in the federal, state and local agencies, the 
private sector and the academic institutions who are working tirelessly 
to assist.
                                 ______
                                 

  Response to questions submitted for the record by Robert Weisberg, 
   Professor, College of Marine Science, University of South Florida

Questions from Chairwoman, Congresswoman Madeline Z. Bordallo (D-GU)
1.  What are existing and new data-gathering assets that will be 
        required to improve oil spill forecasting? Are these types of 
        assets readily deployable? Would most of these assets be 
        included in the architecture for most regional integrated ocean 
        observation systems? Should they be included?
Answer:
    I must begin my answer by stating that it is the fully three-
dimensional ocean circulation that determines where oil will go. Even 
the surface currents themselves are determined by fully three-
dimensional processes. Hence to successfully track oil either at the 
surface or at depth we must have sufficient information on the three-
dimensional ocean circulation. No individual sensor (current meter, 
drifter, HF-radar, etc.) or sensor delivery system (moored buoy, 
glider/profiler, etc.) is sufficient. Needed is a mixture of such 
sensors and systems, either for this Deepwater Horizon oil spill 
presently of for IOOS going forward. Different approaches to these 
measurements are also needed in deep, versus shallow water.
    In deep water we have been successful in modeling the Loop Current 
and its eddies as more data are assimilated into existing ocean 
circulation models. Specifically, sea surface height estimates from 
satellite altimetry, combined with internal temperature and salinity 
data obtained by airplane-deployed expendable bathythermographs (AXBT) 
and glider surveys have been of great importance, and these should be 
continued. The most reliable models in deep water (in my opinion) have 
been those run by the Navy (particularly the Global and Gulf of Mexico 
HYCOM), as these seem to have the best data assimilation. Other 
regional models nested into these (such as the WFS model run by my 
group) benefit from the data being assimilated into the larger scale, 
primarily deep ocean, models. Thus it is critical that these data 
assimilative larger scale ocean models remain assessable by all other 
researchers (as they are presently) so that we can also provide the 
best regional (coastal ocean) circulation products.
    The coastal ocean presents its own set of requirements. Here we 
must account for the interactions between the deep ocean and the 
coastal ocean and between the coastal ocean and the estuaries. As with 
the deep ocean, observations and models must be coordinated because 
there can never be enough observations and models without observations 
are less than useful. Best results are obtained when these two 
activities are coordinated. Beginning with how the coastal ocean 
circulation is forced, we must have sufficient observations on coastal 
ocean winds, and this necessitates buoys deployed judiciously across 
the continental shelf, with surface meteorological sensors (winds and 
heat fluxes), in-water current sensors such as acoustic Doppler current 
profilers (ADCP), and in-water temperature and salinity sensors. These 
buoys must span the dynamically distinct regions of the continental 
shelf, including: 1) the outer shelf, defined as an internal Rossby 
radius from the shelf break, where deep ocean currents directly impact 
the shelf circulation, 2) the inner shelf, defined the region of 
interacting (through divergence) surface and bottom frictional (Ekman) 
layers, 3) near-shore, the region embedded within the inner shelf that 
is further modified by low salinity waters of estuarine origin, and 4) 
the mid-shelf for those continental shelves that may be wide enough 
[like the West Florida Shelf (WFS)] to distinguish inner from out shelf 
regions.
    Complementing moored buoys are HF-radars that map surface currents 
and a combination of profiling floats and gliders that map the internal 
temperature and salinity fields, all over areas larger than individual 
moored buoys. This ensemble of observing tools (moored buoys, HF-radar 
and profilers/gliders) form the nucleus of what is needed in a 
sustained fashion for the Deepwater horizon oil spill and for IOOS. 
Additionally, satellite tracked surface drifters are very useful, but 
only if these are repeatedly deployed, as we are presently doing on the 
WFS.
    It is noted above that my attention is mainly on sensors for winds, 
currents, temperature, and salinity. Of course there is a need for 
biologically oriented sensors (chlorophyll fluorescence, light, 
nutrients, etc), but these sensors are still either developmental or 
suffer from fouling when deployed over long intervals. Every effort 
should also be made to include such sensors on buoys and profilers/
gliders in ways that are feasible, and further developmental activities 
should be promoted. Certain measures of light may be capable of 
identifying subsurface hydrocarbons and once calibrated against actual 
in situ measurements these can become very effective tools for 
identifying subsurface hydrocarbons when deployed on moorings, 
profilers and gliders.
    Lastly we cannot lose sight of satellite sensors for sea surface 
height, sea surface temperature and color. NASA or NOAA supplied, there 
must be sufficient funding for data acquisition, interpretation, and 
for new algorithm development, all of which are essential for both the 
deep ocean (as already stated) and the coastal ocean.
2.  Predictive models are generated at multiple scales and resolutions, 
        yet all of our attention has been focused on the open Gulf. How 
        can we better integrate oceanic, estuarine, and coastal models 
        into tools, which we can use to respond to oil spills? Should 
        specific attention be given to encourage the development of 
        innovative new technologies to detect, contain, characterize, 
        model and respond to oil spills?
Answer:
    My answer is certainly yes. In the same way that no individual 
sensor or sensor delivery system is sufficient, no single model is 
either. To model the coastal ocean, we must consider the interactions 
with both the deep ocean and the estuaries, and this requires models 
with different resolutions. For instance, a deep ocean model that may 
work very well with resolutions of a few kilometers cannot function as 
well across the inner shelf and estuaries where resolutions down to 
perhaps 10m to 100m are necessary to include the conveyances of mass 
(and oil) across inlets and embayments. These higher resolution models 
exist and are being used by academic scientists, but they generally 
remain in a research and development mode. This work must be encouraged 
if we are to advance the state of the art and provide necessary tools 
for environmental stewardship.
3.  How are the Agencies, academia, and industry working together to 
        share data? What have been the best practices? What is needed 
        now to address this spill and to prepare for the next spill?
Answer:
    Whereas I am loath to be negative, the answer (based on my recent 
experience) is cooperation remains poor. For instance, beginning on May 
8 I began making formal requests for oil location information to 
reinitialize oil spill trajectory forecast models for the purpose of 
improving upon their accuracy. These requests were very specific and 
through around 7/8 they remained totally unfulfilled. This was despite 
assistance by my Congressman. I got the impression that the UC would 
prefer that people like me just go away. I would if I did not feel that 
I had something to offer in this time of crisis. There are excellent 
examples of some individuals in the agencies who are reaching out. The 
Coast Guard, for example, has shared their surface drifter data. NOAA 
Hazmat has effectively interacted, NAVY models are made available, but 
other than these (and I'm sure other) good examples, both the federal 
and state agencies remain largely insular, and this is a major 
disappointment. I did just receive acknowledgement of my request by the 
lead of the NOAA modeling group who will begin sending me flight 
information available to him; however, he is also without a unified 
product as I requested. It appears that no one in the Unified Command 
is driven to produce such a product, one that I continue to maintain 
would be very helpful to all trying to forecast where oil may go. 
Moreover, the sustained cloudiness over the past couple of weeks 
accentuates the need for such a unified oil location product. Why else 
are we spending so much public money on so many disparate groups 
gathering disparate data if these data are not being merged into one 
useful product? I now see that the email distribution lists for these 
disparate data are enormous. Of all these people, cannot one subset be 
tasked with providing a unified product? It was particularly troubling 
to me in a recent conversation with a Coast Guardsman to learn of just 
how much time is spent ferrying dignitaries and reporters on 
overflights, versus sharing necessary data in a convenient, usable 
form.
    As regards the possibility for oil beneath the surface I see 
virtually no sharing of information other than what several academic 
researchers found. I do not even know if NOAA has planned a systematic, 
repeated set of surveys to identify subsurface hydrocarbons and to map 
their evolution.
    Addressing the spill now requires better information on the 
locations of oil both at the surface and at depth. How the Loop Current 
will behave over time will determine the threat to the Florida Keys and 
the Southeastern U.S., and monitoring this will require systematic 
deployments of satellite tracked surface drifters along with a 
continuation of AXBT drops. Whereas the Navy is not making their glider 
information readily available (at least as far as I know) they are 
using these for assimilation in models (and the model outputs are 
available) so those activities all continue to be very positive and 
necessary contributions. Additional data are required within the 
coastal ocean, and these needs are addressed in answer to question 1 
above.
    Longer term we need to implement the Coastal Ocean Observing 
Systems, as conceived by IOOS, but I contend that unless true 
partnerships are forged between the agencies, the academics and the 
private sector then the potential for these systems to be of long-term 
societal benefit will not be realized. By true partnerships I mean a 
significant portion of the funds being distributed outside of the 
agencies and in particular to the academic institutions geared toward 
the research and development necessary to describe, understand, and 
predict the workings of the coastal ocean. Without such mandate I fear 
that bureaucracies will grow at the expense of either advancing 
knowledge or improving environmental stewardship. Based on my entire 
career experience, I can emphatically state that the agencies cannot do 
this alone, nor should they attempt to.
    Best practices as I presently see are those engaged by some 
referenced above. I can access several (Navy, NOAA, academic) models 
from open servers, NOAA/NCEP wind fields are readily available, the 
Coast Guard SAR group provides surface drifter data on a daily basis, 
satellite images remain readily available for many important variables. 
In essence, the more open access that there is for observations and 
models, especially at a time of crisis, when proprietary needs (duly 
recognized and appreciated) must take a back seat (within reason), the 
better off we all are in responding to the crisis
Questions from Congresswoman Lois Capps (D-CA)
1.  This tragedy demonstrates the value of having a sustained ocean 
        observing system - like buoys, HF radar, and satellites - 
        running and sending data. Dr. Weisberg, you use instruments 
        such as these to run your model simulations, which predict how 
        oil will be transported by winds and ocean currents. At what 
        capacity, would you say, is our system of ocean observing in 
        the Gulf of Mexico?
Answer:
    Interestingly, whereas a vast majority of offshore oil production 
occurs in the Gulf of Mexico and the President's (pre-oil spill) push 
for further exploration focused on the Gulf of Mexico and the 
southeastern U.S., these are the two regions of the contiguous United 
States that have the least developed coastal ocean observing systems 
assets. Why such a mismatch exists between environmental monitoring 
needs and resources is a mystery. Could it be that the Gulf of Mexico 
and the southeastern U.S. suffers from too much bureaucracy and not 
enough action. For instance, for years we have been treated to glossy 
brochures from the Gulf of Mexico Alliance and other such groups, but 
without any delivery of resources to put words into action. And when 
actions do occur they seem to be more political than substantive.
    Immediate attention should be given to adding coastal ocean 
observing system capacity to the Gulf of Mexico and to the Southeastern 
U.S. In doing this we must identify what presently exists and build 
upon these extant resources in a systematic way, recognizing that there 
are individuals and groups with demonstrated performance that already 
provide a basis upon which to build. There is nothing wrong with a 
tried and true system of advancing knowledge through publication in 
refereed professional journals. IOOS, in my opinion, deviated from this 
practice when it put too much emphasis in ``stakeholder'' plebiscites. 
Interactions between ``stakeholders'' and providers, while obviously 
important, should not be allowed to stifle practicing the scientific 
method for advancing knowledge, without which ``stakeholders'' will 
never be properly served.
2.  Would you say there is a fairly complete system of instruments? Or 
        are there gaps in coverage that need to be addressed?
Answer:
    My answer is no. However, there are nuclei for coastal ocean 
observing systems throughout the Gulf of Mexico and the southeastern 
U.S., which can be systematically added to for the purpose of filling 
data gaps. For instance, legacy programs from an era of previous 
earmarks and competitive research programs advanced observing system 
assets off 1) the Texas, Louisiana, Mississippi, and Alabama coastlines 
under the aegis of the Gulf of Mexico Coastal Ocean Observing System 
(GCOOS) and 2) the Florida, Georgia, South Carolina and North Carolina 
coastlines under the aegis of the Southeastern Coastal Ocean Observing 
Regional Association (SECOORA). While GCOOS and SECOORA overlap, it is 
important to note that SECOORA was designed in recognition of the 
connectivity between the eastern Gulf of Mexico and the Southeastern 
U.S. that is provided by the Loop Current--Florida Current--Gulf Stream 
system, and this connectivity trumped considerations based on static 
regional geography alone. Connectivity is of paramount importance to 
any discussion of ecologically-based-management or marine spatial 
planning, without which these phrases are lacking in scientific 
meaning. For instance, while definitions may have been made for so-
called large marine ecosystems, these ecosystems are not independent of 
one another. We should not allow definitions to stand in the way of 
scientific inquiry and the advancement of knowledge.
    A strong basis, therefore, does exist for coastal ocean observing 
system activities in the Gulf of Mexico and the Southeastern U.S. that 
can be readily built upon. Shoring up support for these and then 
incrementally adding moorings, HF-radar, profilers and gliders, plus 
other assets as spoken about in my earlier answers to questions 
provides a pathway forward.
    I will reiterate that the pathway forward must recognize the 
requirement for true partnerships as mentioned earlier. The agencies 
(federal, state or local) cannot do this alone. In fact, I contend that 
the lack of true partnering has been a major impediment to achieving 
coastal ocean observing system implementation.
3.  What would you like to have in place in the Gulf region so that you 
        and your colleagues could have the information needed to 
        respond?
Answer:
    For the coastal ocean, the implementation of coastal ocean 
observing systems as envisioned by IOOS and as presently organized 
under GCOOS and SECOORA. The basic observational set would include 
moorings for surface winds (and heat flux), water column currents and 
temperature and salinity, plus other variables pertinent to biology (as 
evolving sensors technologies permit); hf-radar for surface currents; 
profilers and gliders for 3-D water property structures; satellite 
tracked surface drifters; and a limited number of wave gauges. These 
would be in additional to elements from the national backbone of 
coastal tide gauges and NDBC weather buoys, plus satellite sensors.
    For the deep ocean a suite of measurements for assimilation into 
large scale ocean circulation models (satellite altimetry, satellite 
SST, deep ocean glider temperature and salinity data and air deployed 
XCTDs).
    In general, a set of nested circulation models for representing the 
deep ocean, coastal ocean and the coastal ocean, estuary interactions; 
wave models, and the evolution of ecological models are also needed. 
Ecological models, however, must explicitly include the fully three-
dimensional ocean circulation because by uniting nutrients with light 
and distributing water properties the ocean circulation underpins 
ecology.
    The above components are necessary in response to the present 
crisis and equally important for environment stewardship going forward. 
Additionally, for the present crisis, we still require information on 
hydrocarbon locations both at the surface and at depth and information 
on the rate of decay/consumption of oil by weathering and biological 
processes.
                                 ______
                                 
    Ms. Bordallo. Thank you, Dr. Weisberg, for your valuable 
input on the need for full implementation of an integrated 
ocean observation system. I would like now to recognize Ms. 
Lee. Please begin your testimony.

    STATEMENT OF VALERIE ANN LEE, PRESIDENT, ENVIRONMENTAL 
            INTERNATIONAL LTD., SEATTLE, WASHINGTON

    Ms. Lee. Thank you, Madam Chairman, Mr. Cassidy, Acting 
Ranking Member of the Committee, and other members of the 
Committee. My name is Valerie Lee. I am the Senior Vice 
President of Environment International Government, Limited. 
EIGov is a service-disabled, veteran-owned small business. We 
specialize in environmental consulting, and the controlling 
service-disabled veterans are former Navy officers, one of whom 
is seated behind me to my right, Mr. Jack Burke. He served in 
Vietnam as a swift boat captain, and was decorated. He and the 
other owners of the firm support me in our testimony today.
    Collectively, we share a deep respect for the oceans and 
the marine environment, and with members of the Subcommittee 
and the people of the Gulf Coast, we would like to assist in 
any way we can in terms of providing advice, not only to 
conduct research, but with a point, to actually achieve 
restoration and some measure of making the public whole. It is 
with great pleasure that I answer the Committee's questions as 
to data gaps and what we can do about them.
    My background is law, science, and engineering. I have 
written a book along with others, The Natural Resource Damage 
Assessment Handbook, a legal and technical analysis. So, my 
perspective is a bit different from the others here seated with 
me today. I am practical. I have worked with teams of experts 
for many years, including well-regarded scientists like those 
seated to my right and to my left. Our speciality is working 
with inter-disciplinary teams in dealing with intractable 
problems that involve incredibly large data sets, like we have 
today.
    With that as a backdrop, I would like to address the 
Committee's questions as to whether or not we have sufficient 
data, and what we can do about it, especially in the subsurface 
environment. The short answer is no, we don't have sufficient 
data. The needs are substantial. There are major gaps. The 
reason why we have substantial needs is not for lack of 
interest. In part, it is a reflection of us all and what we 
don't see and what we can't touch, what we can't feel 
immediately sometimes is not measured, or I should say, not 
given the kind of importance that we would like it to have.
    In addition, there have been financial limitations. When we 
look at the current spill, we are looking at the size of an 
economic and environmental disaster that we have never seen 
before. We are talking about billions and billions of dollars 
of damages if we were to place an economic value on that which 
is priceless, the Gulf; priceless, the lives of the people who 
are lost. And we express our condolences to the families.
    We are off the page. We are out of the book. We are 
learning on the job. We are building a fire truck in the middle 
of a fire. So, what can we do? Is there a lack of hope? The 
answer is, I believe, there is hope, and it is through science.
    So, what would we do? First, marshal the science, as the 
folks beside me have mentioned, or will mention. And also, we 
need to spend some money. Whose money? That is for the Congress 
to decide. I would argue that there were environmental impact 
statements done by the oil industry all over the Gulf that 
could have collected essential data to meaningful and 
reasonably understand potential technical impacts, and that was 
not done.
    If I look at the size of the price tag for meaningful 
injury assessment, as it is called in the business, and the 
development of a restoration plan, which is really what this is 
about, we are looking at over a billion dollars, easily. We are 
looking at the kinds of things which are developing three-
dimensional models. It is collecting water samples. Right now, 
we do not have the vessels in place and the real-time 
monitoring data to track plumes. We have to collect samples 
from the subsurface, bring them above, and then send them to 
the shore for analysis.
    People sitting in a boat, the scientists, don't know where 
the plume is. They can't react in real time to really measure 
where it is. And, yes, I do believe there are subsurface 
plumes. The subsurface plumes were documented in a test spill 
that was done off of Norway in 1999. In addition to having real 
time information and vessels, the bottom line is that we need 
to do transects of the area, and we need to collect information 
in a way that we have never done before and with a thoroughness 
that we never have.
    In short, my recommendation would be to activate the Navy 
and to get a group within the international community to bring 
to bear the vessels that we need, the technologies that we 
need, and we need to get at it quickly. And I have other 
recommendations, including studies related to toxicity, in my 
testimony, but I will submit that for the record, and happy to 
answer questions.
    [The prepared statement of Ms. Lee follows:]

Statement of Valerie Ann Lee, Environment International Government Ltd.

    Good morning Chairwoman Bordallo and Ranking Member, Mr. Brown, and 
members of the Committee. My name is Valerie Lee. I am the Sr. Vice 
President of Environment International Government Ltd (EIGov). EIGov is 
a service-disabled veteran-owned small business (SDVOSB) environmental 
consulting firm. The controlling service-disabled veterans are former 
Navy officers, one of whom is a decorated, combat-tested Vietnam 
Veteran Swift Boat Captain, Jack Burke, seated behind me. Mr. Burke and 
I first met professionally in 1986 many years ago working together as 
government attorneys on a very large oil spill in San Francisco Bay 
that resulted in one of the most successful injury assessments and 
restoration efforts still to this day. I am also the President of 
Environment International Ltd., a woman-owned sister company to EIGov.
    Our focus at these companies is an interdisciplinary approach to 
science and law to address matters just like the Deep Water Horizon oil 
spill. We are group of cross-disciplinary trained experts - lawyers who 
are also scientists and engineers, economists who are also 
environmental engineers and the like.
    We share a deep respect for the oceans and the marine environment 
with the members of this Subcommittee and the people of the Gulf Coast 
and we have a great love of science and law. The Principals of EIGov 
who have served our country and have a commitment to duty, honor and 
service are pleased to support me in my testimony today.
    The Subcommittee has asked that I address:
        1)  The existing gaps in observation data needed to predict the 
        extent and trajectory of the oil spill, including information 
        about subsurface plumes;
        2)  The adequacy of pre- and post-impact spill data needed for 
        conducting natural resource damages assessments;
        3)  Additional data required to understand the impact of the 
        oil spill on the marine environment; and
        4)  Other information relevant to the Subcommittee's work and 
        appropriate assessment of injury.
    Before addressing these issues, I would like to provide the 
educational and experiential base that helps inform my answers to these 
questions.
    I received my undergraduate degree in biology from Bates College in 
Maine, a masters in civil engineering from the Massachusetts Institute 
of Technology, where my focus was on water resources and my law degree 
from the Yale Law School. I am the primary author of the only treatise 
in existence on natural resource damage assessment, the Natural 
Resource Damage Assessment Handbook: A Legal and Technical Analysis, 
published by the Environmental Law Institute in Washington, D.C. This 
treatise is used by the government agencies and others to train NOAA 
personnel, US Fish and Wildlife personnel in natural resource damage 
assessment.
    I have worked on natural resource damage matters in all years since 
1986. I have provided advice to private parties and also all levels of 
government on natural resource damage assessment matters. I have 
assembled teams of experts from multiple disciplines on cutting edge 
science issues to identify information that should be collected to 
assess injury, analyze the data, and frame approaches that will restore 
it and value injury. We have dealt with some of the largest data sets 
in the world to address consider natural resource injuries from 
pollution and have worked on more than one what is called ``mega-site'' 
where potential injuries are spread across hundreds and hundreds of 
square miles and injuries are hidden from view in the subsurface 
environment - such volumes are huge. These subsurface environments have 
not been the deep ocean; they have been groundwater plumes, because 
quite frankly the world has never dealt with a deep water spill and 
injuries beginning a mile beneath the ocean surface.
    I have conducted neutral reviews of oil spill contingency planning 
and response after Exxon Valdez and provided advice in connection with 
improvements that could have been made to integrate natural resource 
injury assessment with oil spill response.
    I am expert in the law associated with natural resource damage 
assessment. While at the Department of Justice, working with Jack Burke 
our CEO, I filed some of the first natural resource damage lawsuits on 
behalf of the United States. I am fully aware of the law under the Oil 
Pollution Act, the Clean Water Act and other statutes that are relevant 
to the Deepwater Horizon Oil Spill.
    With that as a backdrop, I would like to address the Subcommittee's 
questions on data to consider subsurface potential impacts, the data 
gaps and needs to conduct natural resource damage assessments, and the 
data to understand the impact of the Deep Horizon Oil Spill on the 
marine environment. I would also like to contribute insights on the 
current structure and procedures that are in place to respond to oil 
spills and conduct natural resource damage assessment.
    The short answers to the Subcommittee's questions are that the 
resource needs are substantial and immediate. The data gaps are large. 
The amount of resources that have been brought to bear to consider the 
impacts of the oil spill in the marine environment, especially the 
subsurface environment are inadequate to the task at hand. The reason 
for this is not for lack of interest on the part of the agencies, NOAA 
and U.S. Fish and Wildlife Service; it is for lack of technical and 
human resources. The paucity of data is created by financial 
constraints. It also derives from the human frailty of us all, whether 
we are members of the public, work for government, or are employed by 
the private sector. Humans are not well suited to understand the 
importance of what they cannot see and feel within their personal 
spheres, even if the threats are large and real. The world beneath the 
surface of the ocean is beyond our view. Its importance has not been 
recognized in the way that it should have been by all of us.
    For these reasons, we are behind the curve in scientific knowledge 
of the ocean ecosystems and the species that live there and support our 
economy. The agencies tasked with studying natural resource injuries 
and restoring injuries when they happen do not have procedures and 
integrated approaches to address subsurface spills involving the deep-
sea environment. We are playing catch-up. We are building a fire truck 
in the middle of the fire to respond. The civilian federal agencies 
responding don't have the resources they need to assess injury and 
mitigate and restore injuries to the Gulf.
    The Deep Horizon Oil Incident - an explosion that caused 
substantial loss of life and we send our condolences to those families 
for their loss - an explosion that has resulting in an ongoing spill of 
a growing spatial and volumetric magnitude that is hard to fathom, 
causing injury to our marine ecosystem and to entire coastal economy of 
a major part of the United States. Measured by environmental injury and 
economic losses, that we in the trade call lost human uses, this is the 
largest natural resource damage case that this country has ever seen 
and I hope the world will not see one again. Damages are in the 
billions.
    We are off-page and out of the book. With an ongoing spill of this 
size and severity, the law fails us as a mechanism for truly meaningful 
reparation for the sea, the marine ecosystem and the species that are a 
part of it, and the Gulf Coast economy supported by it. The law cannot 
achieve full compensation to make the public truly whole; a wise 
economist once said that in the free market system that which is 
priceless cannot be provided. The fundamentals of science are the only 
real means to achieve an outcome for this spill and to ensure that 
others do not ever place our regional economies and ecosystems 
supported by them in danger.
    As the Subcommittee has asked me to do, it is right to begin with 
data needs, data gaps, and how we fill them. Despite the spill's 
enormity and complexity, the fundamentals of science and logic guide us 
to an understanding necessary to build toward some type of restoration 
necessary for a healthy, vibrant Gulf Coast economy and a place where 
we and our children want to live, work and recreate.
    To conduct an injury assessment for this spill and to develop 
information to help us restore at least some part of the natural 
resources on which the vibrant Gulf Coast economy depends, we need to 
assess the following.
        <bullet>  The transport and fate of the oil in the subsurface 
        and surface regimes.
        <bullet>  The concentration of the contaminants in the 
        subsurface from the oil being released over very large 
        volumetric/spatial scales - currently one third of the gulf is 
        closed to fishing.
        <bullet>  The toxicity of these contaminants delivered to 
        organisms in the subsurface, e.g., fisheries, phyto- and zoo-
        plankton etc. and the toxicity at the surface to myriad species 
        of the Gulf Coast ecosystem.
        <bullet>  An understanding of the physical effects of oil that 
        can cause injury, such as breeding failure, or death.
        <bullet>  The location of species and whether or not they have 
        been exposed to the contamination; the species of concern are 
        not just the macro-charismatic ones, they are those at the 
        bottom of the food chain that are not easily viewed, phyto-
        plankton, zoo-plankton and others. They are the ones that are 
        exposed to toxicants at 3,000 feet and below as well as those 
        higher in the water column.
        <bullet>  The consequences of ecosystem chaos precipitated by 
        organisms ``feeding'' off the oil plumes and, thereby, likely 
        to deplete oxygen in major regions of the subsurface.
        <bullet>  Information on injuries that have already occurred to 
        mammals, birds and fish that are evidenced through bodies, not 
        seen on the surface, but lying far below on the sea floor.
    We have considered the cost to accomplish this work. Our estimate 
of the cost of an assessment to perform the foregoing might be 
surprising for some. It is at least a billion dollars. The reason why 
the number is so large is that it relates to the difficulty, expense, 
and time required to collect data with the current techniques in the 
deep-sea environment. Is it also driven by the enormity of the surface 
scale of known injury and the huge volumetric scale of the subsurface 
potential impacts that must be studied. We are limited in our ability 
to study such impacts. Among other things, there is:
        <bullet>  A rather rudimentary understanding of the deep sea 
        and subsurface ecosystem as compared to the surface;
        <bullet>  A paucity of high resolution data on currents in the 
        Gulf at different depths from 5,000 feet to the surface; this 
        information is required to run numerical models that could 
        offer mathematical predictions as to where the oil would go and 
        also help us understand its transformation;
        <bullet>  A lack of a developed 3-dimensional (3-D) 
        mathematical model that can be used to predict the transport 
        and diffusion of oil spewing out of the deep, even with the 
        collection of data above. Moreover, it may require the use of 
        super computers to run such models;
        <bullet>  A lack of proven effective instruments for real-time 
        measurement of contamination from oil in the subsurface, 
        especially at depth;
        <bullet>  A lack of understanding of where the plumes are at 
        depth and with what organisms the oil and dissolved phase toxic 
        compounds from it are coming in contact;
        <bullet>  The effects of the oil and its constituents that have 
        dissolved in water on organisms living in the subsurface;
        <bullet>  The cost of operating submersible vessels and surface 
        vessels in sufficient numbers to allow collection of empirical 
        data in sufficient quantity in subsurface space to be able to 
        create information on currents, location of plumes, contaminant 
        concentration, and exposures to organisms.
    Given that we are behind on the knowledge and technology curve, 
this information base must be created for this spill to assess injury 
and to build toward at least a partial restoration of natural resource 
injuries. Many say that this is not possible; however, I believe with 
the right team of experts and appropriate amount of resources devoted 
to the issue we have hope for identification and restoration of 
injuries from this spill and we will create an information base for the 
next spill, if and when such an unfortunate event occurs. I explain in 
greater detail latter in my testimony a practical approach to restoring 
injury to this vibrant ecosystem and the lives, businesses and economy 
supported by it. Restoration of the Gulf truly is a matter our economic 
health as a nation and in our interest in the defense of the nation. We 
have to begin planning for and implementing restoration now.
    The Gulf is dotted with rigs, some operating at thousands of feet 
below the surface; it would seem that the Congress may want to consider 
the costs of these assessments as properly assigned to the companies 
operating in the Gulf. Indeed, much of this work should have been done 
to prepare realistic and technically sound environmental impact 
statements and it was not done. Instead, the government and the 
industry relied on the silver bullet of the ``blowout preventer.'' In 
the case of the Deep Water Horizon, this silver bullet missed its mark.
    The Nation now understands the importance of the Gulf; its 
importance to the organisms who support us and our economy; its 
importance to our children and their future. We now understand that we 
should have spent more financial resources on ``inner space,'' the deep 
ocean, especially if we are to site hazardous activities like drilling 
that cannot be controlled and contained if the first line of defense 
goes awry. Appropriate risk management is to collect this information 
now, to ensure that we are prepared for a possible future failure. What 
follows are specifics of what we suggest as approaches to fill data 
gaps and meaningfully assess injuries. It also offers some possible 
improvements in government procedures in the aftermath of oil spills to 
ensure that we do not bring our economy to its knees as a result of 
spills.
1.  Identification of subsurface plumes and contaminant concentrations; 
        resource and data needs.
    The only study we could find on consideration of a deep-sea spill 
was performed by the Minerals Management Service, ironically, in 
conjunction with BP and oil industry participants. I have attached 
these documents to my written testimony. With minuscule quantities of 
oil in that test release study by comparison to what we have with the 
Deep Horizon Oil Spill, the results suggested that we would find what 
we are seeing in the Deep Water Horizon spill. Plumes were created 
subsurface and the oil did not rise to the surface in a direct path. 
Napthalene, a constituent of oil that is highly toxic, was dissolved in 
water and delivered at depth to resources in the contaminant's path. 
This is but one of the toxic compounds in oil.
    Existing current data in the Gulf is neither of the spatial 
resolution nor of the type that we need for accurate mathematical 
modeling plumes of the fate and transport of oil released at depths. 
Further, at depths below approximately 1500 feet there is no light, the 
environment is very cold, and the pressure is extremely high. Oil and 
gas at depth acts and is transformed in ways different from at the 
surface. We saw a dramatic illustration of this with the hydration 
problem that made the Top Hat solution to stop the spill of oil 
useless.
    NOAA's numerical fate and transport models are excellent, but they 
were designed to predict fate and transport of plumes at the surface. 
Thus, using a model the existing numerical fate and transport models to 
predict where the plumes are from the Deep Horizon will go and in what 
concentration organisms will be dosed with toxicants is not as reliable 
as we would like. Given that people's lives and livelihoods in the Gulf 
Coast depends on science providing reliable guidance for the fate and 
transport and injury assessment, we must take a different approach than 
reliance on numeric fate and transport models.
    The government must collect empirical data. The government must 
collect sufficient samples over large spatial scales (more than once) 
to be to able to rely on statistics to help us understand the magnitude 
and environmental severity of the plumes impact and the ecosystem chaos 
that they spawn by creating a food source for organisms that may 
deplete the oxygen in major areas of ocean. Vessels and equipment can 
be used to collect real time, physical information on currents, 
temperature and the like. Similarly, we need to collect water samples 
and determine whether oil contamination is present.
    I would like to underscore that governments often give short shrift 
to statistics because they do not understand the discipline, but data 
collection and application of statistics to abstract conclusions for 
larger scale regimes and are our best hope for the identification of 
plumes and the assessment of injuries from the Deep Horizon spill.
    We are challenged in two ways with the collection of empirical 
data, even with well-designed sampling studies and effective use of 
statistics.
    First, based on an exhaustive review of research vessels (surface 
and subsurface), NOAA, which operates vessels frequently in partnership 
with universities, does not have enough marine assets/vessels to 
perform the kind of broad-scale, organized study required. NOAA has on 
the order of a total of a dozen surface and subsurface major vessels 
combined in the Gulf area at the present time, with three or four large 
vessels having already collected some data. This size of the fleet in 
Gulf, even including vessels primarily operated by Universities is not 
big enough to collect data over the spatial and volumetric scale that 
encompass a third of the Gulf. Thus, Congress should work with the 
President, including units of the Navy, to consider how this fleet 
could be augmented quickly to collect data. The type of data collected 
should include high resolution, spatially targeted data on currents at 
various depths.
    Second, assuming we augment the NOAA research/study fleet, we have 
additional technical challenges. Technologies that we should have for 
reliable real-time chemical concentration data collection at depth do 
not exist. The industry and the government is in the position of 
``making do'' with technologies developed for other data objectives, 
such as, temperature and opacity (physical measurements) rather than 
chemical concentrations of the constituents of petroleum products to 
identify the existence of contamination in the subsurface that 
encompass enormous volumes (3-D spaces). Fluorimetry is a technique, 
that have received limited use for the detection of ``oil'' and it may 
not be effective. In addition, it cannot be used to provide information 
on contaminant concentrations, such as of naphthalene, in water. To 
consider contaminant concentrations gas chromatographs and mass 
spectrometers must be used. These are big instruments that are in the 
lab and not field measuring techniques.
    As a result, NOAA has largely relied on using samplers lowered from 
a surface vessel to depth to collecting water samples. Such samples are 
raised to the surface on board ship. The ship needs to steam to port 
and then provide the samples to laboratories which will then take days 
to be analyzed. The net effect of this method is that investigators do 
not know whether or not they are taking samples in the plume and, if 
so, do not have feedback to enable them to measure the vertical and 
horizontal extent of it while they are on location to sample. They 
cannot find its boundaries. Thus, our ability to locate subsurface 
plumes and contamination is substantially compromised. The 
investigators are flying the plane without instruments and guessing 
which way they should go and whether they have found the airstrip on 
which to land, so to speak.
    We would recommend that a significant effort be launched 
immediately to support surface vessels with the helicopter pickup and 
delivery of oil samples and set up shore-side laboratories to process 
samples as quickly as possible.
    These are our principal recommendations for the identification of 
the plumes from the Deep Horizon that do exist at depth and to better 
understand the subsurface of the fate and transport of oil.
2.  Data needs to assess injuries to natural resources: species and 
        resources.
    Scientists will usually say that there is not the kind of 
``baseline'' data that they need to be confident in the assessment of 
natural resource injuries from oil spills. The Gulf Deep Horizon is 
this problem on steroids. By comparison to resources that we see on the 
surface, there is much less known about resources in the subsurface 
environment, especially resources of the deep-sea environment.
    First, to assess injury we need to know species distribution and 
whether or not there has been exposure to oil. Second, we need to 
understand how species- fish, plankton, mammals, crustaceans etc. and 
their various life forms--living at various depths in a water column 
that is a mile deep are affected by petroleum products. If we are 
looking at injury from a population perspective, we need to know 
numbers.
    When decisions were made to move ahead with deep drilling, we 
collectively did not do the job that we should have. Further, the 
reality is that there is never perfect data. So to assess injury, we 
need to fill this gap, not completely, but with reasonable information 
to allow us to make decisions that will help restore what we can from 
the spill and protect our fisheries and other resources that are the 
keystone of the Gulf's economy and way of life. Our recommendations are 
as follows.
    First, gridded transects of the area of likely plume activity and 
underneath the surface contamination should be conducted. Transects 
should be accomplished with submersibles just like those conducted with 
planes in overflights to identify species composition and distribution. 
We recommend that real-time videography be used. Both remote 
submersibles and those manned by scientists can be used. Transects 
should be designed to systematically cover the area at various depths.
    Second, just as we do a beached bird survey and walk a beach to 
identify dead birds and allow statistical analysis and estimation of 
the total number of birds killed, so to we should follow a similar 
protocol in the areas of the worst contamination. Such transects should 
follow the bottom and, obviously must use lights at depths below 1500 
feet.
    Third, we need to immediately synthesize available information on 
toxicity to a variety of species. As strange as this may seem, NOAA and 
the US FWS have never collected a systematic and thorough compendium of 
known toxic effects for the various species. For years, this has been a 
data need for the entire natural resource damage programs of both 
agencies AND it is essential for this spill.
    Fourth, after a quick review of existing information, the 
governments should launch shore-side toxicity studies for keystone 
species. It is without question that even with a scientific literature 
review, we have substantial data gaps. Illustrative of this is that the 
most information that I am aware of on the impacts of oil spills and 
petroleum products on fishery resources is on salmonids and there is by 
comparison very little information on other species. This also has been 
a data need for many years and its time has come with the potential 
collapse of the fishing industry in the Gulf.
3.  Other recommendations to improve Natural Resource Damage Assessment 
        in the marine environment and the Deep Water Horizon Spill
a.  Applied Science and technology focused on restoration of the Gulf 
        ecosystem, economy and way of life
    The people of the Gulf Coast and the Nation and its economies have 
been supported by a vibrant Gulf ecosystem. The spill threatens this 
ecosystem. As I have described, the need for scientific and technical 
information is great in connection with the assessment of injury from 
the spill and NRDA. However, as we fill these gaps, our focus should be 
on applied science and technical development. Data collection, science 
and technology are merely the means to understand what action we must 
undertake to make the ecosystem and the people supported by it whole. 
It is the most important of applications.
    Restoration planning and assessment must begin now even as we begin 
to assess the injury from the spill. One builds on the other. It is our 
hope for the Gulf and the lives that have been wracked by the Deep 
Horizon Well spill.
    The United States must launch an effort of scientific integration 
and coordination of a scale that we have never seen before. We need to 
select and organize distinct subgroups of scientists in teams to 
quickly and efficiently assess critical habitat and species injuries. 
We must determine the critical habitat and injuries to species that are 
keystones of the Gulf Coast's biological environment and industries in 
the Gulf. These industries include commercial and recreational fishing, 
tourism, underwater diving, and bird and wildlife watching, amongst 
others. The government must combine science, policy and public input on 
an unprecedented scale.
    We must move in the face of less than perfect information to begin 
to mitigate and injury to achieve environmental, economic, and social 
restoration. There should be an emphasis on using small businesses in 
restoration planning and implementation as small business to foster 
rapid economic restoration.
    We are fighting to save the Gulf's ecosystem and our ways of life 
that depend on it. This should be our highest priority apart stopping 
the spill and this fight led by scientists will last for years to come.
b.  Better integration of NRDA to oil spill response.
    We have a long history of oil spill response in the United States. 
The Coast Guard and others have done an excellent job. If there was a 
failing on the PREP exercises, experts who participate in them indicate 
that they are not aware of any deep-sea drill scenarios. This should 
change if we intend to continue to have deep-sea rigs.
    Second, human safety and stopping the spill are the primary 
objectives, especially in the early days of the spill. The Incident 
Command System is focused nearly exclusively on this. Moreover, the 
Coast Guard culture is properly one of working with the Responsible 
Parties. NRDA is seen by some in the Coast Guard as punitive.
    The Deep Water Horizon necessitates a reconsideration of this 
practice and way of dealing. We suggest that the Administration 
consider revisiting the procedures and protocols because with the Deep 
Horizon we have learned that a spill of this magnitude can threaten the 
regional economy and dramatically affect peoples' lives. It is a 
dramatic illustration of how humans really are interconnected to the 
natural resources--the health of the natural resources is more than an 
``environmental issue,'' it is important to the economy and even our 
national security. Different policies probably would have meant that 
the resources required to investigate and mitigate impacts could have 
been activated sooner. Arguably, it might not have made a difference. 
But it is worthy of consideration by the Administration whether or not 
there should be a parallel emphasis in Incident Command System on NRDA.
c.  NOAA and US FWS are not well equipped to deal with NRDA in the 
        subsurface environment.
    In over 20 years of working with oil spills, I am not aware of NOAA 
or US FWS focusing on the potential of a spill like this in the 
subsurface environment for NRDA. Further, the resources of the two 
agencies are too limited to address a situation of this magnitude. They 
are using contractor support, but both agencies are focusing more on 
the resources that we see on the shore or on the sea surface. Moreover, 
in the case of the US FWS, the staff is exceedingly small. This is not 
to say that staffs should be increased because to truly be ready for 
all types of possible injury and associated assessment methods would 
require employing a significant percentage of the experienced 
biological scientists in the U.S. We recommend that NOAA and the US FWS 
develop an established network of experts identified within the United 
States to draw on for matters like these.
    Thank you for your time. I look forward to any questions you might 
have.
                                 ______
                                 
    Ms. Bordallo. Thank you very much for your comments on the 
natural resource damage assessment process, Ms. Lee. And I 
would now like to recognize Dr. Reed to testify.

     STATEMENT OF DENISE J. REED, PH.D., INTERIM DIRECTOR, 
    PONTCHARTRAIN INSTITUTE FOR ENVIRONMENTAL SCIENCES, AND 
  PROFESSOR, DEPARTMENT OF EARTH AND ENVIRONMENTAL SCIENCES, 
       UNIVERSITY OF NEW ORLEANS, NEW ORLEANS, LOUISIANA

    Dr. Reed. Thank you, Madame Chair, distinguished members of 
the Committee. Thank you for the opportunity to discuss with 
you today how we are going to respond to the Deepwater Horizon 
oil spill and what role science and data collection can play. 
This crisis highlights the importance and vulnerability of 
coastal systems, and that is where I am going to focus my 
remarks today. In Louisiana, this is a coast which was already 
in trouble, a coast which I have studied for almost 25 years, a 
coast which we understand well, and which we think can be 
restored, even in the face of current events.
    I would like to touch on five things this morning. One of 
the specific challenges for assessing the damages associated 
with the current oil spill will be separating out the effects 
of the oil spill from the long-term changes that were already 
going on at the coast. And for Louisiana, anyway, we will need 
to predict how the future of this coastal ecosystem has been 
changed by the oiling and by the dispersants, and by any other 
response efforts. We know that if some unsure response efforts 
are not conducted carefully, they can cause more damage than 
the oil on the surface.
    I recommend specific investments in predicting the future 
of these impacted coastal ecosystems so that we can separate 
out the effects of the Deepwater Horizon from the ongoing 
ecosystem restoration. The system will be in worse shape in the 
future. The question is how much of that can be attributed to 
the oil.
    My second point, the concept that oil is easier to clean up 
in sandy environments compared to muddy wetlands is well 
accepted. We have already heard that this morning. This 
premise, while accepted premise, has led to calls for action at 
the outer shoreline to reinforce the sandy perimeter of the 
Louisiana coast and to limit the tidal passes. Sand berms, 
rocks, barges have all been proposed. How well these measures 
will work remains to be seen. Hard structures like rocks are 
not a natural feature on the Louisiana shoreline, and our 
history has shown that rocks and breakwaters disrupt the 
natural sand movement and prevent natural healing, which can 
occur on our barrier islands after storm events.
    We must be wary of causing long-term harm to the system 
with our emergency response measures, especially where the harm 
can be avoided or where it likely outweighs the effects that it 
could have in terms of our ability to contain the oil, the 
tradeoff that has already been discussed.
    I recommend increased efforts to specifically track the 
performance and effects of response measures in the coastal 
area to allow the implementation of additional measures, if 
necessary, if the ones that we have are failing, and to make 
sure that we assess the total impact of the event here. We must 
not be complacent. We must monitor, and we must try not to do 
more harm than the oil.
    Oil will move into the estuary. All agree that containment 
and removal in open water is far preferable than letting the 
oil get into the wetlands. However, there are thousands of 
potential destinations that oil could get to. Those on the 
ground trying to respond can more effectively mobilize and 
deploy the booms and skimmers that they have if they have 
better information on the potential paths of oil movement 
within these complex and shallow bay systems. University 
researchers are already using their existing computer models to 
produce maps for local authorities of the surface and mid-depth 
currents within the estuary to aid the local people on the 
ground in preparing for where the oil might move.
    The actual movement of the oil on any particular day is 
going to depend on local wind and tide conditions, but these 
kinds of tools have been very helpful to them in thinking about 
where it might go. I recommend increased utilization of 
predictive models of shallow water movement to inform the on-
the-ground response on the coast. Water movement in shallow 
basins is rarely predicted by models, which focus on the entire 
Gulf of Mexico. It will answer only one part of the coastal 
ecosystem. In the open water areas, both in the bay bottoms and 
the water columns--and I am talking about the shallow water 
areas behind the barrier islands now, not the open Gulf. In 
those areas, oil, even in low concentrations, can be having an 
effect which is much less obvious than the coating of beaches 
or wildlife or marsh grass. What happens in the open water is 
crucial to the food web and to many of the species that we 
value as commercially and recreationally important.
    A typical fish life cycle starts with eggs, goes to larvae, 
goes to juveniles, and eventually to adults. These different 
stages show major changes in their physiology, behavior, where 
they live, where they hang out, what they eat, and in their 
susceptibility to oil, with the early life stages being much 
more sensitive.
    I recommend an increased emphasis on measuring and 
understanding the effects in open, inshore waters of low 
concentrations of oil, especially on lower parts of the food 
chain and the early life history stages of these commercially 
important species. We have to measure what we cannot easily 
see.
    And last, the unprecedented extent of this event has led to 
a massive data collection effort using a variety of sensors and 
data collection techniques. Making these data available to 
interested scientists and stakeholders would increase 
understanding of the ever-changing effects and allow a wider 
range of experts, including university scientists like myself 
and the others assembled here, to communicate with the public 
on the effects of this oil.
    I recommend increased access to agency-collected data 
through an easily accessible data management system. The new 
GeoPlatform, which was released yesterday, is a good start. We 
can see the maps. We can see where the oil has been, where it 
isn't. But we need to see the actual data and work with that, 
too. It is going to take all of us to understand this thing.
    I speak on behalf of many when I say that university 
researchers are ready to help and apply the tools and knowledge 
that we have to support this emergency. Thank you, Madame Chair 
and members of the Committee. This concludes my remarks. I will 
be happy to take questions.
    [The prepared statement of Dr. Reed follows:]

  Statement of Dr. Denise J. Reed, Professor, Department of Earth and 
 Environmental Sciences, Interim Director, Pontchartrain Institute for 
           Environmental Sciences, University of New Orleans

    Madam Chair and Distinguished Members of the Committee:
    Thank you for this opportunity to discuss with you the need to 
respond to the Deepwater Horizon oil spill and the role that science 
and data collection can play in that effort. This crisis highlights the 
importance and vulnerability of our coastal ecosystems. I will focus on 
the existing status of scientific understanding of coastal change, how 
that can be leveraged to respond to the spill and where gaps in data 
and understanding are currently limiting our ability to respond. I will 
also identify several areas where the extent and character of our 
coastal system make the long-term tracking of the impact of the spill 
more challenging that may be immediately apparent. More specifically I 
recommend:
    <bullet>  Investments in predicting change in the impacted coastal 
ecosystems to enable the impacts of Deepwater Horizon to be separated 
from ongoing ecosystem degradation.
    <bullet>  Specifically track the performance and effects of 
response measures on the coastal ecosystem to allow the implementation 
of additional measures if necessary, and to assess the total impact of 
the event.
    <bullet>  Utilization and refinement where necessary of predictive 
models of water movements within the estuary to inform mobilization of 
response techniques.
    <bullet>  Focus on measuring and understanding the effects in open 
inshore waters of low concentrations of oil, especially on lower 
trophic levels and early life stages of commercially important species.
    <bullet>  Increasing access to agency collected data through a data 
management system, thus allowing university researchers to better 
leverage existing funding sources and develop necessary understanding 
for assessment of impacts.
    My expertise has been developed through my training as a coastal 
geomorphologist at the University of Cambridge, specializing in the 
dynamics of coastal wetlands, and almost twenty five years of research 
on coastal marshes and barrier islands in Louisiana. I have authored 
scholarly publications on coastal wetland response to sea-level rise, 
and the effects of hydrologic change on marsh sustainability. I have 
also worked actively in restoration planning in Louisiana since the 
early 1990's including `Coast 2050' in 1998, the Louisiana Coastal Area 
Study of 2004, the State Master Plan for coastal protection and 
restoration of 2007, and now the 2012 update of that Master Plan where 
we must consider the effects of this crisis on our long term goals for 
the coast. In addition, in recent years I have conducted research on 
coastal wetland restoration and participated in restoration planning in 
the Sacramento-San Joaquin Delta, San Francisco Bay and Puget Sound. I 
live in Terrebonne Parish, Louisiana in the small town on Montegut.
    As a Professor at the University of New Orleans my research on 
coastal ecosystems is currently funded by a number of federal agencies 
including the US Fish and Wildlife Service, NOAA and the US Army Corps 
of Engineers. The thoughts and opinions expressed here are my own and 
do not represent the views of the University or any of these agencies.
Putting the Effects of the Spill in Context of Current Change on the 
        Louisiana Coast
    Coastal wetland loss in Louisiana is occurring at a rapid pace and 
wetland sustainability has become an issue of paramount importance even 
before the Deepwater Horizon event. The processes involved with coastal 
land loss and their interactions operate on a range of spatial and 
temporal scales. Essentially, most agree that coastal land loss and the 
massive degradation of the coastal ecosystem can be attributed to two 
types of factors - natural and human induced. This is a very dynamic 
landscape with riverine floods, sea-level rise, natural land 
subsidence, and storms from the Gulf leading to patterns of land 
building and decay on time scales from days to millennia. The constant 
adjustment among these natural factors produced a coastal ecosystem 
which sustained itself for thousands of years - constantly changing but 
productive. This balance has been disturbed by multiple human 
influences on the landscape, such as the construction of levees on the 
Mississippi River, the internal disruption of hydrology associated with 
the construction of canals for various purposes, and the introduction 
of an exotic herbivore, the nutria. Ecosystem degradation is the result 
of these and other factors interacting to produce complex patterns of 
stress to the ecosystem, ultimately resulting in land loss.
    We understand these processes well and this science has been the 
foundation of our restoration plans for many years. The challenge for 
the assessment and restoration of the damages caused by the current oil 
spill will be separating out the effects of the spill from the long-
term changes already going on. While the goal of the ultimate Deepwater 
Horizon restoration program will be to `to speed the recovery of 
injured resources and compensate for their loss or impairment from the 
time of injury to recover', identifying this injury from the others to 
which this system is already being subjected will be challenging. It 
will require federal agencies to work in partnership with coastal 
scientists to develop and apply predictive models of ecosystem 
dynamics. We must identify how the trajectory of change of the coastal 
ecosystem has been influenced by the oil itself and by the response 
efforts, which if not conducted carefully in these sensitive 
environments may cause more damage than the oil. It is essential to put 
the effects of the oil spill in the context of existing coastal change.
Response at the Outer Shoreline
    The concept that oil is easier to clean up in sandy environments 
compared to muddy wetlands is well accepted. This premise has led to 
calls for action at the outer shoreline to reinforce the sandy 
perimeter of the coast. The effectiveness of these measures, including 
a plan to build a long sand berm and close in tidal passes must be put 
in the context of how these systems have evolved and how they change.
    The outer coast of Louisiana consists of low-lying sandy barrier 
with wide inlets, both deep and shallow. High rates of subsidence, 
coupled with sea-level rise, are compounded by the effects of tropical 
storms and hurricanes to produce a system of landward-migrating low 
sandy barriers which frequently are overtopped. The configuration of 
the islands and intervening inlets is not only controlled by waves and 
storms acting on the outer shoreline. Ongoing conversion of back 
barrier and interior wetlands to open water bays and lagoons increases 
tidal prisms (the amount of water that enters and leaves the estuary 
with every tidal cycle). Changes well behind the islands thus result in 
an increase in the flow of water moving through tidal inlets between 
the islands. Over time the continual increase in bay-tidal prism size 
together with the landward migration of the barrier systems results in 
an ever changing shoreline within which new tidal inlets are being 
formed and existing inlets are subject to changes in cross-sectional 
area (deepening and/or widening) and position.
    Expectations of the performance of shoreline actions in containing 
the spill and providing clean up opportunities must take into account 
the potential for rapid changes at the barrier shoreline and the key 
role of inlets between islands in allowing tidal flows into and out of 
the estuary. Studies of just one area of the coast, Little Pass 
Timbalier, before and after the 2005 hurricane season at in showed that 
almost 13 million cubic yards of sediment was eroded from a 19 square 
mile area and this without a direct hit from a hurricane. Over four 
hundred yards of shoreface retreat was detected. While sand berms in 
the nearshore, as currently planned, may provide opportunities for 
cleanup in the near term, they may not last as long as the spill event. 
Even a minor tropical storm could erode them.
    There is broad agreement that limiting the number of pathways for 
oil to enter the estuary would aid response. Currently the barrier 
islands are separated by large inlets, those which convey the majority 
of tidal flow and have formed over decades. In addition, there are many 
small cuts or `low spots' on the islands which remain from the storms 
of 2005 and 2008. For the most part such cuts heal over time and 
natural sand transport fills them in. Accelerating this process to help 
spill response is certainly a reasonable approach. Using rocks or other 
unnatural structures for these closures may be necessary under these 
emergency circumstances but these measures should be considered 
temporary and be removed post-spill. Hard structures are not a natural 
feature of the Louisiana shoreline and our history has shown that rocks 
and breakwaters change patterns of sand movement disrupting the natural 
adjustments and the healing which can occur after storm events. We must 
be wary of causing long-term harm to the system with our emergency 
response measures especially where that harm can be avoided or likely 
outweighs the benefits of that aspect of the response.
    As response measures are implemented at the shoreline it will be 
essential to understand their effects on shoreline dynamics. Changes in 
the coast resulting from the response itself could exacerbate ecosystem 
degradation and make long-term restoration more difficult. Changes in 
shoreline dynamics, the fate of any sand placed at the shoreline, and 
the effect on tidal exchange can and should be monitoring during and 
after the response effort.
Oil Movement into the Estuary
    The barrier shoreline represents our outermost defense. But closing 
the shoreline completely is not an option. Tidal passes must remain 
open to allow for tidal exchange, the migration of organisms, and 
provide natural flushing. Rather than closing inlets or restricting 
their cross sections, efforts should be focused on how to contain the 
oil passing through the inlet. The amount of water which flows through 
the passes is not determined by the size of the pass. Rather it is 
related to the tidal prism and the amount of open water landward of the 
shoreline. Clearly the massive coastal land loss Louisiana has 
experienced has increased the tidal prism. That water must move in an 
out every day. If we make the tidal passes narrower in the hope of 
`channeling' the oil and making containment easier the speed of water 
flow through the passes will simply increase. Containing oil in fast 
flowing waters is a challenge to our traditional clean up technologies 
and effective techniques must be incorporated into any plan which 
focuses on the outer shoreline.
    Oil will move into the estuary. All agree that containment and 
removal in open water is far preferable to allowing oil to enter the 
wetlands. However, the complexity of the estuarine landscape means 
there are thousands of miles of potential destinations for the oil. To 
more effectively mobilize and deploy resources those on the ground 
require the best information available on the potential paths of oil 
movement.
    Predictions of where the oil might go within the estuary require 
tools which appreciate the complex hydrodynamics of these shallow 
estuaries and the wetting and drying of wetlands each day with the 
tide. Oceanographic models often fail to incorporate these details, 
understandably so as they may not be important for understanding Gulf-
wide circulation. But within the estuary researchers have developed 
tools which can support response. At the University of New Orleans 
researchers are using existing three dimensional computer models to 
estimate the trajectories of surface and subsurface tracers under 
various combinations of wind and tidal conditions. They can produce 
maps of the surface and mid-depth currents and directions for example 
events to aid local emergency planners is preparing for where the oil 
might move. The actual movement of oil on any day will depend upon 
local wind and tide conditions and oil may not move in exactly the same 
way as the water but these kinds of tools can help plan the response. 
Real time predictions would require model refinement and additional 
monitoring of tides and winds within the estuary. Such `data 
assimilation' has been used in other estuaries to support emergency 
response as well as restoration planning and operations. Modeling 
approaches are available - investments in tool development, data 
collection and inshore observing systems are necessary for state of the 
art predictions of oil trajectories within shallow, complex estuarine 
systems.
Fate and Effects within the Estuary
    The potential effects of oiling on coastal wetlands are well 
documented and the applicability of various clean up techniques, 
including natural remediation, in different situations is relatively 
well understood. The most important issue is to ensure that the clean 
up approach is tailored to the local conditions - what works in a 
wetland in one area may not be appropriate in others.
    However, wetlands are only one part of the estuarine ecosystem. In 
the open water areas, both on the bay bottoms and in the water column, 
oil can be having an effect which is less obvious that the coating of 
larger wildlife or marsh grasses. Open waters are a huge component of 
the estuarine system and dominate the lower areas, adjacent to the 
tidal passes and inlets through which the oil enters. The effect on 
lower trophic levels, phytoplankton, algae and zooplankton, and how 
these are propagated to higher trophic levels, e.g., fish, must be 
evaluated not only through monitoring but by field studies of trophic 
interaction. For any specific organism a life cycle approach is 
important. This applies to all organisms, but is especially helpful 
with organisms such as fish because individuals often show very 
dramatic differences between their life stages. A typical fish life 
cycle is eggs, yolk-sac larvae, larvae, juveniles, and adults. The 
different stages can show major changes in their physiology, behavior, 
diets, and habitats utilized - and in susceptibility to oil - with 
early life stages being more sensitive.
    Existing sampling schemes for routine monitoring of the ecosystem, 
e.g., Louisiana Department of Wildlife and Fisheries need to be 
supplemented to ensure they identify these smaller animals and that 
they encompass the variety of habitats currently and potentially 
impacted by the oil. In addition, synthesis efforts which refine 
understanding of the resilience of these populations to effects of oil 
must be used to guide assessment and subsequent restoration.
Data Accessibility and Management
    The unprecedented extent of this event and its impact on a variety 
of marine and coastal environments has resulted in a massive data 
collection effort using a variety of sensors and data collection 
techniques. Making these data available, where appropriate given their 
use in the official assessment, to interested scientists and 
stakeholders would increase understanding of the ever changing effects 
and allow a wider range of experts, including university scientists 
like myself, to communicate with the public on the effects of the 
spill. To make such a varied array of data accessible requires a focus 
on data management as well as collection.
    Knowing what data is being collected already also allows 
researchers to leverage available funding sources to focus on 
additional sampling. The Natural Resource Damage Assessment process 
calls for `reviewing scientific literature about the released substance 
and its impact on trust resources to determine the extent and severity 
of injury'. Establishing causality required understanding as well as 
data and many excellent scientists are willing and able to contribute 
and develop knowledge which can at least be used in future events.
    Thank you Madam Chair and members of the Committee. This concludes 
my testimony.
                                 ______
                                 
    Ms. Bordallo. I thank you very much, Dr. Reed. And, Dr. 
D'Elia, we will hear from you now.

  STATEMENT OF CHRISTOPHER D'ELIA, PH.D., PROFESSOR AND DEAN, 
     SCHOOL OF THE COAST AND ENVIRONMENT, LOUISIANA STATE 
               UNIVERSITY, BATON ROUGE, LOUISIANA

    Dr. D'Elia. Madame Chair, Ranking Member Cassidy, and 
members of the Subcommittee, my name is Chris D'Elia, and I am 
a Professor and the Dean of the School of the Coast and 
Environment at Louisiana State University. I welcome this 
opportunity to be here with you today.
    Federal research and monitoring assets are critically 
important at this time of national crisis. The academic 
community and private sector want to contribute more also. 
Universities like LSU depend heavily on Federal funding to 
undertake their research. Unfortunately, significant Federal 
funding has been slow to materialize as this crisis evolves. 
Here are some concerns.
    Serious existing gaps exist in observational data needed to 
predict the extent and trajectory of the oil spill. The 
Integrated Ocean Observing System, IOOS, a Federal, regional, 
and private sector partnership for collecting, delivering, and 
using such information, needs more Federal funding. The Gulf of 
Mexico has, until recently, had very poor coverage by high 
frequency or HF radars that provide real-time data on the 
direction and strength of surface currents. The NOAA IOOS 
Office helped relocate three HF radar units to provide coverage 
of a portion of the Mississippi, Alabama, and Florida 
continental shelf, but the Louisiana coast, including the 
Mississippi Delta region, still has no HF radar coverage. This 
is unacceptable.
    Large scale regional models are critical to understanding 
Gulf circulation, but they are not particularly useful for 
near-shore predictions of the fate of oil. LSU scientists have 
excellent fine-scale, near-shore, and estuarine models that 
need to be adapted and interfaced with regional scale 
circulation models of the Gulf. This, of course, takes funding.
    I would also like to comment briefly on the adequacy of 
pre- and post-impact spill data needed for conducting natural 
resource damage assessments. For many years, LSU has occupied 
many research sites in the wetlands, coastal embayments and 
estuaries along the Louisiana coast. Pre-impact data obtained 
at these sites will be extremely useful for spill impact 
assessment. We await being informed of a mechanism by which we 
can apply for significant Federal funding for continued data 
collection. It is nearly two months now since the spill began.
    Our assessments are important for recovery of damages from 
the spill. However, many scientists believe that important 
information must also be obtained outside of this process. One 
senior faculty member in my school expressed it as follows: I 
haven't much time left in my career, and I would prefer not to 
spend it in court. Others have told me that the legal burden 
added by the process actually impedes good science and means 
that state-of-the-art scientific approaches are not used. And I 
think Dr. Reddy was implying that.
    Most present research seems to be focused on offshore 
concerns pertaining to the fate and effects of oil and 
dispersants. These are important concerns, but we must not 
forget that the Louisiana coastal environment is particularly 
vulnerable and threatened. Louisiana's extensive wetlands 
constitute approximately 40 percent of the national total, and 
the state is second only to Alaska in terms of seafood 
production. We must accelerate our efforts to understand the 
impact of this dreadful spill on these living resources.
    Louisiana is the focal point of the fertile fisheries 
crescent that extends east and west into all or parts of 
Mississippi and Texas. We do not know what the effect of oil 
and dispersals will be on this food chain, as my colleague 
sitting to the right mentioned.
    I would offer the following recommendations. We need a 
comprehensive spill science plan that includes the academic 
community. We do not have one now. Federal agencies need better 
ways to get emergency funding to researchers. As someone 
mentioned, the National Science Foundation has rapid awards, 
which have been extremely valuable, and NOAA also has a sea 
grant program, which has program development awards.
    Such emergency programs need more resources. As of June 11, 
a search on www.grants.gov did not return any results for oil 
spill. This seems remarkable to me. Communication with and 
within the academic community should be enhanced. EPA 
Administrator Jackson did come down to meet with us early on, 
which we appreciated greatly. I recommend that more such 
contact occurs with more communiques from agency leaders to 
university leaders and scientists.
    Ship time is difficult to find, schedule, and pay for. 
Better coordination mechanisms would be very helpful. Human 
impacts have received inadequate attention at the Federal 
level. More attention needs to be paid to those. Finally, we 
need new ways to finance sustained research and observation on 
the inevitable conflicts between energy and environment. A 
Federal Gulf oil trust should be established. Senator Landrieu 
has recently introduced legislation to allow Gulf Coast states 
to share the revenue from offshore oil and natural gas 
drilling. I think that and other mechanisms should be 
considered.
    Thank you for your attention. I would be pleased to answer 
any questions you have.
    [The prepared statement of Dr. D'Elia follows:]

  Statement of Dr. Christopher F. D'Elia, Ph.D., Professor and Dean, 
    School of the Coast and Environment, Louisiana State University

    Chairwoman Bordallo and members of the Subcommittee, my name is 
Christopher F. D'Elia, and I am a Professor and the Dean of the School 
of the Coast and Environment at Louisiana State University. I welcome 
this opportunity to be with you today to testify about the gaps and 
limits in our understanding of the complex estuarine, coastal, and 
marine environments of the Gulf, and especially, how limited 
investments in coastal ocean science programs and ocean observation 
systems affect capabilities for NOAA and other Federal agencies to 
provide timely and accurate scientific information to target response 
activities and to assess damages to natural resources.
    You have asked me to provide my perspectives on the existing gaps 
in observation data needed to predict the extent and trajectory of the 
oil spill, including information about subsurface plumes; the adequacy 
of pre- and post-impact spill data needed for conducting natural 
resource damage assessments; and additional data required to understand 
the impact of the oil spill on the marine environment.
    Federal personnel and their research and monitoring assets are 
critically important at this time of national crisis, and agencies like 
the Coast Guard, NOAA, USGS, and EPA have been challenged by the 
complexity and magnitude of this spill. Moreover, the Federal 
Government plays a critical role in funding extramural research and 
monitoring.
    The academic community and private sector's potential contributions 
to understanding an event as complex as this are enormous. Non-Federal 
partners such as universities like LSU depend heavily on federal 
funding to undertake their research and monitoring efforts. 
Unfortunately, for a variety of reasons that funding, regardless of 
source, has been slow to materialize as this crisis evolves. Before I 
elaborate further on that, let me address the issues that you asked me 
to comment on.
Existing Gaps in Observation Data Needed to Predict the Extent and 
        Trajectory of the Oil Spill
    One of the greatest challenges faced is predicting the extent and 
trajectory of the oil leaking from the seabed. Doing so requires 
synoptic and real-time physical oceanographic and meteorological 
information, in tandem with robust satellite observations and 
simulation modeling. The Integrated Ocean Observing System (IOOS) is a 
federal, regional, and private-sector partnership for collecting, 
delivering, and using such information. IOOS provides essential data 
and information needed for predicting the extent and trajectory of the 
spill. IOOS is a prime example of the value added by academic and 
private sector entities that receive support from Federal agencies. The 
IOOS community, like many others, has been rallying to aid the response 
effort. Despite the best efforts of all involved, there is still a 
critical lack of actual data for the surface and subsurface conditions 
in the Gulf that dictate the fate of the oil. A well-designed network 
of sustained observations in real-time is critical to providing the 
data needed for forecasts that guide the work of responders. Later, 
these same data will provide critical baseline information that will be 
an essential component during the restoration process.
    Unfortunately, the Gulf of Mexico has, until recently, had very 
poor coverage for measurements of currents and meteorological 
conditions. For example, high frequency (HF) radars, which provide real 
time data on the direction and strength of surface currents, are 
unavailable in Louisiana coastal waters. In response to the spill 
disaster, the University of Mississippi, with assistance from the NOAA 
IOOS Office and Scripps Institution of Oceanography, recently re-
deployed 3 high-frequency radar (HF radar) units. However, these 
systems provide coverage of only a portion of the Mississippi/Alabama/
Florida continental shelf. The Louisiana coast, including the 
Mississippi Delta region, still has no HF radar coverage! This data gap 
needs to be filled as soon as possible. The lack of this information is 
jeopardizing the Louisiana oil containment efforts. Considering that 
the port of South Louisiana (New Orleans/Baton Rouge) is the largest 
bulk cargo port in the world and the Louisiana coast is the location of 
the majority of drilling for oil and gas in the U.S., this expenditure 
by the federal government is well justified and long overdue. With the 
onset of hurricane season, a robust suite of HF radar systems is needed 
especially in the region around the Mississippi delta. In addition, the 
redeployed HR radar units along the Miss/Al/Fla coast should be made 
permanent. There are also other technologies for measuring and 
monitoring ocean conditions critical to understand the fate of the oil 
that can and should be deployed.
    At the request of the NOAA IOOS Office, SECOORA and GCOOS have been 
working with their numerous partners in academia and industry on a 
strategy for mapping and monitoring the subsurface plume and for 
providing observations for the initialization, validation and 
assimilation of the available circulation models. This provides the 
Incident Command Center with one high-level strategy that represents 
the input from multiple institutions and players.
    Regional ocean circulation models operated by researchers at Texas 
A&M and the University of South Florida are now accessed daily by the 
Federal Incident Command Center. NRL and NOAA operate similar models 
but as the experience of the National Weather Service in predicting 
hurricanes has shown, ensemble modeling improves forecasts and 
predictions. I understand that such ensemble models are in development. 
Circulation models provide enhanced understanding of how currents, such 
as the Loop Current and its eddies, winds, river plumes, and other 
salinity patterns and temperature regimes will influence the fate of 
the oil. More alternative models by different teams of investigators 
would increase the robustness of plume forecasts.
    While large-scale regional models are critical to understanding the 
circulation of the Gulf, in deep water, these models are not 
particularly useful for near-shore predictions of the fate of oil, such 
as in Barataria Bay, Breton Sound or the numerous other estuaries along 
the northern Gulf of Mexico coastline. Here, LSU scientists are able to 
provide considerable expertise based on their long-term observations of 
coastal processes and as well as their experience with near-shore and 
estuarine models in these areas.
    The northern Gulf communities deserve the best possible real-time 
satellite images showing the location of oil especially in near-shore 
regions. The satellite data are useful for indicating the presence of 
oil. However, aerial overflights are also essential to resolve 
adequately the details of oil thickness and identify coastal areas at 
greatest risk. This information is currently not being provided to 
local responders in a timely manner. According to BP, such coverage by 
aerial surveys is too much of an expense! The government should demand 
this information with daily updates. These data are essential in tandem 
with real-time currents from the HF radar systems for predicting inner 
shelf trajectories of oil that are currently and will continue to 
impact our barrier islands and enter through tidal channels to 
adversely affect Louisiana's environmentally sensitive shallow bays and 
marshlands.
    The Earth Scan Laboratory (ESL), the WAVCIS Program, and the 
Coastal Studies Institute Field Support Group, all in the School of the 
Coast and Environment at LSU, currently provide some of the data 
essential to the real-time tracking of the oil from the BP-Deepwater 
Horizon drilling accident allowing short-term predictions as to 
trajectories of the oil in various sectors of our coast. The Earth Scan 
Lab has three antennas which give it access to real-time satellite 
coverage many times each day of the Gulf of Mexico using several 
sensors (MODIS, GOES-East, AVHRR). These data have been used to reveal 
the spatial extent of the oil, its motion, and the motion of the Loop 
Current and its eddies. They are provided on the ESL web site in near 
real-time (www.esl.lsu.edu) and archived at the ESL for time-series 
studies. In addition, the ESL staff has been using radar (SAR) data 
obtained daily from the University of Miami CSTARS lab, augmenting 
capabilities for detecting oil across the Gulf. The satellite coverage 
has been an essential component of the response to this spill. However, 
the satellite data could be more useful with validation, which has been 
almost impossible for LSU researchers to obtain.
    The WAVCIS system provides real-time met-ocean data at eight 
stations along the Louisiana coast. Coupling of remote sensing and 
physical data into numerical coastal models could improve the 
prediction of the path and fate of the oil. Each WAVCIS station 
collects data on wind speed and direction, wave height and period, and 
current speed and direction among other parameters. These data are 
telemetered by satellite link back to a central processing station at 
LSU and the data are made available in a web-based format in near real-
time. In addition, the WAVCIS program boasts a highly sophisticated 
suite of hydrodynamic models that have proven very useful in tracking 
and predicting future migration of the oil slick. In addition, WAVCIS 
models are used to provide a series of predictions including an 84-hour 
wave forecast and a 120-hour surface current forecast (see: http://
wavcis.csi.lsu.edu/forecasts/forecasts.asp?modelspec=currents).
    With such sophisticated data-collection systems it is absolutely 
essential to have high quality technical support during the current oil 
spill period. Sustained Federal funding is necessary for us to continue 
to provide essential services such as ESL and WAVCIS. Current Federal 
appropriations do not provide sufficient resources for us to meet our 
needs, and we are unaware of any Federal program that can provide 
necessary support.
The Adequacy of Pre- and Post-Impact Spill Data Needed for Conducting 
        Natural Resource Damage Assessments (NRDA)
    For many years, LSU has occupied numerous research sites in 
wetlands, estuaries and embayments all along the Louisiana coast. For 
example, the Shell/LSU Breton Sound Ecosystem Project of the Northern 
Gulf Institute includes data collection from a variety of platforms and 
sensors. The pre-impact data obtained at those sites will undoubtedly 
be extremely useful for spill impact assessment for NRDA and to 
understand the unexpected consequences, and for other purposes. We 
emphasize that it is critical that our research at these sites continue 
and be adapted to monitor conditions as the spill progresses, as clean 
up efforts are undertaken, and throughout the ensuing recovery phase. 
It is essential to understand the resilience of Louisiana's coastal 
ecosystems to an event like the BP 2010 oil spill, because of the 
critical role these ecosystems have in sustaining seafood harvests and 
in providing essential habitat for wildlife. We are waiting to be 
informed of a mechanism by which we can apply for significant Federal 
funding to support our work, although we are told to expect 
opportunities shortly. It is nearly two months now since the spill 
began.
    The NRDA assessments are obviously an important focus of the 
Administration for the recovery of damages from the spill. However, 
many scientists I have talked to express concern that important 
information must also be obtained outside of the NRDA process. One 
senior faculty member in my School expressed it as follows: ``I haven't 
that much time left in my career, and I would prefer not to spend it in 
court. I would rather be working in the field doing my research on 
behalf of future generations.''
    The baseline to measure change and impacts is slipping away with 
each day and week that supplemental funds are absent, or that adaptive 
and focused new initiatives are stalled. The environmental, social and 
economic insults have come quickly (months), but the results will be 
here for decades. If we are to truly learn from this disaster, then we 
need to know much more about the pre-existing conditions and the 
transition as the spill progresses. We cannot start this in December - 
it needs to begin immediately.
Additional Data Required to Understand the Impact of the Oil Spill on 
        the Marine Environment
    Most of the research, monitoring and modeling that is now being 
conducted seems to be focused on offshore concerns pertaining to the 
fate and effects of oil and dispersant. Considerable attention has been 
paid to determining the location and magnitude of deep-sea plumes of 
oil and dispersant. While these are important concerns, particularly 
since dispersants have been used in unprecedented ways and amounts, we 
must not forget that the Louisiana coastal environment is particularly 
vulnerable and threatened. Since Louisiana's extensive wetlands 
constitute approximately 40% of the national total, and the State is 
second only to Alaska in terms of seafood production, we need to 
accelerate our efforts to understand the impacts of this dreadful spill 
on living resources from the continental shelf to coastal wetlands.
    Louisiana is the focal point of the ``Fertile Fisheries Crescent'' 
that extends east and west into all or parts of Mississippi and Texas. 
Important fishery species include: oysters, brown and white shrimp, 
Gulf menhaden, blue crabs, king mackerel (offshore), red snapper, 
amberjack, cobia, dolphin fish, grouper, tuna/swordfish (offshore), 
spotted seatrout, and red drum. These species support economically 
important commercial and recreational fisheries as well as the human 
communities that depend on them in many ways - for employment, tourism, 
marinas, charter boats, seafood industries, etc.
    Additionally, the above species depend on the ``forage fishes'' 
near the base of food webs such as Gulf menhaden and bay anchovy. Loss 
of these species would have serious implications for the entire food 
web. At present, we have little firm information on the status of these 
fish stocks vis-a-vis the oil spill.
    Habitat concerns are also important and growing. Louisiana 
estuaries provide spawning, nursery and rearing (grow out) habitat for 
a huge array of estuarine-dependent species that migrate and spread to 
populate coastal systems across the northern Gulf of Mexico.
    Louisiana's most important fishery habitat asset is its expansive 
coastal wetland system with an extensive marsh-edge shoreline that 
provides foraging (feeding) and refuge (shelter) sites for the early 
life history stages of commercial and sport fisheries and forage 
species. The marsh edge is highly vulnerable to oiling and resulting 
damage to its nursery function will form a bottleneck for the 
recruitment of virtually all of our most important species into adult 
populations. Up to 90% of our important species use our marshes and 
estuaries at some point in their life cycles.
    The open waters of the Gulf of Mexico are also important for many 
estuarine-dependent species and for offshore species. Offshore food 
webs are potentially affected by Deepwater Horizon plumes, but this has 
yet to be studied. The Gulf of Mexico is the only spawning area for the 
heavily depleted Western Atlantic Bluefin Tuna and the Gulf is an area 
of concentration of swordfish and marlin. While the densities of 
organisms may be lower in open waters than in other habitats, this 
translates into many numbers of organisms because of the volume of the 
open water habitat.
    Life histories of species found in affected waters must also be 
considered. The longevity of a species relates to how risky its 
reproduction is. Short-lived species can complete their life cycles in 
1 to 3 years. Because they are dependent on good and bad spawning 
years, their population sizes are quite variable from year to year. 
These species are highly productive but the fisheries associated with 
them are volatile as well, tracking good and bad years of spawning. 
Thus, additional mortality from external sources could accentuate the 
volatility.
    Longer-lived species may not mature for five years or more and may 
live for 20-50 years. When unexploited, they can withstand a run of 
poor years of reproduction until conditions are right. However, long-
lived species are also vulnerable to fishery impacts and in the Gulf of 
Mexico red snapper and a number of other long-lived species have been 
depleted and are under heavy management regimes. Accordingly, 
additional sources of mortality will dissipate the management benefits. 
For these long-lived species, the effects of high mortality years or 
low recruitment (due to oil) will leave a gap in the age structure of 
their populations. So if we lose the next 3-5 or more years of 
reproduction due to oil, there will be a long period of lowered egg 
production as these impacted year-classes make their way through the 
age-structure.
    In extremis, large-scale recruitment failures could lead to long-
term and serious changes in coastal ecosystems. It is possible for a 
``state change'' to occur, for example. What is now a highly productive 
system in terms of fisheries and wildlife could become one dominated by 
microbial processes that are less capable of sustaining fish and 
shellfish species that coastal residents depend on in so many ways. I 
can only speculate here about this prospect, but it must be considered.
    Habitat damage in Louisiana is likely to have severe effects on the 
reproductive success of both short- and long-lived species, but short-
lived species like brown, white shrimp, blue crabs, seatrout and forage 
fishes (including bay anchovy and Gulf menhaden) are likely to suffer 
immediate population declines that will affect fisheries and the entire 
food web until estuaries and marshes recover from smothering and toxic 
effects of the Deepwater Horizon event. I have heard several fisheries 
scientists comment that herring have still not recovered in Prince 
William Sound more than 20 years after the Exxon Valdez spill. Will 
similar situations develop in the Fertile Fisheries Crescent?
    We know that there are a number of possible exposure pathways that 
must be researched and quantified. Direct exposure may occur when fish 
swim through any concentration of dissolved or suspended petroleum 
constituents. Gill breathing animals like fish exchange gases and 
solutes with their environment across gill surface areas that appear 
small but are actually large compared the entire surface area of their 
bodies. Gill damage imperils respiration and gill uptake results in a 
body load that may have lethal or sub-lethal effects. Sub-lethal 
effects could seriously reduce a fish's viability or probability of 
reproductive success. The mix of individual contaminants may be at low 
concentrations and have only minor impacts, but the combined effects of 
different petroleum constituents, dispersants, and other contaminants 
may be more than additive (i.e., synergistic). The Deepwater Horizon 
Event is clearly adding many kinds of contaminants to the environment. 
Many scientists have urged that there be full disclosure of the 
composition of chemical compounds and mixtures used in dispersing 
spills such as Corexit 9500.
    Fishes may suffer from indirect exposure that may also result from 
ingestion of contaminant-exposed prey. Fishes feeding on contaminated 
prey can accumulate an additional body load to that acquired from 
direct exposure. Contamination of food webs is likely to change the 
species composition of open water and estuarine fish communities. 
Sensitive species will diminish in population size and reduce prey 
availability to higher trophic levels. Thus, indirect effects of the 
Deepwater Horizon event could be spreading though the food web in 
unforeseen ways.
    The timing of this event is troubling. Had it occurred during the 
winter, one would have expected less potential impact. Unfortunately, 
it has occurred during a season when many species are reproducing or 
migrating, and during which primary productivity (photosynthesis) is 
high. We do not know what if any, effects this spill will have on 
fundamental ecosystem processes such as energy flow and nutrient 
cycling. Fortunately, ongoing studies on these processes have been 
conducted in this region for years, but sampling frequency and 
geographic coverage should be increased markedly in spill-affected 
areas.
    Because oil is a mixture of organic compounds that are subject to 
microbial processes such as respiration that consumes oxygen, there are 
other implications as well. Susceptibility of shelf waters to hypoxia 
is well known. Whether the added burden of the metabolism of the extra 
organic material represented by oil and dispersants is going to 
exacerbate hypoxia is unknown.
Other Considerations
    Sitting on the sidelines and taking potshots at BP and Federal 
agencies is now accepted practice by many. One can easily understand 
why a mounting feeling of hopelessness has developed that leads to this 
happening. I prefer instead to make some constructive suggestions here 
about what might be done to improve our knowledge about the spill, its 
fate, its effects, and the ability of the environment to assimilate 
hydrocarbons and recover.
        1.  My foremost concern is that the academic research community 
        has the potential of making considerable contributions beyond 
        what it is now making. The biggest obstacle to this happening 
        is funding. One Federal agency we approached told us that BP 
        had funds for research, and we should check there first. In 
        Louisiana, tight State finances have left LSU with frozen 
        budgets and little flexibility to support research internally. 
        I have heard anecdotally from several faculty members that they 
        are taking a chance and charging some of their research 
        expenses to their own personal credit card accounts, hoping to 
        be eventually reimbursed. Federal agencies need to have better 
        mechanisms to get emergency funding to researchers. Only the 
        National Science Foundation seems to do this effectively via 
        RAPID awards, but even NSF's hands are tied because of 
        budgetary constraints as the end of the fiscal year approaches. 
        NOAA's Sea Grant program does have funding available for 
        ``program development'' awards, but the amount of funding 
        available is woefully inadequate for the tasks at hand. As of 
        June 11, a search on www.grants.gov did not return any results 
        for ``oil spill.'' This seems remarkable to me.
        2.  Communication with the academic community should be 
        enhanced. EPA Administrator Jackson did come meet with LSU 
        faculty early on, which we greatly appreciated. It took nearly 
        a month after the spill before other Federal agency leaders 
        made a concerted joint effort to engage academic scientists and 
        engineers in the Gulf. On June 3, NOAA, NSF and USGS sent high-
        level officials to participate in a meeting organized by the 
        Consortium for Ocean Leadership at the LSU Lod Cook Center. 
        This meeting was highly successful, very informative, and 
        helped the academic community understand better the challenges 
        faced by Federal agencies as they continue to confront the 
        spill and its impacts. I hope that other such meetings follow, 
        and that more frequent communiques with university research 
        leaders ensue. President Obama has appointed a team of 
        extremely talented scientists to lead many Federal agencies, 
        and they need all the support that can be provided from the 
        White House and us in academe.
        3.  Ship time is difficult to find. This is quite 
        understandable. Virtually all Federally supported research 
        vessels are presently being fully utilized. Ships are 
        expensive, and the only alternative to using Federally 
        supported ships would be to charter ships from the private 
        sector or abroad. It is not clear where the funding to do that 
        would come from. In any case, again better communication 
        mechanisms would help in making sure that if ships do become 
        available, or berths on scheduled cruises are open, the 
        appropriate opportunities can be conveyed to prospective users.
        4.  In my opinion, human health impacts (both in terms of 
        exposure from sea food, air quality from the ``controlled'' 
        burns, as well as the health of the response workers) have 
        received inadequate attention at the Federal level. Again, I 
        have heard rumors that major announcements are on the way, but 
        with every day that passes, important baseline health data are 
        not collected.
        5.  In my view, it is time to consider new ways in which 
        sustained funding can be brought to bear with respect to 
        researching and monitoring the inevitable conflicts between 
        energy and environment. It appears that offshore drilling will 
        need to resume fairly soon, or the U.S. will be in an ever-
        worsening economic crisis due to a shortage of liquid fuel and 
        an increasingly large balance of trade problem - something 
        noted very clearly by the U.S. Military's ``Joint Operating 
        Environment 2010'' report. In my view, there should be a 
        Federal Gulf Oil Trust established using federal oil and gas 
        royalties from the Gulf, and perhaps fuel taxes as well. Sen. 
        Mary Landrieu, D-La., has recently introduced legislation to 
        allow Gulf Coast states to share 37.5 percent of the revenue 
        from offshore oil and natural gas drilling. This is one 
        possible approach. Some of this revenue could be directed to 
        enhance research on oil drilling and production safety issues, 
        on the environmental effects of this drilling and production, 
        and on gaining a better understanding of Gulf of Mexico 
        environment. There are other possibilities as well. The Land 
        and Water Conservation Fund receives about $900 million from 
        revenues from offshore oil and gas development. However, those 
        funds are subject to Congressional Appropriation, which has 
        ranged from zero funding (FY00-02) to as high as $369 million 
        in 1979. This year's appropriation is just $38 million. The 
        LWCF program provides matching grants to States and local 
        governments for the acquisition and development of public 
        outdoor recreation areas and facilities, which is very 
        important. It would be great if the Land and Water Conservation 
        Fund Act could be amended so that some of those funds could 
        also be appropriated for coastal observing systems.
        6.  Directed federal funding should be provided to follow up on 
        the emergency funding, such as NOAA's Cooperative Institutes, 
        which many regard as highly successful models. Centers of 
        collaboration that bring together academic, government and even 
        industry scientists and engineers would foster better 
        communication and lead to better synthesis and integration of 
        our interdisciplinary knowledge.
    Thank you for your attention. I would be pleased to answer your 
questions.
                                 ______
                                 

 Response to questions submitted for the record by Christopher D'Elia, 
  Professor and Dean, School of the Coast and Environment, Louisiana 
                            State University

Questions from Chairwoman Madeline Z. Bordallo (D-GU)
1.  How has the Federal government engaged with independent scientists 
        to enhance modeling of the oil spill and to improve pre-spill 
        and post-spill ecosystem assessments?
    We are unaware if Federal scientists have engaged academic 
scientists, but they have clearly engaged consulting companies to get 
field and logistical support for data collection and analysis. We do 
not know of any modeler affiliated with a university that was supported 
by the Federal government outside the NRDA process to help with the oil 
spill modeling. We have worked with NOAA/NGI to develop some research 
questions related to oil spill modeling, although funding has yet to be 
identified.
    The focus has also been on fate of the oil and dispersants, and now 
is moving towards ecosystem issues. However, there is no clearly 
articulated Federal science plan that includes academic researchers and 
takes advantage of their modeling expertise.
    The academic community has the capability to make great 
contributions to modeling the spill both in computational power and 
understanding of oceanographic processes. The northern Gulf of Mexico 
is graced with highly acclaimed academicians capable of hydrodynamic, 
biological and ecological modeling, and this resource should be used 
extensively.
                                 ______
                                 
    Ms. Bordallo. Thank you very much, Dr. D'Elia, for your 
comments and your recommendations. And I will now recognize 
members, beginning with myself, for any questions that we may 
wish to ask.
    First, I would like to begin with you. And I do want to say 
this of this panel. I appreciate your honesty. It has been very 
refreshing. We know the problems. We have heard the problems, 
and you admit to them. And so we will take it from there.
    Dr. Reddy, following up with my question to Dr. McNutt 
earlier, after the containment dome failed, did BP recontact 
scientists from Woods Hole to take flow measurements, yes or 
no?
    Dr. Reddy. From my knowledge, no.
    Ms. Bordallo. Thank you. Also, Dr. Reddy, do flow 
measurement technologies exist that can be used to estimate the 
total spill volume from this oil spill?
    Dr. Reddy. The technologies that have been used so far have 
been modified from other previous knowledge, I believe. I do 
not believe there is a known set-in-place technology that is 
used for such questions. But that is a little bit outside my 
expertise.
    Ms. Bordallo. I see. Well, how quickly can these 
measurements be made, and do you think these measurements could 
have been made without interfering with response and recovery 
activities?
    Dr. Reddy. I believe the numbers that Dr. McNutt has put 
together as part of her working group are pretty robust. They 
include--what is particularly interesting from them is that 
they have come from a variety of different angles, and they 
seem to be all in the same ballpark. And the values that my 
colleagues collected more recently on a vessel, on a BP vessel, 
I think are particularly strong.
    I would like to make one comment on these estimates. We are 
never going to get a number that is 53.5 or anything like that. 
My personal opinion is if we can nail down an estimate in the 
ballpark of within a factor of two or a factor of three, 
considering all of the other uncertainties that are in play 
with this very large event, I think that would be a sound 
number.
    Ms. Bordallo. Why is it important to have an estimate of 
the total volume of oil released into the environment?
    Dr. Reddy. From a scientific perspective, we want to have a 
mass balance. To take that out of scientific jargon, that is 
essentially we want to balance our checkbook. We want to know 
where all the oil went. We want to know what got biodegraded, 
what evaporated, what may have gone into the sediments, what 
have gone into the marshes. So, in a couple of years, when we 
start to look at all of this data comprehensively with a team 
of interdisciplinary scientists, we will want to start looking 
closely where everything is, kind of have our own little, for 
lack of a better term, boxes of where oil was, and we will 
hopefully try to balance this checkbook. If we don't know how 
much came out, then we may be missing something.
    Ms. Bordallo. Dr. Weisberg, it is clear that the worst case 
scenario for an oil spill is now much worse than previously 
imagined. Can you suggest how the Federal Government and 
scientists could better respond to events of this scale and 
complexity?
    Dr. Weisberg. Thank you. I will try to respond to that. 
There was a comment made earlier that had we had enough 
resources in place based on previous experience, then perhaps 
we wouldn't be in the position we are in right now. And so I 
think we have to respond with that in mind. There is an 
immediate crisis right now that obviously requires being dealt 
with. But we have to lay down for the future resources so that 
we can deal with crises like this better into the future.
    Ms. Bordallo. Ms. Lee, do we have enough economic and 
social data to adequately assess the impacts of lost use and 
access to natural resources?
    Ms. Lee. We have sufficient--well, let me say this. We have 
a substantial body of data. In terms of lost uses, the kinds of 
things that you would be looking at is you would be looking at 
bookings and what has been canceled. And what is different 
about this spill, this is an area where we probably have more 
information than we did in other spills, so it is one bright 
light in terms of the assessment. Because people have booked 
more on the Internet, it is easier to see a change from 
baseline, if you will.
    So, in terms of lost use, as far as things like recreation, 
yes, we have better data than we have in prior spills. With 
respect to things like lost uses for fishery resources and so 
on, no, we don't because we need to know changes in populations 
and have a sense of how it is going to affect the industries 
over the longer term. And there it gets back to the scientific 
data that people have been talking about, the experts here at 
this table, which is to try to collect information so that we 
can see a change.
    A lot has been said about baseline. I take a slightly 
different perspective on baseline. I believe you can show 
injury without knowing exactly what was there before, and you 
do that by virtue of showing where the oil is, what has been 
exposed to the oil, and then considering toxicity. Now, we 
definitely need more toxicity studies, but we also can collect 
information that is out there in the literature and bring it 
together. And that is where the scientific community is 
incredibly important.
    So, with respect to those lost human uses, we have a lot of 
work to do.
    Ms. Bordallo. I also have another question for you. You 
state in your testimony, and I quote, ``The law cannot achieve 
a compensation to make the public truly whole.'' Can you please 
elaborate on this statement?
    Ms. Lee. I believe that the damages are so huge on this, 
were we to truly evaluate it, that there is probably not enough 
money to actually pay for it. And also, there are certain 
fundamentals that really can't be compensated with money. 
Fundamentally, the question is can we restore the environment 
and bring it back so that the fishermen can fish and lives can 
be put back together. And the answer is the jury is still out 
on that, no pun intended.
    So, when I look at the law, I see that the most important 
thing that we all could do, at least among us here at this 
table, is to focus on the fundamentals of science, the focus on 
the fundamentals of technical analysis, and put our energy in 
tasks toward trying to get it better. The Justice Department 
can attempt to address the injury in terms of economic value, 
but I have been told by an economist once before that which is 
priceless is valueless. And unfortunately, we are almost in 
that situation.
    I truly am worried about the Gulf. I am less worried about 
how much money the government might collect. I am more worried 
about can we direct our resources to the place it needs to be 
to put back the lives of the people on the Gulf Coast, the 
industry, and the ecosystem.
    Ms. Bordallo. Thank you. We have a panel of scientists 
here, all experts in their field. When they talk about it, and 
you read about this oil spill, they say, well, the recovery 
will be a decade, several decades, many decades. Can anybody 
answer? I know we can't put a firm number on this, but will it 
be many, many decades before all is at least partially normal?
    Dr. Reddy. May I respond?
    Ms. Bordallo. Yes.
    Dr. Reddy. I believe, and I heard this morning somebody say 
that recovery would be a very, very long time. It is my opinion 
that any estimate at this point beyond what we see on the short 
term and perhaps some estimates in terms of what we are seeing, 
any type of quantifier is scientifically imprudent, and it 
frustrates me to hear them do so. We will have a much better 
perspective about the long-term impacts of this spill as data 
comes along and where experts get to sit down from a variety of 
different disciplines to get an idea and a perspective.
    This is by no means giving BP a free pass at all. And then 
we also have to put this in the context of scale. We often hear 
people talk very, very long, long time, and they put it in the 
context of the whole Gulf of Mexico. It is quite possible that 
there will be impacts for a long time, but they may be in small 
aspects of the ecosystem.
    So, I would say at this time, let us slow down, let us 
collect the data, let us be prudent, and in the pipeline we 
will be able to have much more robust estimates.
    Ms. Bordallo. Thank you. Thank you very much.
    Dr. Reddy. Thank you.
    Ms. Bordallo. And now I would like to turn it over to the 
Ranking Member, Mr. Cassidy.
    Mr. Cassidy. Thank you all for your testimony. I just 
whispered to staff that we are going to go on a bipartisan 
basis to try and have some of that BP money that we are going 
to put in escrow, fund proactive research that will be put out 
on an NSF rapid response, et cetera, et cetera, et cetera. So, 
thank you. You have informed me. And I am so confident. I 
mention it here because I am so confident that Chairwoman 
Bordallo will support that.
    Also, Dr. Weisberg, I promise you that Dr. D'Elia also 
believes in earmarks, and has also assured me that they can be 
really good things, and so I have heard from my own 
constituents.
    I am a doctor. I am actually on faculty with LSU Medical 
School. I am an academic. I know that oftentimes we as 
researchers hold our data. We don't release it because we want 
to make the big splash at the meeting. One thing Michael J. Fox 
did, which I thought was very wise in health care, is when he 
started his foundation to promote research into Parkinson's 
disease, he demanded that it be released real time. It may be a 
little dirty, it may not be quite where it should be, but it is 
not going to be encumbered for three years while it is kind of 
polished and goes to a meeting.
    Now let me ask you, in your field, in your academia, is 
data typically impounded? I have learned from Dr. D'Elia, from 
his colleagues, that some of them have data on the Exxon Valdez 
which has still not been released because of threat of court 
order. Let me ask you, what solutions do we have so there can 
be real-time release? If we are successful at getting money for 
proactive research, credit yourself for putting the idea there. 
But second, let me ask the whole panel, what do we do that we 
know that that research has the maximal impact upon the ability 
of the Gulf to heal itself. One, is it a problem in your area 
of academia? And two, how do we address it? Dr. Weisberg?
    Dr. Weisberg. Well, you know, I mentioned IOOS on several 
occasions, and one of the hallmarks of IOOS is that the data be 
open access.
    Mr. Cassidy. And IOOS, what is an IOOS? I am sorry.
    Dr. Weisberg. The Integrated Ocean Observing System that 
was originally promoted by Ocean.US and endorsed by the U.S. 
Commission on Ocean Policy. And so, yes, we share your concern, 
and that was a part of the IOOS concept, open-access data. My 
experience so far with the Deepwater Horizon oil spill has been 
whatever I have produced has gone out on the Internet, and has 
gone in briefing Power Points to anybody that I thought could 
use this, but my information flow has been a one-way street. I 
have not gotten information back that I think is critical.
    Mr. Cassidy. Back from whom?
    Dr. Weisberg. From any of the agencies.
    Mr. Cassidy. Now I heard earlier one of our speakers--I 
think it was one of the women--mentioned that NOAA has been 
putting stuff out, or maybe you, Dr. Reddy--that NOAA has been 
putting out stuff real time. Let me ask you in the context of 
that, continue, Dr. Weisberg.
    Dr. Weisberg. Yes. So, one of the things that I have been 
doing specifically is providing spill trajectories at the 
surface and also attempting to do subsurface tracking, not 
knowing where the oil may be. We use satellite imagery 
interpretations of where the oil is to reinitialize on a daily 
basis the location of the oil, without which these forecasts 
are useless.
    On a cloudy day, we have no satellite imagery. The unified 
command, they have overflights; they have a lot of other access 
to information on where the oil is, and yet there is not any 
provision to provide that information to people like me. And so 
one of my immediate suggestions in my written testimony is that 
be provided immediately so that we, any of us, that are engaged 
in spill trajectory forecasts can provide more accurate 
products. That is one example.
    Mr. Cassidy. Dr. Reed, you spoke of--I think it was you 
that spoke of the GEO. Again, I am learning. So, I am not 
asking you questions to challenge you. I am asking you 
questions to learn. The GEO doesn't have this data in adequate 
amount? Help me out here.
    Dr. Reed. Yesterday, NOAA announced a website called 
geoplatform.gov, where you can go and see a variety of data 
related to this event. It includes images from NASA. It 
includes the surveys on the ground from the SCAT teams about 
where they have seen oil and where they haven't seen oil. It 
includes information that is being put together in terms of 
supporting the response. It is a geospatial platform. You go in 
and you see maps, and you use different layers.
    You can't actually access the data, though. You can see it, 
but you can't actually have it and take it and put it in your 
computer and analyze it in a different way, which is what 
would--that would be a database that would----
    Mr. Cassidy. Michael J. Fox would say put the data out 
there so you can download the database and you can play with 
it.
    Dr. Reed. Yeah. And I understand that that is in process at 
the moment. I had some discussions with NOAA on this, and I do 
believe that is in process. But that really needs to be moved 
out as quickly as possible so that we can do analysis. We can 
assist with understanding what is going on. There is so much 
going on that we can't just rely on the government scientists 
to do everything. We have to be able to play our role, too. And 
so making that data accessible is going to be important.
    I do recognize, though, that some of the data that is being 
collected is going to be kept aside as part of the official 
assessment, and that may not be available. But there is a huge 
amount of data collection out there that is guiding response, 
as opposed to really establishing this legal baseline that we 
could really use.
    Mr. Cassidy. Are we going to have a second round? We are 
going to have a second round of questions. I will yield back 
and come back to a couple more.
    Ms. Bordallo. I thank the gentleman, and now I would like 
to ask for unanimous consent that the gentleman from Florida, 
Congressman Gus Bilirakis, be allowed to join us on the dais 
for this hearing. And hearing no objections, so ordered. And I 
would like to now recognize the gentleman from Florida.
    Mr. Bilirakis. Thank you so much, Madame Chair. I really 
appreciate it, and I apologize for being late. Some of these 
questions may have been asked, but I feel that they are 
important. So, I would like to begin by again thanking the 
panelists for your excellent, informative testimony, and a 
special welcome to Dr. Weisberg from the University of South 
Florida. While not directly from my district, Dr. Weisberg, in 
conjunction with USF, an institution that I have long admired 
and endeavored to assist, has been very helpful to me, in 
particular, by coming to my office and personally briefing me, 
as well as taking the time to consistently brief members of my 
staff. Thank you, Doctor.
    I thank you for sharing your knowledge and your expertise. 
And really, this is the crux of my question, the sharing of 
information. It is irrefutable that you alone at USF were the 
first person, hours after the tragic explosion of the Deepwater 
Horizon rig, to engage instruments you already had placed out 
in the field. These are the same instruments that you had 
deployed as far back as 1993 to help set up your numerical 
calculation models. As I understand it, you have been prodding 
NOAA and other government agencies for years to be better 
prepared for scenarios just like the one we are facing today.
    Since April 21st, 2010, you have shared your information 
with government agencies. Has the government reciprocated by 
sharing information that they have gathered? In your testimony, 
you say that data gaps abound. You suggested that satellite 
data could be supplemented by other means. And again, a quote, 
``ground truth.'' But again, that information has not been 
shared with me, with you, as I understand. That is 
disconcerting to me.
    Who is not sharing the data that can better assist you to 
help fight this environmental and economic nightmare? What can 
Congress do to compel the sharing of information and to make 
sure that the new data exists? If you can answer that question, 
I would appreciate it very much.
    Dr. Weisberg. Thank you. That is a tough one to answer, but 
I will, and I will try to be very candid, and we will see where 
this goes. First of all, I was involved from day one. However, 
I am sure I was not the only one, so let me just make it very 
clear there have been a lot of people involved, and I am one of 
them. And I happen to have an excellent staff and some 
resources in place that allowed me to do that, and I am very 
thankful for that.
    However, my group has received absolutely no resources from 
day one. So, we are doing this out of professional 
responsibility. And I feel that if I am privileged enough to be 
a professor at a university and to be engaged in what I do, 
then I have a responsibility to respond as best I can. So, that 
is what I did.
    I have been frustrated from the beginning that the flow of 
information has not been as good as I would like it to be. And 
in particular, the reinitialization of these trajectory models 
with actual oil locations. As I said, all I have available to 
me are the analyses that my gifted colleagues can do at USF in 
identifying in satellite images where oil may be. It is not an 
easy task.
    Nobody has asked my recommendations on where overflights 
should go. There has been no discussion whatsoever between 
anyone in my group as to how maybe we can assist better. And 
therefore, I am frustrated that I think I can do a better job 
of what I am doing if there was some information flow to me, 
and that has not occurred 57 days into this tragedy. That is a 
pretty strong statement, but I think it is important to make.
    As far as other observations go, we have heard today about 
high frequency radar. And I have made a point in my testimony 
to say that there is no single instrument system that is 
adequate. There is no single model that is adequate. This is a 
complex problem. This is very broad. This is not a problem for 
NOAA, not a problem for the EPA, not a problem for the MMS. 
This is a universal problem, and we have to begin approaching 
it in a more comprehensive manner. Otherwise, we are just not 
going to understand how our systems work. And if we don't 
understand how our systems work, we cannot project well into 
the future as to what the results of this crisis might be.
    So, we have to reevaluate how we do our science in the 
coastal ocean for the betterment of society. I hope that at 
least begins to answer your question.
    Mr. Bilirakis. What if I help facilitate that information 
flow with the united command in St. Petersburg. Would that be 
helpful?
    Dr. Weisberg. Yes, it would.
    Mr. Bilirakis. Very good. Thank you. A couple more 
questions, if I may, Madame Chair. In your testimony, Dr. 
Weisberg, you say, and I quote, ``Scoping out the nature of a 
potential subsurface threat as quickly as possible is necessary 
for contingency planning and possible mitigation.'' Tell me why 
that is important. We have heard all along that the unified 
command, which includes BP, Coast Guard, NOAA, EPA, and 
Interior, say that the flow rate of the oil coming out of the 
wellhead is irrelevant because they are treating this as a 
worst case scenario. Does the oil flow matter at this juncture, 
and how should we be responding to the disaster? And other 
members of the panel are welcome to join in as well. But first 
you, Doctor.
    Dr. Weisberg. Well, let me treat the last question first. I 
think the flow rate does matter, if for no other reason than to 
have been prepared with a surface vessel that can capture more 
than 15,000 barrels per day. If they know it was 25,000 barrels 
per day, then why didn't they have a surface vessel brought in 
that could handle 25,000 barrels per day?
    But getting back to subsurface oil, the ocean circulation 
and the whole organization of ecology is a fully three-
dimensional problem. For example, as oil is now approaching 
Florida, and it has started to hit northwest Florida beaches, 
we know that the region of the continental shelf break where 
the depth all of a sudden drops off into the abyss--we know 
that that is a very sensitive region for all of our reef fish. 
In fact, that is where the gag grouper live as adults, and that 
is where they spawn. And so if there are contaminants in levels 
high enough, with toxicity large enough to impact those 
communities--and I don't know, but if there is, we need to know 
about that because the worst thing we can do then is wipe out 
the fundamental habitat of our reef fishes. And so just because 
we don't see it, just because it is below the surface and we 
don't see it, does not mean it is not a threat. It may even be 
a worse threat than what we can see.
    Mr. Bilirakis. Thank you. Other members of the panel, would 
you like to address it? Does the flow matter?
    Ms. Lee. Yes, I think it does. I mean, certainly the mass 
matters, what is out there. And maybe the answer was in 
relation to what they would do to clean it up, and there are 
limited assets so that you can only clean up so much. But it 
very much matters with respect to injury assessments. And I 
would like to remind the Committee again about restoration. I 
would like to submit that all is not completely lost, that it 
isn't just about preparing for the next spill and having 
research to count the organisms that have died.
    I would like to suggest that if we are smart about 
collecting the information--and let us not even call it 
research. Let us call it appropriate technical response to the 
spill. Let us analyze what is happening. Let us make some 
reasonable conclusions, maybe not to the 95 percent degree of 
certainty that scientists love, but to the degree of certainty 
that we need as policymakers and people who are trying 
desperately to make sure that we have a Gulf and a vibrant 
economy in the near-term rather than decades out. So, I think 
it does matter, and it matters for restoration.
    Mr. Bilirakis. Thank you, thank you.
    Dr. D'Elia. Yeah. I would also like to comment. I think 
flow absolutely does matter. We should understand it. It is 
going to be important to know how much is out there because the 
effects will be determined by how much is there. But it also 
important to know how it is partitioned, where it goes. The 
fate of the oil is extremely critical. If they are using 
dispersants, it may send it in one direction. If they don't use 
dispersants, it may send it in another direction.
    So, all of these things are important. I think as Marcia 
McNutt indicated in the previous panel, doing the mass balances 
is an extremely critical activity that we need to undertake.
    Mr. Bilirakis. Thank you. Madame Chair, thank you. I yield 
back. There is another round. Is that correct?
    Ms. Bordallo. Yes, there is.
    Mr. Bilirakis. OK. Thank you.
    Ms. Bordallo. Dr. Reed, in collecting data about the 
inventory and condition of natural resources as part of the 
natural resources damage assessment, is it helpful to involve 
local programs that may have extensive data and local knowledge 
about impacted resources? And how do you involve these local or 
state entities?
    Dr. Reed. I think it is absolutely crucial, ma'am. One of 
the points I wanted to make about the Louisiana coast and the 
issue of a baseline is that it is constantly changing anyway. 
If we were to go out and collect a large amount of data in 
2010, that would really not give us a good idea about what it 
was like in 2008 or what it would be like in 2012 because it is 
constantly changing. And that is exactly why we need to not 
just go out and look at what it is like now, but we need to 
engage folks who have been tracking it over the last few 
decades to show what path it was currently taking, where were 
areas eroding already, how was the grass growing to begin with. 
You know, was this a bad year; was this a good year?
    And so really engaging those folks that have had studies on 
the ground, particularly in the wetlands, in the barrier 
systems, and the open bays, these complex environments where we 
are not going to be able to go out and measure every little 
piece of it. We need to bring those of us together who have 
studied it for awhile and lay their data on the table. And I 
think most people are willing to do that.
    Ms. Bordallo. Thank you. And I agree with you. The 
experience that these folks bring with them would be very, very 
helpful. What kind of monitoring is needed to understand the 
oil and dispersant impacts on important fish populations in the 
Gulf of Mexico, and what would be needed to implement this kind 
of monitoring?
    Dr. D'Elia. I think it is both a research and monitoring 
question. And we obviously want to do the fundamental toxicity 
studies that one always does and take into account the 
different life stages that fish are involved with, as Dr. Reed 
suggested. So, that will be very, very important. But we also 
need to understand, whenever you work with a pollutant, you 
have to understand dose and exposure. And so trying to 
understand what the dose is, referring to Mr. Bilirakis's 
previous question, is going to be very, very important, and how 
long that dose stays resident, how long the various life stages 
of organisms are going to be affected.
    We want to understand the ecosystem. We want to understand 
trophic relationships. If we do something that causes a 
catastrophic failure of the trophic dynamics, if you will, of 
the coastal shelf, it could have a devastating effect that 
could last for years. If we destroy the ability of fishes and 
shellfish to recruit future generations, then we are going to 
have a serious problem.
    These questions are all up for grab. We need to be studying 
them now. We need to be planning our studies now. We cannot 
wait and hope that later on we can begin these things.
    Ms. Bordallo. And, Dr. D'Elia, do you think that NOAA 
should establish an emergency funding program similar to the 
National Science Foundation's rapid awards for immediate 
collection of ocean observation and environmental baseline data 
in the event of an oil spill?
    Dr. D'Elia. Absolutely, or in the event of another 
catastrophic environmental concern that they might have. There 
isn't a mechanism right now. As a former Sea Grant director, I 
am always proud of what the Sea Grant program does. They have a 
small pot of money, called program development money, that is 
used for that purpose. But it is a very small pot of money. It 
is limited to I think about $10,000 a shot. That is simply not 
enough to do a substantial, credible amount of work.
    The NSF rapid program goes up to $250,000, and is really a 
much better approach. So, frankly, Sea Grant has been 
underfunded for as long as I can remember, and it is an 
extraordinarily important program.
    Ms. Bordallo. Thank you very much. And I would like now to 
call on the Ranking Member.
    Mr. Cassidy. Drs. D'Elia and Reddy, BP has said they are 
going to make everybody whole insofar as they can make people 
whole. Let me ask the two of you, is it possible that BP could 
do so if we don't have prospective, ongoing research as to the, 
again, ongoing effects of this spill? Dr. Reddy?
    Dr. Reddy. No.
    Mr. Cassidy. Yes. I doesn't right, huh? I just want to get 
that for the record because----
    Dr. Reddy. Sorry. I am not being fresh. No.
    Mr. Cassidy. Yes. Dr. D'Elia?
    Dr. D'Elia. I would agree completely.
    Mr. Cassidy. OK. Let me go on to the next one. Let me ask 
the two of you to rate NOAA's response or any Federal agency's 
involvement right now of academia, because you are obviously 
doing some work with them, but in general, rate--we have 
already heard from Weisberg. It is an F. Please rate what you 
think, the Federal Government's response has been so far in 
engaging you in these kind of prospective or----
    Dr. Reddy. Engaging me directly? I have had the luxury to 
speak to NOAA frequently. In fact, I am planning for this 
cruise that I am leaving in a few hours for. I have looked at 
the data that has been released quite quickly, and we have used 
that to make our cruise plans upcoming. So, I consider the fact 
that there has been a lot of transparent data recently. There 
is a website for us to see where every vessel that is in the 
theater is out there, and every research vessel now that is in 
the theater has to update the data that has been out there in 
terms of collection of data and some other raw data that we are 
using as we speak.
    Mr. Cassidy. So, Woods Hole has had a good experience.
    Dr. Reddy. Myself, in interacting with NOAA and the EPA as 
well in terms of recently planning our data, our cruise.
    Dr. D'Elia. I would say that for both NOAA and the EPA, the 
experiences are mixed, and that is because both agencies have 
regulatory and operational responsibilities, and we tend in the 
academic world to be much more oriented to research. And it is 
always the case that if you have to regulate or do something 
operational, like forecast the weather, you are going to make 
those your highest priorities. So, as a result, NOAA and EPA 
both tend to be agency-centric to a certain degree, and that is 
partially the complexity of their mission.
    It would be nice if we could have a way of partitioning out 
the research that each agency does so that it is better 
protected. Years ago in Congress, there was a proposal to 
establish a National Institutes of the Environment to do 
exactly that. But it went nowhere. So, that is a fundamental 
challenge for NOAA, for EPA, and for the academic community.
    Mr. Cassidy. Ms. Lee, again--Dr. Weisberg?
    Dr. Weisberg. Yes. I would just like to just clarify one 
point. I have not received any direct flow of information or 
support from NOAA for this. However, I have interacted with a 
limited number of NOAA scientists, and NOAA does acknowledge 
the work that we are providing on their daily forecast. So, it 
is not as if there has been no, you know, linkages. I just 
wanted to clarify that, for the record. Thank you.
    Mr. Cassidy. Ms. Lee----
    Dr. D'Elia. I would agree with that also, Congressman.
    Mr. Cassidy. Ms. Lee, again, I have been so struck by 
somebody who worked on Exxon Valdez who says that his research 
is still encumbered, however many years later, because of 
litigation issues and subpoenaed, et cetera. When I spoke to 
some of the researchers, they said when they went to the 
marshes, they were confronted by somebody, they said from BP--I 
have learned in this job to say what I have been told, not what 
I know--that took kind of their name, where you are from; if 
you have published anything, we are going to subpoena you sort 
of thing, which is an intimidation for academic who just wants 
to get along with their life.
    So, that said, as the lawyer on the panel, what can we do 
to allow folks like you to do your research without fear of 
being intimidated by the legal process?
    Ms. Lee. Well, that is a challenging question, and I think 
the bottom line is that in some ways there needs to be a 
parallel process. So, to the extent that one wants to get 
compensation--and I believe there is clearly a case here that 
is substantial--then one does need to recognize the limitations 
of the law. The limitation that we are presented is it is an 
adversarial process, and information can be used in ways--I 
think it is inappropriate for somebody to be threatening 
subpoenas.
    Mr. Cassidy. And it may just have been that it was taken as 
a threat and wasn't intended to be----
    Ms. Lee. Correct.
    Mr. Cassidy. But still.
    Ms. Lee. However, I will share with you, I was working on a 
matter in the State of Maine and had occasion to speak with 
someone from the agencies, and the damage assessment team from 
that agency actually was given the same story. They ignored it. 
And I certainly have read within interest the statements made 
by members of the press. Obviously, the beaches are public, and 
people have access to beaches. There is a legitimate concern to 
the extent that there is a hazardous situation, but at this 
point we can't declare the entire Gulf Coast a hazardous waste 
site.
    Mr. Cassidy. I think I heard a kind of presentation of a 
problem by you, but not a real solution. And I am a physician. 
I typically don't like attorneys. But that said, is there a 
solution to this?
    Ms. Lee. Well, there is a solution. One is there needs to 
be a transparent and public process; two, that there is a role 
for the Department of Justice working on behalf of the United 
States to prepare a case. Third, I do believe that the data 
that was collected in Exxon Valdez, we should revisit that 
issue. I am aware of actually, when I was at the Department of 
Justice, which I was, experts who were working on Exxon Valdez 
were actually literally to get rid of their notes by the 
Criminal Division.
    So, that is the kind of thing that there may be a basis for 
it in law, but the bottom line is that that is not very helpful 
for the larger public interest. And I am a different kind of 
lawyer. I don't go out and sue folks. What I try to do is I try 
to work with interdisciplinary teams. So, I don't fit neatly in 
a box. I love science. I love law. I love interdisciplinary 
approaches.
    Mr. Cassidy. So, if you have a way--because sometimes the 
Chair won't--Madame Chair is being very lenient with us. If you 
have something to suggest working with these academics that 
would allow Dr. Reed to do research without fear of being in 
court when she should be teaching classes, that would be 
wonderful if you could suggest that.
    Ms. Lee. Well, I think that we need to have 
interdisciplinary teams. I think we need to have transparent 
information. And the bottom line is the data are the data. I 
mean, one of the problems that you have with more junior 
lawyers and less seasoned lawyers who don't understand 
technical information is they are petrified that a scientist is 
going to say something to hurt their case.
    We have a larger public interest here. The truth is the 
truth. The data are the data. And those working on behalf of 
the Department of Justice and others need to take that into 
account. And so were it up to me, I think greater transparency 
is the watch word.
    Mr. Cassidy. Dr. D'Elia.
    Dr. D'Elia. Yeah, I would just comment. I think that the 
Administration's strategy has very much been to favor the legal 
adversarial process here. And I can understand the motivation 
to do that, to try to recover as much damage money as possible. 
But I think that the downside of that is that it slows down and 
impedes the science that really should be done. And I think 
sooner or later, the Federal Government is going to have to 
make some investments in doing further research without regard 
to whether they are going to be able to recover those damages.
    Mr. Cassidy. Thank you. I yield back.
    Ms. Bordallo. I thank the gentleman, and now I would like 
to recognize the gentleman from Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thanks so much, Madame Chair. I really 
appreciate it. Dr. Weisberg, I would like to learn more about 
the Loop Current. I hate to be particularly regional, but I am 
from the Tampa Bay area, and I am especially concerned about 
the oil spill, how it is going to affect us. Does the Loop 
Current appear to be a natural barrier for the Tampa Bay area 
as it relates to us being directly impacted by oil slicks, 
sheen, or tar balls?
    Dr. Weisberg. The Loop Current stays in deep water. And on 
the west coast of Florida, the continental shelf is, let us 
say, about 100 miles wide or wider. And so the west coast of 
Florida is actually buffered by the extent of the continental 
shelf. If oil gets entrained into the Loop Current, and it has 
been, then it flows south. And presently, the Loop Current has 
shed what we call an eddy, so the oil is actually staying in 
that eddy--as opposed to continuing into the Florida straits 
and up the East Coast. Under other situations, the oil could go 
up the east coast of Florida, where the continental shelf is 
very narrow, at least off of Miami, and that oil can come in 
proximity to land.
    So, the Loop Current is extremely important. Monitoring how 
it evolves between now and several months from now, as long as 
there is oil out there, is critical because that could be a 
game changer. It can determine--the Loop Current could 
conceivably go all the way to the wellhead. And if it does 
that, then a lot of the oil that is up there is going to be 
transported out of that region. And unfortunately, we can't 
predict exactly how the Loop Current will behave.
    Mr. Bilirakis. How will the weather affect--maybe a 
hurricane, God forbid--how would that affect or alter your 
trajectories regarding the Tampa Bay area, or for the Gulf 
Coast, for that matter?
    Dr. Weisberg. It is difficult to say exactly what a 
hurricane will do because it depends from what direction that 
hurricane may approach. So, for example, if a hurricane came 
ashore somewhere in Georgia, the region of the oil spill would 
have very strong winds blowing from west to east. That could 
drive oil along the coast of Florida. If, on the other hand, a 
hurricane came into the Gulf of Mexico from the south and 
progressed westward, those winds would be blowing from east to 
west. So, it is really impossible to state what the impact of a 
hurricane would be without knowing about the actual properties 
of that hurricane. But there certainly would be an impact. We 
just can't really predict in advance.
    Mr. Bilirakis. Other members of the panel, would you like 
to respond to that question, or any question that I asked? Yes, 
please.
    Dr. Reed. Thank you. I would like to make some observations 
about the wetland side of the equation. In Louisiana and in 
Mississippi and Alabama, thus far, we have been very lucky, I 
think, in that most of the oil is still out in the Gulf of 
Mexico. I mean, it is not good that it is there, but it could 
be a lot worse in the wetlands. And what you see when you see 
these images on television is the oil is largely around the 
edge of the marsh, and the marsh kind of catches it as it comes 
in. And this is exactly what we saw in the Lake Barre spill a 
number of years ago in Louisiana.
    I think one of the things that I worry about is not a big 
hurricane, but perhaps a small tropical storm that just lifts 
the water level a couple of feet, and so that instead of the 
grasses sticking out of the water at high tide, when the storm 
comes in, the whole marsh is covered. Not a big enough storm 
that we evacuate New Orleans or something like that, but the 
kind of minor tropical storm that we get a lot in the Gulf of 
Mexico that could just actually spread this oil much further 
into the wetland environment.
    We have oil in some of our wetlands already. We have been 
lucky. It is mostly around the edge. But, you know, we are 
getting into the season where we have events that just could 
carry it a lot further. And that could make it a much more 
widespread problem in the wetland environment than it is at the 
moment.
    Mr. Bilirakis. Anyone else? Yes, please.
    Dr. D'Elia. Yeah. I would just like to comment. I think 
Florida has been very fortunate by and large that the currents 
have done what they have done and that the oil has stayed 
offshore. I also own property in St. Petersburg, and I am a 
courtesy professor at USF. And so I have a strong interest in 
what goes on there as well. I think that the tourism industry 
has been really dealt a hard blow by media reports that suggest 
the situation is worse. And I would encourage people to get the 
word out that Florida is still open for business, and there are 
only certain areas of it that are under siege right now from 
the oil.
    Mr. Bilirakis. I promise I will do my best to get the word 
out.
    Mr. Cassidy. Will the gentleman yield for just----
    Mr. Bilirakis. Yes, please. Of course.
    Mr. Cassidy. You must own a hotel.
    [Laughter.]
    Dr. D'Elia. No, no. I wish I did.
    Mr. Bilirakis. I have one more question, if I may, Madame 
Chair. Thank you. Dr. Weisberg, could you tell me a little bit 
more about the Integrated Ocean Observing System? Has it been 
useful in the past? Can it be useful in the future?
    Dr. Weisberg. The answer is yes, it has been useful in the 
past. It is actually useful right now. It could be much more 
useful if we really begin to implement it. And so there is a 
concept advanced in 2002 for this Integrated Ocean Observing 
System that would be a full partnership between the agencies 
and the academics and the private sector. And there was an 
original ramp-up to $500 million that had been suggested in 
2002. The President's Commission on Ocean Policy increased that 
to $750 million. I have been using numbers more like a billion 
myself.
    Whether or not these dollars are adequate depends upon how 
they are distributed. And so when I say partnership, I mean a 
true partnership. The academics have an extremely important 
role to play, as does the private sector and the agencies, 
obviously. But R&D, research and development, is really a 
purview of the academic community. Operations obviously is a 
purview of the agencies. But we can't improve upon our 
operations unless we have adequate R&D. And we can't improve 
upon our environmental stewardship unless we really understand 
how these systems work.
    So, if you want to fix your car, you have to open a book 
and see how the thing works, otherwise you can't fix your car. 
We don't know well enough how our coastal oceans work. And so 
that is going to be what IOOS can provide for us, that set of 
observations and models and enough people thinking about this 
massive problem that we can really start bringing closure to 
our understanding of the workings of the deep ocean to coastal 
ocean to estuaries.
    Mr. Bilirakis. Thank you. Anyone else want to comment on 
that?
    Dr. D'Elia. Yeah. I just wanted to emphasize what Bob said. 
I think he is absolutely right about distinguishing the 
operational side from the need for R&D. We really can't make 
progress until we do the necessary R&D, and that is going to be 
continuing as circumstances change. We live in an environment 
that has constant new challenges, and accordingly, we need to 
always be up on our research. You never get to the stage where 
you know enough to deal with everything. And I think that is 
one real lesson that is going to emerge from this event.
    Mr. Bilirakis. Thank you. Thank you, Madame Chair. Thank 
you for allowing me to sit on the panel, and I yield back.
    Ms. Bordallo. I thank the gentleman from Florida. I guess I 
am going to ask the final question here before we close the 
Subcommittee hearing. On behalf of my colleagues, I am sure 
they are very anxious to hear the answer to this question. Can 
anyone on the panel speak to the safety of seafood from the 
Gulf, given what we do not know about the dose and the toxicity 
of the oil and the dispersant? How will we know when our 
seafood is or is not safe to eat? We are all anxious to know. 
Can anybody answer that?
    Dr. Reed. We have certainly in Louisiana very good programs 
in place even before this event came through about seafood 
safety. We have extensive monitoring of oyster beds. The state 
Department of Health and Hospitals, in conjunction with the 
state Department of Wildlife and Fisheries--this is the kind of 
thing that is vital to us in Louisiana. We don't want a bad 
reputation about our seafood, that we regularly close oyster 
leases if there is a problem with any kind of microorganism or 
anything like that. I think the approach in Louisiana is that 
seafood safety, good seafood, tasty seafood, healthy seafood 
that is not going to get you sick, that is our brand, if you 
like. And so the state has very good programs in place at the 
moment, and I am confident that they are only going to be 
allowing to market seafood which is safe.
    Ms. Bordallo. Thank you. That is a very good answer. Now we 
can have our seafood lunch and dinners.
    Dr. D'Elia. I can also comment on that. I would like to 
just echo very strongly what Denise just said. And as a former 
Sea Grant director, I know something about seafood and the 
attention that is paid to having quality seafood. I was also in 
this area as a Maryland Sea Grant director back when the 
Pfiesteria crisis hit in the '90s, and I can tell you that the 
worries about seafood in one very small geographic area caused 
people to shun seafood in a much wider area, even when there 
were no effects going on from Pfiesteria. And I am worried 
about the same thing going on here. It is almost like the 
tourism thing. If the oil doesn't reach the seafood, it is not 
going to be a contamination problem. And the oil has not 
reached a lot of the fisheries that we are now using to produce 
seafood.
    Obviously, the state agencies in all the states will be 
monitoring this closely, as will FDA and NOAA and others who 
are involved with this, and I am confident that they will be 
very cautious.
    Ms. Bordallo. Well, thank you. And that is good news. I 
want to thank the second panel and all of the witnesses for 
their participation in the hearing today. And I would like to 
remind the members of the Subcommittee that they may have 
additional questions for the witnesses, and we will ask you to 
respond to these in writing. In addition, the hearing record 
will be held open for 10 days for anyone who would like to 
submit additional information for the record.
    So, if there is no further business before the 
Subcommittee, the Chairwoman thanks the members for their 
participation here this morning. And the Subcommittee now 
stands adjourned.
    [Whereupon, at 12:57 p.m., the Subcommittee was adjourned.]

    [Additional material submitted for the record follows:]

    [A letter submitted for the record by William Y. Brown, 
President, Natural Science Collections Alliance, follows:]

June 18, 2010

The Honorable Madeleine Bordallo
Subcommittee on Insular Affairs, Oceans and Wildlife
United States House of Representatives
1324 Longworth House Office Building
Washington, DC 20515

Re: Hearing on ``Ocean Science and Data Limits in a Time of Crisis''

Dear Ms. Chairwoman:

    As President of the Natural Science Collections Alliance (NSC 
Alliance), I thank you for recognizing the importance of biological 
collections during the Subcommittee's recent hearing about science and 
its role in understanding and responding to the problems associated 
with the Deepwater Horizon oil spill.
    The NSC Alliance is a nonprofit association that supports natural 
science collections, their human resources, the institutions that house 
them, and their research activities for the benefit of science and 
society. Our 100 institutional members are part of an international 
community of museums, botanical gardens, herbariums, universities, and 
other institutions that house natural science collections and utilize 
them in research, exhibitions, academic and informal science education, 
and outreach activities.
    As you know, Dr. Jonathan Coddington, associate director of 
research and collections at the National Museum of Natural History, 
testified before your subcommittee about the importance of natural 
history collections. As Dr. Coddington noted, the Smithsonian's 
collections of marine biological specimens represent a unique and now 
irreplaceable resource to describe quantitatively the pre-spill Gulf of 
Mexico ecosystem. These collections document the biological diversity 
of the region prior to the oil spill, and will contribute to 
assessments of the spill's environmental impacts and will help to guide 
ecological restoration efforts.
    Scientific collections held by other institutions will also 
contribute valuable scientific knowledge to the oil spill response. As 
Dr. Coddington noted, an estimated 42 percent of publically available 
biological specimens from the Gulf of Mexico are held by entities other 
than the Smithsonian Institution. Numerous universities, museums, and 
non-profit research centers hold biological specimens collected from 
the region. These collections serve as vital sources of biological 
information about the Gulf of Mexico and the southeastern United 
States.
    Our nation's natural history collections, whether held at a 
national museum or in a university science department, contain genetic, 
tissue, organism, and environmental samples that constitute a library 
of Earth history. These specimens and associated data drive cutting 
edge research on the significant challenges facing modern society. 
Beyond informing oil spill response and restoration, these specimens 
enable researchers to answer questions about the effects of climate 
change, the spread of invasive species and pathogens, and the loss of 
biological diversity and its effects on ecosystem function. In short, 
natural history collection specimens and associated data enable 
scientists and natural resource managers to develop the knowledge 
required to inform environmental management.
    Unfortunately, for too many years, the federal government has 
failed to make an adequate or coordinated investment in natural science 
collections. Thus, we often hear from curators about backlogs of 
specimens that have yet to be identified or properly curated. There is 
also a need to digitally capture and make available information about 
key holdings. For these and other reasons, the NSC Alliance has 
requested that the President promulgate an Executive Order establishing 
a formalized interagency process for the preservation and use of the 
nation's science collections, both federal and non-federal. Information 
about the NSC Alliance proposed order is available on our Web site at 
http://nscalliance.org/?p=139.
    Once again, thank you for focusing attention on the importance of 
science collections to responding to environmental and public health 
crises. I would welcome an opportunity to discuss with you the 
importance of a sustained and coordinated federal investment in the 
nation's scientific collections. Please do not hesitate to contact me 
at 215-299-1016 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="8cfbeefee3fbe2ccede2fffca2e3feeb">[email&#160;protected]</a>, or Dr. Robert Gropp, Director of 
Public Policy, at 202-628-1500 x 250 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c0e1b0e130c0c3c1d151e0f52130e1b52">[email&#160;protected]</a>

Sincerely,

William Y. Brown
President
Natural Science Collections Alliance
                                 ______
                                 
    [A letter submitted for the record by Ronald S. Tjeerdema, 
Ph.D., Professor and Chair, Diplomate, American Board of 
Toxicology, follows:]

June 23, 2010

The Honorable Madeleine Z. Bordallo
Subcommittee of Insular Affairs, Oceans and Wildlife
Committee on Natural Resources
US House of Representatives
Washington, DC 20515

The Honorable Henry E. Brown, Jr.
Subcommittee of Insular Affairs, Oceans and Wildlife
Committee on Natural Resources
US House of Representatives
Washington, DC 20515

Re: Data gaps in oil spill research

Dear Chairwoman Bordallo and Ranking Member Brown,

    Thank you for the opportunity to contribute input regarding the 
existing data gaps that may hinder the ability of Regional Response 
Teams to respond to marine oil spills in the future (the subject of the 
recent hearing on June 15, 2010). As a professor of environmental 
toxicology, I have directed research on the environmental fate and 
toxic actions of crude oil, dispersants and dispersed oil for almost 25 
years (resulting in nearly 150 peer-reviewed publications and 
proceedings abstracts). In light of the recent Deepwater Horizon 
blowout, it has become apparent that there are a number of data gaps 
that need to be addressed prior to the next spill event.
    Following the Exxon Valdez oil spill in 1989, interest in the fate 
and effects of crude oil, dispersants and dispersed oil increased 
dramatically - with a concurrent rise in research funding made 
available by numerous federal and state agencies, as well as the oil 
industry. However, over the past decade both interest in oil spills, 
and research funding, dramatically declined; today there are few active 
sources. Thus, many important areas have not been addressed, leading to 
the data gaps that have become so apparent with the current Gulf of 
Mexico oil spill.
    In general, once an oil spill has occurred responders first 
determine whether a formal response is necessary. If the spill is 
limited in scale, and moving away from important shorelines and/or 
resources, it may be sufficient to allow it to degrade naturally. 
However, once the decision is made to formally respond, the means then 
need to be identified. Common methods include removal (via booms/
skimming), burning, chemical dispersal and bioremediation. Often small 
spills can be adequately dealt with via removal techniques, but for 
larger spills usually a combination of methods is necessary. However, 
technology has advanced little over the past decade, and for the most 
part both short- and long-term environmental consequences remain 
largely unknown.
    Obviously, numerous data gaps exist. General research areas 
requiring attention include:
        1.  Development of improved collection techniques. The current 
        generation of skimmers collects much more water than oil, 
        making them highly inefficient.
        2.  Design of more effective corralling systems. Booms 
        currently in use are only effective in calm seas, and without 
        efficient booms the effectiveness of skimming declines 
        dramatically.
        3.  Evaluation of currently available dispersants for 
        effectiveness using a wide variety of oil types, weathered 
        states and environmental conditions. Every oil spill is unique, 
        and the best decisions involving dispersant selection and use 
        depend on data specific for the oils and conditions unique to 
        each spill.
        4.  Short- and long-term fate of both naturally-dispersed and 
        chemically-dispersed oils under varying environmental 
        conditions should be characterized to determine the influence 
        of droplet size, persistence and potential formation of more 
        toxic products.
        5.  Both acute and chronic toxic effects should be 
        characterized for both naturally-dispersed and chemically-
        dispersed oils using the sensitive life stages of marine, 
        estuarine and freshwater organisms likely to be impacted in the 
        future.
        6.  Development of more effective microbial systems for 
        bioremediation that are optimized for a variety of fresh and 
        weathered oils, their chemically-dispersed forms and various 
        environmental conditions. Ultimately nature degrades petroleum, 
        primarily through microbial degradation. However, advanced 
        bioremediation techniques possess the potential to enhance 
        degradation rates, leading to decreased environmental impacts.
        7.  The potential for development of ``dead zones'' from the 
        localized release of massive amounts of organic carbon, which 
        would potentially elevate biological oxygen demand (BOD), 
        should be assessed. Hydrocarbon degradation by microbes has the 
        potential to produce anoxic conditions, leading to toxic 
        impacts.
    These are some of the main areas of need from my vantage point of 
nearly a quarter century investigating the fate and impacts of oil and 
dispersed oil. During that time, and with support from the California 
Office of Spill Prevention & Response, my research team developed a 
state-of-the-art oil spill research facility which provided much of the 
data on both oil dispersant and dispersed oil toxicology that is 
currently guiding responders in the Gulf of Mexico. However, research 
funding has declined by over 90% during the past decade, which has 
dramatically slowed our progress.
    The good news is that our program and others are poised to address 
the current data gaps if sufficient research funding can again be made 
available. I would suggest support in the area of $25 million per year 
be dedicated to the areas listed above, and recommend that it be 
administered by agencies such as the National Science Foundation and 
the US Environmental Protection Agency, as they are well equipped to 
solicit targeted research proposals and organize the peer review 
necessary to identify projects of the highest quality.
    I hope I have been helpful, and please do not hesitate to contact 
me if I can be of further assistance.

Best regards,

Ronald S. Tjeerdema, Ph.D.
Professor and Chair
Diplomate, American Board of Toxicology
Phone: 530-754-5192
FAX: 530-752-3394
Email: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f68485829c93938492939b97b683959297809f85d8939283">[email&#160;protected]</a>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
